<html>
<title> - COMMITTEE ON APPROPRIATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    LEGISLATIVE BRANCH APPROPRIATIONS
                                 FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                              __________________

                    SUBCOMMITTEE ON LEGISLATIVE BRANCH

                         TIM RYAN, Ohio, Chairman

  C. A. DUTCH RUPPERSBERGER, Maryland	JAIME HERRERA BEUTLER, Washington
  KATHERINE M. CLARK, Massachusetts	DAN NEWHOUSE, Washington
  ED CASE, Hawaii

  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                     Matt Washington and Sue Quantius
                            Subcommittee Staff

			     ________________
			     
                                  PART 2

                   FISCAL YEAR 2021 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                  

                            _________________

          Printed for the use of the Committee on Appropriations


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-647 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California
  LOIS FRANKEL, Florida
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  KAY GRANGER, Texas
  HAROLD ROGERS, Kentucky
  ROBERT B. ADERHOLT, Alabama
  MICHAEL K. SIMPSON, Idaho
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  CHUCK FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  JOHN H. RUTHERFORD, Florida
  WILL HURD, Texas

                 Shalanda Young, Clerk and Staff Director

                                   (ii)

                            C O N T E N T S

                               __________

                               Testimony

                                                                   Page
U.S. Capitol Police..............................................     1

Open World Leadership Center.....................................    31

Congressional Budget Office......................................    65

Office of Congressional Workplace Rights.........................    85

Government Accountability Office.................................   105

Library of Congress..............................................   137

House Officers Budget Request....................................   173

Members' Day.....................................................   235

Testimony of Interested Individuals and Organizations............   259

                                 (iii)

 
                   LEGISLATIVE BRANCH APPROPRIATIONS 
                                FOR 2021

                              ----------                              

                                        Tuesday, February 11, 2020.

                      UNITED STATES CAPITOL POLICE

                                 WITNESS

 STEVEN A. SUND, CHIEF, U.S. CAPITOL POLICE, WASHINGTON, D.C.
     Mr. Ryan. We are going to gavel in the hearing. I call the 
hearing to order on the United States Capitol Police.
     Thank you, Chief Sund; Assistant Chiefs Yogananda Pittman 
and Chad Thomas; Chief Administrative Officer Richard Braddock; 
and members of the Capitol Police executive team for joining us 
today to discuss the United States Capitol Police fiscal year 
2021 budget request.
     The Capitol Police is obviously an essential agency of the 
legislative branch. Chief, your team is charged with keeping 
Congress, our colleagues, its members, employees, visitors, and 
facilities both here and within our districts safe and 
protected from harm's way.
     The men and women of the Capitol Police put their lives on 
the line each day to ensure Congress can operate efficiently. 
You do your job so that we can do ours in a safe, secure, but 
open environment. Thank you, Chief, and all the officers and 
civilians of the Capitol Police that work tirelessly to ensure 
the safety and security of the Capitol Complex.
     Currently, resources for Capitol Police are almost 10 
percent of the entire legislative branch budget, totaling $464 
million. For fiscal year 2021, the Department has requested 
$520 million, which is a 12 percent or $56 million increase 
over the fiscal year 2020 enacted total. We appreciate your 
commitment to keeping our Capitol Complex physically safe. 
Safety, security, and wellness remain the subcommittee's top 
priorities.
     With that being said, Chief, thank you and the Department 
again for your service. I look forward to your testimony today.
     And with that, I would like to yield to my colleague, 
Ranking Member Jaime Herrera Beutler.
     Ms. Herrera Beutler. Thank you, Mr. Chairman.
     And thank you, Chief Sund, and to all of you for being 
here today. Congratulations on your promotion this past June, 
and welcome to your first approps hearing as Chief. Your 
background with the Metropolitan Police Department and time as 
assistant chief I think makes an ideal combination for fresh 
ideas paired with some institutional knowledge. I look forward 
to working with you to ensure that the Capitol Complex and 
campus stay safe for both lawmakers but for our visitors, for 
the American people.
     The United States Capitol Police is the most visible 
legislative branch agency here on Capitol Hill, whether it is 
driving around on the surrounding streets, entering any of the 
buildings, or walking our hallways and grounds, the Capitol 
Police are always present and on the watch, which makes me feel 
good ensuring the safety of the millions of people that are on 
Capitol Hill each year.
     The Department is constantly being asked to do more. Over 
the last few years that has included things like protecting the 
O'Neill House Office Building, the garage security, the pre-
screeners, the House Childcare expansion, and most recently, 
the Little Scholars Daycare Center. So, Chief, you and your 
team, I think, have really stepped up to the plate time and 
again to get the job done, and I thank you all for that very 
much.
     Another reality is the Department has been involved in a 
number of disciplinary and litigation issues that have been 
quite public over the last few years. And although the facts 
for each case are different, one observation I will offer is 
that the Department would certainly benefit from two things: 
One is an updated collective bargaining agreement between the 
Department and the union, and I know you have just started--I 
think you have just started those negotiations and the second 
is an improved internal process and procedures for consistent 
discipline and performance reviews. So, again, I thank each of 
you not just for being here but for what you do, and we are 
very, very grateful.
     So with that, I yield back.
     Mr. Ryan. Thank you.
     Without objection, Chief Sund, your written testimony will 
be made part of the record. With this in mind, please summarize 
your statement and highlight your efforts of the past year to 
the committee. After your statement we will move to the 
question-and-answer period so please begin.
     [The information follows:]
     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
     Chief Sund. Thank you for the very kind remarks. Good 
morning. Thank you for the opportunity to present the 
Department's fiscal year 2021 budget request. We greatly 
appreciate the subcommittee's continued support by providing 
the necessary resources to carry out our crucial mission.
     Joining me today are Assistant Chief Yogananda Pittman, 
Assistant Chief Chad Thomas, and Chief Administrative Officer 
Richard Braddock. Also joining us are Michael Bolton, Capitol 
Police Inspector General; and Gus Papathanasiou, Chairman of 
the Capitol Police Fraternal Order of Police.
     Chief Sund. They play an important role in our successful 
operation, and I truly appreciate their contributions.
     Mr. Chairman, as was mentioned in the opening statements, 
as the only law enforcement agency responsible for protecting 
Congress and the Capitol Complex, the policing we engage in is 
highly specialized to focus on unique requirements of 
protecting our legislative process and maintaining a safe, open 
environment.
     We detect, investigate, and prevent threats made against 
Congress. We provide steady, watchful presence throughout the 
Capitol Complex as we are responsible for ensuring the 
continuity of government.
     As chief, I could not be more proud to lead this 
department and our dedicated team whose commitment to 
protecting this institution is on full display each and every 
day. I look forward to leading this department into the next 
decade, especially as our responsibilities continue to grow in 
number and in scope.
     We recently added the O'Neill Office Building, House 
garages, and prescreening security capabilities into our 
portfolio. And the growing number of threats, along with our 
increased efforts to coordinate with law enforcement agencies 
in the National Capital Region and across the country, 
continues to be of grave concern and a major focus on our 
resources.
     Since 2017, threats against Congress has increased 124 
percent and our law enforcement and coordination efforts have 
increased by 236 percent. To ensure that we have the needed 
oversight of our increasing responsibilities, upon becoming 
chief, I added a second assistant chief to our command staff. 
Today we have assistant chiefs that oversee uniformed 
operations and one dedicated to our preventative and 
intelligence operations.
     Another priority is to further strengthen our threat 
detection and assessment capabilities. As threats against 
Congress continues to increase and evolve, so must our 
capabilities. To achieve this we are identifying needed 
technologies, staffing, and process enhancements, and we are 
constantly working to maintain strong partnerships within the 
intelligence community.
     In the past 6 months, we have thwarted a number of serious 
threats against Members of Congress that have led to a number 
of arrests. Just as important, based on our thoroughness of our 
investigations is that these cases are being prosecuted across 
the country.
     This summer we will be playing a crucial role in both the 
Democratic and Republican National Conventions. Each of these 
events requires extensive planning and resources, and we are 
working closely with our various partners to enhance the 
protection of Members at these events.
     Paramount to successfully executing our mission is the 
health and well-being of our people. Therefore, a new employee 
Wellness and Resiliency Division under the chief administrative 
officer was established last fall. It is charged with 
addressing employees' physical, nutritional, mental, and 
financial well-being. It will also expand department-wide 
efforts to further promote overall well-being and the healthy 
work/life balance for our employees.
     To continue being a leader within Federal law enforcement 
and to get ahead of potential threats, we have developed this 
budget request with an emphasis on providing specialized 
training as well as obtaining tools and technologies needed to 
maintain the highest levels of readiness.
     Our budget request will allow us to meet our mandatory 
salary requirements to fund critical training to ensure the 
security of the upcoming inauguration and address other 
mission-related expenses. It does not include requests for any 
additional FTE.
     However, we are facing increasing personnel costs due to 
outside requirements. Specifically, we are requesting $7.9 
million to cover an increase in OPM-mandated employee 
retirement benefit cost increases. In addition, we are 
requesting $7.8 million for the fiscal year 2021 COLA and 
related benefit costs.
     Next January, the Capitol will be the center of global 
attention as it hosts the presidential inauguration. Our 
planning is underway and our budget request includes $2.9 
million in overtime for inaugural-related events.
     Our general expenses request includes funds to upgrade 
network and infrastructure equipment, computer hardware and 
software, and specialty equipment. Also included is $3.6 
million to replace the antiquated enunciator system that was 
installed after September 11. As threats continue to change, so 
too should the tools we use to communicate with Congress.
     Remember, Mr. Chairman, to ensure that we are always at 
the ready, it is important that we make these crucial 
investments in our people and our resources. This budget 
request was developed with great thought and discipline to 
ensure that the necessary mission requirements were at the 
forefront of our planning and prioritization.
     In closing, I just want to note that while physical 
security are important it is our officers that are our greatest 
assets in helping prevent threats and respond to any crisis. 
Our team continues to impress me with their professionalism, 
whether it is conducting security screening, providing valuable 
support behind the scene, or responding to a threat or 
emergency.
     Again, I thank the subcommittee for your support. We will 
work with you to ensure that we meet the needs of Congress and 
to successfully accomplish our mission today while preparing 
for the challenges tomorrow.
     I am prepared to address any questions you may have. Thank 
you.
     [The information follows:]
     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
     Mr. Ryan. Thanks, Chief.
     Mr. Case from Hawaii, the gentleman from Hawaii.
     Mr. Case. Thank you, Chief. And I know that every one of 
us means this when we say thank you so much for your service, 
all of your service. It certainly is very comforting that you 
are all on the job, and we obviously are here to help you do 
your job.
     You made a comment in your testimony that outside law 
enforcement coordination efforts had increased 237 percent 
since 2017. I think that was the testimony. And I am asking 
you, what exactly does that mean? And the reason I am asking is 
because obviously we all, Members, don't only live and work in 
the Capitol where you take very good care of us, but we are out 
in our districts.
     None of us wants to go into a shell. We want to be out 
there interacting with the public. We do that. It is part of 
our jobs. And yet, the reality is that that is a more risky 
enterprise than it used to be, and your projection therefore of 
the protection that you provide out of the Capitol and into our 
communities is critical.
     And I know I have benefited from this back in Hawaii where 
I do frequent open house community meetings, and we tell you 
every time and you coordinate back with the Honolulu Police 
Department and we have coverage at those town meetings, which 
is very comforting not just for me but for my staff and my 
guests there.
     But that all comes at an expenditure of time and I assume 
money. And so I am curious what the demands are in terms of 
your projection out of the Capitol and whether you believe that 
you are adequately servicing those needs, whether there are 
issues there that need to be addressed and whether there are 
financial issues that are not being addressed.
     For example, I don't really know what the agreement is 
between Capitol Police and Honolulu Police Department. Is it 
just a request to take over from that perspective with no 
financial, compensation for that and I am not saying it should 
be. I am just asking--the bigger question is, how do you handle 
the increasing projection of your responsibilities out of the 
Capitol itself?
     Chief Sund. Thank you very much for the question. That is 
a very good question. We have a lot of resources around the 
Capitol and the National Capital Region to provide the security 
that is necessary around here. Like you said, we have many 
Members around the country with their district offices and 
every State and area and including Hawaii.
     This is a way of us working smarter, not necessarily 
harder, to provide the protection that we need, and it is based 
on really an assessment of an event. You had talked about a lot 
of times you will contact our department and mention that you 
have an event.
     The first thing that happens is we do an assessment of the 
event. We do an assessment of any concerning communications 
regarding the event and determine is this something that the 
local law enforcement can handle. We have got great 
relationships with the law enforcement across the country.
     And most of the time it is a call out to a representative 
with that agency to let them know, and they will have the 
officer--usually it is the officer that patrols the immediate 
area will provide additional coverage for that. If our 
assessment indicates that the need be, we will deploy our 
resources to provide additional coverage and, again, it is 
based on the assessment.
     So right now when we get that additional coverage it is a 
way of us expanding our protection over the Members, and most 
of the time it is not at a cost when we are utilizing the local 
and State resources that we have out there. So that is kind of 
how that works. But it provides us the ability to provide 
protection to the various district offices around the country 
in an effective manner based on an effective assessment of the 
event.
     Mr. Case. Do you believe that from a physical perspective, 
just a raw financial resources perspective you are able to 
handle that doubling, actually more than doubling of your 
coordination efforts with other law enforcement agencies that I 
assume is simply going to continue to ramp up?
     So, we have seen it 237 percent in just a few years, and I 
assume that that is not plateauing at this point. You probably 
have to do more coordination as time goes on. So are you okay 
from a financial perspective with handling that coordination?
     Chief Sund. Yeah. With the budget and the outlook, like I 
said, it was 236 percent increase since 2017. I think right now 
we are up to 1,000--last year we did 1,715 law enforcement 
coordinations, so we do see it increasing. We are utilizing our 
existing staff to be able to address that. So I think we are in 
a good place to be able to address it, but we are always trying 
to identify, you know, efficiencies, ways that we can 
coordinate it because we see a true value in having that 
coordination done.
     And then when we deploy we work very closely with our 
House and Senate Sergeant at Arms to evaluate our assessment of 
an event. And we deploy--and, again, that deployment of our 
resources we feel is critical if the assessment determines that 
we need to put resources on the ground. I think we are in a 
good place to do that.
     Mr. Case. Okay. So I am hearing you say you are okay with 
the way things are right now, and I just want to--
     Chief Sund. Well----
     Mr. Case. Make sure that that is okay, because, again, I 
think that that is a growing part of your job and an 
increasingly important part of your job.
     Chief Sund. Right. It is definitely a stress on resources, 
but it is something that we see, it is something that we 
monitor. And we are in place to identify ways that we can try 
and, continue to cover it. It is a significant increase, 236 
percent, up to, over $1,700 last year, but it is something that 
we feel necessary to have to cover.
     Mr. Case. Okay. Thank you very much.
     Mr. Ryan. Thank you. And we also put security money in the 
MRA for those kind of things too locally. If I do a townhall in 
Akron, Ohio, it is the Akron PD that is there. And we have a 
little bit of money now to try to help facilitate that, so to 
relieve some of the pressure from you.
     Ms. Herrera Beutler.
     Ms. Herrera Beutler. Thank you.
     So you had referenced kind of the new, not department but 
entity for addressing and helping with work/life balance, and 
that is an area where I am interested in for department 
employees in relation to pregnancy and nursing.
     As a mother, obviously a top issue for me is ensuring that 
pregnant women are fairly and reasonably accommodated in the 
workplace, which I have introduced legislation on. But my 
question is, what has the Department undertaken to date to 
assist working mothers or pregnant women in the workplace?
     Chief Sund. Thank you very much for the question. That is 
a very good question, and I share your concern. Being a father 
of three, I know the impact it can have with a mother coming 
into the workplace and having to deal with pregnancy and 
nursing. And it is something that--we value our employees. We 
want to make sure that our employees are able to come to work 
and provide as much service as possible but feel very valued in 
our response.
     So there has been a couple things that we have done to 
address pregnancy and nursing. Back in May, we developed a 
temporary restricted duty policy. What that does is it allows 
officers that are not able to provide full-duty service to get 
into an administrative or a function that they don't have to 
wear their uniform, don't have to carry all the equipment but 
they can still provide a function.
     So back in May, we developed this, and what it 
specifically addressed for pregnant and nursing women is that 
six months in advance of delivery they can come in and request 
a temporary restricted duty position. So that allows them to 
get in a temporary restricted duty position.
     That policy also allowed post-delivery 12 months of 
restricted duty, because we know a lot of times some of the 
recommendations for nursing is 12 months following delivery. So 
it is something that--can be extended based on needs. And even 
the 6 months in advance, based on medical needs of the mother, 
can be extended.
     Working with the union, we identified a way that really 
needed to be streamlined. Back in December, we determined that 
for pregnant or nursing women to get into the temporary 
restricted duty policy it needed to be streamlined and allow 
them to--all they have to do now, rather than going through a 
process that may take a couple days to get them into their 
temporary restricted duty position, once they let an official 
know, they will immediately be placed into restricted duty 
position, no questions asked.
     There is no need for a followup fitness for duty. They get 
put in the position. We try and make it as easy as possible and 
streamlined as possible. And I have got to say, it was a good 
coordination between the union and us. They brought a concern 
to our attention; we addressed it within 24 hours. We had a 
policy change and we had it addressed, so it was much more 
streamlined and much more beneficial, I think, to the working 
mothers that we value.
     Ms. Herrera Beutler. Well, I think this is an area where 
we are seeing across the Nation. It is just time to make sure 
that we are addressing it. And if there is the opportunity for 
reasonable accommodation, by all means, thank you for leading 
and making that happen because it is not happening everywhere 
and there are some pretty big consequences.
     And considering women are a significant--actually now we 
are the most, right, in the workplace, I think there is more 
women in the workforce today than there are men, and I just 
think it is an issue that we should be past actually. So I 
appreciate you staying on that.
     Another question that I have, checking my time, I am----
     Mr. Ryan. You are good. Take your time.
     Ms. Herrera Beutler. I am a cosponsor of the Threat 
Assessment Prevention and Safety Act which would require 
Capitol Police to have a representative on the newly 
established DHS Joint Behavioral Threat Assessment and 
Management Task Force. Those are hard for me. I know you guys 
deal in acronyms and long titles so it is nothing for you.
     But in the absence of such a task force, what are USCP's 
capabilities in this area currently, and does the U.S. Capitol 
Police work with other Federal law enforcement agencies in 
sharing various intelligence and threat assessments today?
     Chief Sund. Thank you very much for the question. And I 
applaud your support in sponsoring a bill such as that. I would 
like to comfort you in saying that the Capitol Police actually 
had one of the first threat assessment sections in a law 
enforcement in the country. We started in 1986. We have been 
developing it ever since.
     We work extremely closely with Secret Service, FBI, FBI's 
Behavioral Analysis Unit, DHS, we have people up at the 
National Operations Center, and we work very closely with 
coordinating and sharing some of the information and 
intelligence that we have specific to some of the threat 
assessments.
     We have clinical psychologists on staff that we can turn 
to to help us with our threat assessments, probably some of the 
best in the country, one of the best in the country when it 
comes to that. So it is something that I think we were well 
suited for, something much like what you are talking about. I 
think we are already involved in things very similar to what 
your bill sponsors in our work.
     But, again, I think our involvement with the various task 
force has proven to be very beneficial to our department in 
mitigating a lot of these threats, arresting and prosecuting a 
lot of these threats, to include concerns for cyber and being 
involved in some of the cyber task force. So thank you very 
much. I appreciate your involvement in that.
     Ms. Herrera Beutler. I yield back.
     Mr. Ryan. Mr. Newhouse.
     Mr. Newhouse. Thank you, Mr. Chairman.
     Ladies and gentlemen, welcome. I appreciate you being 
here. And let me add my voice to everyone else's of saying 
thank you, Chief, and thanks to everyone for everything that we 
expect of you and ask of you to do. You are being constantly 
vigilant on our behalf, and we owe you a debt of gratitude, so 
thank you for all of that service.
     So I come from a rural area as well and remote, I guess, 
not as remote as Hawaii sometimes, I suppose, but some similar 
challenges and issues in rural areas. And we just had a staff 
retreat recently where we spent some time talking about the--my 
staff will have district office hours, will go out into 
different communities, and so one person will be at one place 
and constituents will come in.
     We actually spent a lot of time, should that person, if 
they have a concealed carry permit, should they have a gun with 
them, what should we do, how do we make sure they are safe, 
what kind of things can we do to make sure their comfort level 
is increased.
     We have great relationships with our local police 
department, sheriff's offices, even the Washington State Patrol 
and work with them a lot. But just any ideas or suggestions, 
thoughts, that you guys could share with all Members on how to 
make sure district staff is as safe as possible?
     Chief Sund. Thank you very much for the question. That is 
something actually we do already on a fairly regular basis. We 
know a lot of people have various districts, like you said, and 
fairly rural, some are in urban areas. Different areas provide 
different requirements for safety and security.
     A couple things that we can do. You have got a great 
relationship with your local law enforcement, that is probably 
first and foremost, it is great to have. You always want to 
have your point of contact.
     The other thing is, working with the Sergeant at Arms we 
have developed a program where we can come out and do security 
awareness briefings. A lot of times now, as an efficiency we 
are doing them now by video teleconference, which is pretty 
effective.
     And we can talk to your staff about how to handle personal 
security, how to determine what security is necessary within an 
area. New people that get new Member orientation when they come 
here, we talk to them about Washington, D.C., safe area but 
different things you want to be aware of.
     So we can provide these security awareness briefings to 
your staff. We can talk to them about things that they may need 
to know as they go out into these areas to provide 
communications with your constituents. But that is a great 
program. The security awareness briefing program coordinated 
with the Sergeant at Arms super program, I think that is a good 
thing to follow up on.
     Mr. Newhouse. Do you talk about concealed carry and pluses 
and minuses about that?
     Chief Sund. That would be something that we would refer 
back to the local, because concealed carry permits and the laws 
regarding concealed carry are so location specific that we 
would bring in one of the local law enforcement to assist in 
our security awareness briefing and have them address the 
concerns with conceal and carry pros and cons.
     Mr. Newhouse. I have got great constituents but certainly 
a lot of Second Amendment folks, and a lot of people do carry--
--
     Chief Sund. Yep.
     Mr. Newhouse [continuing]. And so it is just something 
that we need to be----
     Chief Sund. Yeah.
     Mr. Newhouse [continuing]. Smart on and be aware of.
     Chief Sund. A lot of times we find awareness of what is 
going on in the area is probably the biggest thing to know.
     Mr. Newhouse. Sure.
     Chief Sund. It just helps you--as long as you are aware, 
you know what to expect and it just--it helps with your safety 
and security.
     Mr. Newhouse. The other thing I want to ask you about, and 
this--we are always looking for ways to improve. Recently there 
was an airspace incident at the Capitol, and I don't know if 
anybody else wants to ask about this that may know more about 
it than I. I was not in town at the time.
     But I just wanted to bring it up and give you an 
opportunity to explain to us and tell us, lessons learned, 
things that maybe have changed since that incident to help 
improve the communication between all the people that are 
working in all these buildings so that everybody feels as aware 
and as safe as possible.
     Chief Sund. Thank you very much for the question.
     November 26, that is a day I will remember for a long 
time. I was actually here. Many of us were here up in the 
Command Center. It was a little bit of an anomaly. You know, we 
work a lot with our Federal partners and support partners in 
getting information in. We are very cognizant of what is going 
on in our air security in the area. It plays a big role in our 
safety and security here on Capitol Hill. So it is a big 
portion of our security portfolio.
     So that morning we were getting information on a possible 
aircraft that was not far from the Capitol that was concerning 
in its behavior. We were relying a lot on information that we 
were getting, and we made a determination. So we have a series 
of levels of air security levels as a possible air threat 
begins to encroach on our area. We go up through a yellow, an 
orange, and then we get to a red.
     So red is where we evacuate the building. Orange is where 
we kind of lean forward. We are like, okay, usually orange will 
be a situation that lasts maybe a minute. It is where we 
determine we are either going to go up to red or we are going 
to evacuate, so we are going to start closing doors, we are 
going to start closing some roadways into the Capitol Complex, 
or are we going to go back down to yellow because the 
information is just not there to support moving up and in 
concern for the threat.
     In this case, the anomaly--it turned out to be a radar 
anomaly that we just couldn't get a clear answer on. So it just 
kind of hovered in that orange zone for longer than we wanted, 
right between 23, 26 minutes. And during that time we are at 
fault. We want to keep our congressional community aware of 
what is going on. We should have notified people, we are 
closing doors, some of these roadways. You are going to notice 
some changes on your daily routine. But not expecting it to 
last that long and knowing there is a lot of--it was a very 
dynamic environment up in the Command Center making these 
decisions.
     It is something that at the time we didn't take the 
necessary steps to notify the congressional community of what 
they were facing, that they were going to be facing some closed 
doors while we make this determination. Because we expect at 
any minute we are either going to go to red or we are going to 
go back down to yellow.
     So we worked--we looked at this very closely. We have 
conducted a deep after-action. We worked very closely with both 
the House and Senate Sergeant at Arms in developing a new 
process that if we do go to level orange in the future, we have 
automatic notifications messaging that will now go out to our 
congressional community, much like the messaging you see 
already on your phones, on your computers, things like that 
that will begin to notify our workforce of door closures they 
may face, road closures they may face, and give them a little 
bit of information on what we are working that we are currently 
evaluating air or threat and this is what is going on.
     Hopefully we don't face an Air Con Orange for that long 
again. I think we have addressed that as well. But I think we 
are in a good spot to address it if we are faced with this 
again to make sure that the proper communication gets out to 
the congressional community.
     Mr. Newhouse. Okay. I appreciate that. Thank you very 
much.
     Mr. Ryan. I know you are new, Chief, but that seems mind 
boggling to me that we wouldn't have something in place to--
that we wouldn't be alerted here.
     Chief Sund. We have got--correct. We have got alerts for 
everything you could imagine. Again, it was never anticipated 
that an orange would last more than a minute. You would get 
into orange. This is where we are leaning forward. We are 
getting the message ready to evacuate the Capitol Complex.
     And the last thing we want to do is send a message--get 
ready to send a message that says, hey, we are closing doors 
and then 10 seconds later we are evacuating. It was always in 
place that this is where we are going to lean forward, shut 
doors so we are not bringing more people into the building to 
evacuate, close some of the roads so we are not bringing more 
people on Capitol Hill that we have got to deal with in getting 
people through to evacuate, and get that message ready to 
evacuate the Capitol Complex.
     Now, if we are faced with something, we are looking at 
extended orange, we are ready to notify. But I agree with you, 
it is something that, is lesson learned, something that we 
never anticipated but now I think we are well suited to address 
it in the future.
     Mr. Ryan. What kind of plane was it?
     Chief Sund. It was a radar anomaly. It was no plane.
     Mr. Ryan. There was no plane?
     Chief Sund. No. Ultimately----
     Ms. Herrera Beutler. It was a blip.
     Chief Sund. Ultimately, it comes down to just a----
     Mr. Ryan. It was nothing?
     Chief Sund. It was nothing.
     Mr. Ryan. It wasn't a drone? It wasn't anything?
     Chief Sund. It was nothing, yep. It was a radar anomaly 
which wasn't even in the area.
     Mr. Newhouse. But you can't ignore that.
     Chief Sund. You can't. And that is just it. At the time, 
there was very specific information that we were working off, 
and it didn't give us the opportunity to just ignore it and 
then right away say this just isn't right. It is one of those 
things where as a police officer you have the sixth sense that 
you are like this is just odd. We are sending people down 
there, no one is seeing it, but it is in this area.
     But we have got to rely on the experts that are out there, 
and that is what we did. But like I said, everybody from, all 
our support to us have conducted after-actions on this so 
hopefully we don't face this again in the future.
     Mr. Ryan. Well, how does that happen? Like, I know it is 
an anomaly, right, so it is not----
     Chief Sund. Uh-huh.
     Mr. Ryan [continuing]. Something that happens all the 
time. But like what--the radar was broke? I mean, what was----
     Chief Sund. It is just how--you know, and I am not an 
expert on radar, but it was a----
     Chief Sund. And I guess the question is, what have we done 
that like makes sure this doesn't happen again?
     Chief Sund. Yeah. We have worked closely with who we rely 
on for the radar feeds. It is just how it is read and how it is 
evaluated. So it is something that showed up, but it actually 
was an anomaly that wasn't in the area where they thought it 
was.
     Mr. Ryan. It wasn't some kind of cyber issue?
     Chief Sund. No. No, it wasn't a cyber issue. It wasn't 
anything like that. So I think it has been addressed from that 
aspect, but we are in a place----
     Mr. Newhouse. Is there a way for us to learn more about 
that?
     Chief Sund. We can see about providing something, you 
know, outside of a public briefing.
     Mr. Ryan. Yeah, because I would be interested in seeing 
that just to learn more about it.
    Mr. Newhouse. Yeah, just to avoid that kind of thing 
happening.
    Mr. Ryan. Yeah.
    Mr. Newhouse. If it is an equipment malfunction or maybe it 
was just a big goose or something, or who knows, but we need to 
find out.
    Mr. Ryan. And nobody with a concealed carry around is like 
taking care of it.
    Ms. Herrera Beutler. Oh, no, Don Young is around.
    Mr. Newhouse. Thank you, Mr. Chairman, and appreciate it, 
Chief. Thank you.
    Mr. Ryan. Yeah, thank you.
    So a couple things. One, obviously we are in a really tight 
situation here. The budget caps only increasing by $2.5 billion 
for all nondefense agencies. What is the contingency plan for 
you all should we not be able to meet your full request?
    Chief Sund. So what is important to realize, we realize 
that going in and putting this budget together that it is going 
to be--2021 is going to be a tight year. We weren't asking for 
any additional mission. We are not asking for going above and 
beyond our authorized FTE. The big issue we are facing is we 
are being faced with a number of mandated costs that weren't 
anticipated previously, and it comes out to approximately $32 
million in additional----
    Mr. Ryan. That is FERS, the retirement?
    Chief Sund. Yeah. It is everything from the upcoming COLA, 
if you add the COLA for 2020 plus the anticipated COLA for 
2021, that marks to about $19 million. Like I said, the OPM 
retirement, the FERS rates, that is another $8 million, and 
then the wage within grade increases, that is another $5 
million.
    So that adds up to a significant increase in that. You 
know, general expenses, we are looking at significant 
expenditures mainly on life cycle replacement, a lot of 
physical security life cycle and a lot of IT and infrastructure 
life cycle replacement.
    So your question--going back to your question, if we are 
flat lined, back to 2020 costs, we would be looking at probably 
significantly cutting back on hiring. We would probably have to 
freeze all civilian and sworn hiring attrition. We would be 
faced with not having to be able to replace attrition.
    And right now we are attritting about 104 sworn and 
probably about 25 civilian on an annual basis. So we would be 
looking at significant impact from that as well as not being 
able to do the life cycle replacement on the physical but also 
on infrastructure. And with cybersecurity being the concern 
that it is, that raises concern of failure.
    Mr. Ryan. What is the biggest chunk of the life cycle?
    Chief Sund. The biggest chunk of the life cycle is probably 
going to be some of the physical security equipment that we 
have around the campus. That is about $7 million? Yeah, a 
little over $7 million. It wouldn't be barriers. It would be 
probably some of our other physical security equipment around 
the campus.
    Mr. Ryan. Metal detectors, that kind of thing?
    Chief Sund. Yeah, metal detectors, trace detectors, things 
like that.
    Mr. Ryan. Cars and----
    Chief Sund. Cars are part of that. OFL, our fleet services, 
accounts for a number of similar costs as well, so we wouldn't 
be getting new cars leasing. We do a lot of vehicle leases, 
especially out in the districts. That would be impacted for it 
as well.
    There is certain things that we can't--we can't impact the 
upcoming inauguration. That is going to be--here we are going 
to have to absorb that, so we are going to have to find 
efficiencies to absorb the things that we can't do without, so, 
additional funding--I mean, additional expenses that we have we 
will have to find resources to cover those internally. But it 
would have a significant impact on our operations.
    And, again, we are not asking for anything additional above 
and beyond. We are not looking to expand into other initiatives 
or increase above our authorized FTE. We are just trying to 
maintain our current status.
    Mr. Ryan. If you had a number of people retire, and you say 
you hire about 104 a year?
    Chief Sund. Yeah, we have 104 retire or leave.
    Mr. Ryan. If you were flat lined, how many of those would 
you be able to replace?
    Chief Sund. If we were flat lined, zero.
    Mr. Ryan. None?
    Chief Sund. Yeah. We would be at a zero hiring for 
attrition and zero hiring for--right now we are about 40 below 
what we would hire just in addition to attrition to get us up 
to our authorized FTE. So we would be looking at about 144 
total sworn that we would not be hiring.
    Mr. Ryan. We talked a little bit when you came into the 
office about the child care and the survey. And can you tell us 
a little bit about what you are going to do to try to figure 
out what to do and why this is----
    Chief Sund. Absolutely. That again goes hand in hand with, 
the value of parents, being a good employer that looks out for 
and values the parents and the mothers. Having been around for 
28 years in law enforcement, I have seen and experienced the 
shift changes, the roll--the holdovers, the late, events, the 
callbacks where you are running into issues with child care.
    Child care has been an issue that has shown up in surveys 
we have done previously. We have done Members who are--employee 
surveys back to 2015 that has had a number of comments on what 
we can do about House--I mean about child care issues.
    So right now the problem that law enforcement faces is when 
you look at our shift work, our biggest shift here on Capitol 
Hill is a 7:00 a.m. To 3:00 p.m. Shift, so that means your roll 
call at latest is 6:30. So when you look at that 6:30, if you 
look at the House, Senate, or Library daycare, they are not 
even opening up until 7:00, 7:30, 8:00.
    That would be a significant change in what time they would 
have to open to really accommodate any of our officers to take 
advantage of it. I know it would be beneficial for them to be 
able to take advantage of it, but you also run into a problem 
if you were able to get over that hurdle--you know, we are 
able--and graciously they have allowed us right now to sign up 
for wait lists for a lot of the daycare centers. However, 
because of our positioning, we are rarely ever considered tier 
one, so most of the time we stay on the wait list, and it is 
tough for our folks to ever get off that wait list.
    So really the opportunities to take advantage of any of the 
child care in the immediately area is pretty slim. So what we 
are doing right now is we are, as part of our upcoming employee 
survey, is we are specifically asking very specific, pointed 
questions about time, needs for child care, tours, locations, 
things like that to see what we can do to go back into our 
wellness and identify some of the resources.
    One of the programs that Mr. Braddock is making available 
through the wellness center is an app that will help employees 
identify--help with child care, help with elder care. We have a 
number of employees that are handling elder care as well, and 
then we can take the results from the survey, apply it to that, 
and see if there is other resources that we can identify for 
them.
    Mr. Ryan. Nice. That is a good segue into the wellness 
question that I have----
    Chief Sund. Okay.
    Mr. Ryan. If you could just talk a little bit about, what 
the plan is for wellness and the resiliency program, talk a 
little bit about that, the organizational--I know there is a 
point person now----
    Chief Sund. Yep.
    Mr. Ryan [continuing].--And also how these efforts work 
collaboratively with the Federal Law Enforcement Training 
Center.
    Chief Sund. Okay. The wellness if--you know, again, having 
a couple of decades of policing, I work closely with the 
International Association of Chiefs of Police, Police Executive 
Research Forum, a day doesn't go by when I don't get a 
correspondence, their newsletter. Somewhere in their newsletter 
they are referencing wellness, law enforcement wellness, first 
responder wellness.
    You go to the national conventions, and a large number of 
the seminars they are putting on has to do with officer 
wellness because they are realizing the shift work, the 
midnight work, the stresses involved creates a lot of issues 
for the wellness, so we see that as a concern.
    So Mr. Braddock working in conjunction with the CAO for the 
House has worked to get us access in the House Wellness Center 
and developed a very good plan. For us, we have got two gyms 
here. If you go to most law enforcement agencies, it is all 
about physical fitness, physical--capabilities things like 
that.
    Mr. Braddock has developed a program that is really 
holistic in its approach. It looks at it from physical fitness, 
nutrition, mental, financial, mindfulness, stress, and develops 
that as a holistic approach, which is far more important than 
just the physical aspect.
    We have developed the wellness and resiliency division, 
which is under the chief administrative officer. There is an 
individual that is now running that, very well respected within 
the Capitol Police community. He has actually helped me develop 
a physical fitness and a nutrition plan, but he will be running 
the wellness department and helping develop some of these 
programs for everybody within the Department.
    There is a number of programs that are going to give them 
access to a variety of different apps they can use on their 
phone that will cover everything from physical well-being to 
emotional well-being, mindfulness, a number of different 
things.
    I don't know if you want to add. It is a very good well-
rounded approach.
    Mr. Braddock. Thank you, sir.
    One of the other things we have begun to do with our new 
sworn recruits is to invest in them beginning their planning 
efforts, specifically around finances. With the stressors that 
folks are under, we don't want our folks to get themselves into 
an area where they can't support the living that they have 
established for themselves. So we have begun to work in that 
area.
    We are also looking to bring in registered dietitians to 
work with our employees so they are developing meal plans 
specific to their current health condition and where they want 
to go to so that we are working that in tandem with the 
physical fitness piece.
    And then we will be looking at our wellness coordinators 
going through some very specific mindfulness training. We do 
that with our recruits. We are teaching them how to do body 
scans so they can literally learn how to de-stress. And we are 
looking to expand that throughout the workforce as we can do 
that with resources.
    Mr. Ryan. Terrific. A friend of mine does the research, and 
she is doing a lot of work with the Pentagon now around 
mindfulness training. And she sent me three studies, two were 
on the military, the other was on firefighters, first 
responders. So I will send that to you just so you have--
    Mr. Braddock. Thank you.
    Mr. Ryan. A little backup. But I love the idea of the 
comprehensive obviously and working with the House wellness 
office that we were able to set up I think a year or two ago, 
because they are doing a very, very similar thing, very 
comprehensive around nutrition.
    And this committee is going to start really looking at how 
much of our budget, your budget, Library of Congress budget, 
all of this, what do the healthcare costs look like for people 
who work on Capitol Hill. And I sit in these meetings, and they 
are like, well, we don't have a whole lot of money. Healthcare 
costs are going up. Well, we need to stop and ask why are 
healthcare costs going up.
    I mean, when you see the approaches now of being able to 
reverse heart disease with this comprehensive approach, reverse 
type two diabetes, and you look at the costs of those on 
everyone's budget if we can free some money up and identify who 
needs the help without prying in everyone's healthcare issues 
but if they voluntarily want to help get this support that they 
need, I mean, literally reversing type two diabetes, getting 
off meds.
    And we have seen a lot of veterans who are on 12 or 13 
different medications. They get in one of these mindfulness 
programs or alternative program, and they deal with this, they 
literally go down to one or two meds. So we are working on the 
vet side because it is the same thing. Look at the vet's 
healthcare cost since the two wars, and if we can have a real 
strategic approach with all of you, I think that could be a 
good model.
    I mean, some companies are really starting to focus on 
doing this for that reason. I mean they care about their 
employees, but they also care about saving lots of money on 
healthcare costs. So I appreciate it. I can't thank you enough.
    Anyone have anything else for the good of the order?
    Do any of you want to say anything? This is your moment in 
the sun.
    Chief Sund. These are the two new assistant chiefs. 
Assistant Chief Yogananda Pittman has the protective and 
intelligence and Chief Chad Thomas has the uniformed 
operations, two great outstanding candidates.
    Mr. Ryan. Awesome. He was bragging about you in private 
too, so this is just not a public statement.
    Chief Sund. Yeah, it is. Even though we looked and did a 
national search, two in-house candidates were the best choice.
    Mr. Ryan. Wow. Well, I think that speaks a lot to the force 
in general. Thank you for your leadership. Stay in touch, and 
we will see what we can do for you.
    Chief Sund. Thank you very much for your time.
    Mr. Ryan. Thank you. Committee is adjourned.

                                        Tuesday, February 11, 2020.

                      OPEN WORLD LEADERSHIP CENTER

                                WITNESS

JANE SARGUS, EXECUTIVE DIRECTOR, OPEN WORLD LEADERSHIP CENTER, 
    WASHINGTON, D.C.
    Mr. Ryan. The committee will come to order.
    I am pleased to welcome everyone to our first Legislative 
Branch hearing for the fiscal year 2021 cycle. Currently, we 
have 11 hearings scheduled this year, with most being double 
headers, with the exception being the House budget hearing.
    While I am excited to start the 2021 cycle, it is going to 
be a tough year for the subcommittee. As you all know, the 
budget cap for 2021 only increased by $2.5 billion for all non-
defense agencies. Needless to say, we are going to have some 
tough decisions to make over the next few months, because, 
while the subcommittee is small in size, it has a very 
important function.
    Turning to some positive news, I want to give you some 
subcommittee staffing news. Our clerk, David Reich, has re-
retired, which happens on Capitol Hill from time to time, 
despite our best efforts to keep him here, we are lucky that 
David is being replaced by Matt Washington, who has served on 
Defense, the full committee, and most recently as clerk of the 
Military Construction-VA Appropriations Committee. So we are 
happy to have him. A finely tuned college athlete as well, and 
served in the Marine Corps.
    So several of you may know him from his work on that 
subcommittee. He is going to have to get used to taking six 
zeros off of every number. But, on the other hand, he can 
escape the fights about funding for the border wall.
    So you will enjoy it here.
    I know you will give him a warm welcome.
    So let's get started.
    Ms. Sargus, thank you for being here today to discuss the 
Open World Leadership Center and your fiscal year 2021 budget.
    Although the budget for the Open World Center is small as 
compared to the rest of our legislative branch agencies, it has 
had a real impact in showcasing U.S. values and democratic 
institutions in an area of the world where Russian officials 
stand firmly against our Nation's democratic principles. It 
does so by facilitating visits to the U.S. by legislators and 
other government officials from Russia, Ukraine, and other 
countries to meet with their colleagues here.
    I understand the Center uses the strength and expertise of 
local volunteer organizations and cost-sharing and grant 
proposals to maximize savings. This is a benefit to the 
taxpayer, visiting countries, and local communities--a win-win-
win for everyone involved.
    We are thankful for the leadership of the Center, its 
staff, and the many volunteers across America who have worked 
hard to ensure the success of Open World.
    I look forward to your testimony today and working with you 
to continue building global relationships.
    And, with that, I would like to yield to my colleague from 
the great State of Washington, the ranking member, Ms. Herrera 
Beutler.
    [The information follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Herrera Beutler. Thank you, Chairman Ryan.
    And I am happy to be back here this year to dive into the 
agencies that make up the first branch of our government, the 
legislative branch. And although this is the smallest of the 12 
appropriations bills, it is still very important. It is the 
bill that provides the resources that make the other 11 bills 
possible.
    As we start consideration for the fiscal 2021 budget 
request, I look forward to working with you to adequately 
address the needs of our agencies so they can carry out their 
respective missions while at the same time balancing that 
fiscal restraint.
    Welcome, Ms. Sargus. The idea of revisualization includes a 
name change for the Open World Leadership Center. And it has 
circulated among the subcommittee, your trustees, and other 
Members for some time now, I think probably longer than I have 
been on this subcommittee.
    The service the Center offers to Congress and to all 
Americans in all 50 States is the opportunity to engage in 
congressional diplomacy. The agency advances and then sustains 
bilateral dialogue between Members of Congress, and Members of 
parliament from strategically important countries.
    And I believe it is time for a makeover--a new name that 
spells your mission out, something akin to the other 
congressional support agencies such as the Congressional Budget 
Office or the Office of Congressional Workplace Rights: perhaps 
the Congressional Diplomacy Office. You are seeing a theme.
    A new agency name, I believe, is going to cement the image 
among Members and clearly represent exactly what your mission 
accomplishes in bringing influential young leaders to the 
United States to provide firsthand, unfiltered information to 
Congress and experience America at the community level.
    I look forward to working with Chairman Ryan on this 
makeover.
    And, with that, I thank you and yield back.
    Mr. Ryan. Thank you so much.
    Without objection, Ms. Sargus, your written testimony will 
be made part of the record. With this in mind, please summarize 
your statement and highlight your efforts of the past year to 
the committee. After your statement, we will move to the 
questions and answers.
    And please begin.
    Ms. Sargus. Chairman Ryan, Ranking Member Herrera Beutler, 
and Members of the subcommittee, thank you for welcoming all of 
us here today.
    My entire staff is assembled behind me, as you can see, 
including two interns we have for the semester. Everyone thinks 
they have the best staff in the world, but I really do have the 
best staff in the world.
    Mr. Ryan. Small but mighty.
    Ms. Sargus. Chairman Ryan, you will be pleased and perhaps 
relieved to hear that the Center is not asking for an increase 
in the 2021 appropriation. Rather, we are thanking you for the 
increase reflected in this fiscal year.
    This increase helps the Center to achieve its programming 
goals for the nearly 1,000 emerging leaders from our 17 
countries. In addition, you should know that Ohio is now the 
third most visited State for Open World delegations.
    Ms. Herrera Beutler, last April, Members of Parliament from 
Tajikistan went to Chehalis to meet with Carson Coates in your 
district office. In October, Friendship Force in Longview will 
host a Russian delegation focused on national parks and 
conservation.
    For Mr. Ruppersberger, on his recommendation, the Center is 
bringing six cybersecurity professionals from Estonia, where 
they will be hosted by the University of Maryland at Baltimore 
County. Their visit will coincide with a delegation of 
Ukrainian professionals traveling on the same timely and 
important theme. Together, they can share experiences since 
they encounter similar hostile forces.
    These are a few examples of how the Open World program 
serves Congress and their constituencies around the country.
    The mission of the Center is to bring the next generation 
of government and civic leaders from strategic countries 
directly to the halls of the most powerful legislative body in 
the world, the United States Congress. This is the very 
definition of congressional diplomacy, where Members are able 
to engage in authentic dialogue with legislators from around 
the globe.
    To that end, we are a clearinghouse for congressional 
diplomacy efforts, a source of expertise in logistics that 
enhance Member, committee, and caucus work in maintaining 
productive relationships with parliaments in a strategically 
important region of the world.
    Last year, I sat before you in this room and talked about 
Russia, how we were about to host our 20,000th participant and 
how the impact of rising Russian leaders participating in an 
Open World program starts at the bottom-up and the periphery-
in.
    These exchanges create friendships that have been forged 
over a cup of tea in the kitchens of more than 8,000 American 
families in 2,300 communities in all 50 States over 20 years. 
This is the power of the Open World program, a two-way path to 
dialogue and a genuine wish for connection and cooperation.
    This year, I will focus on Ukraine. On the heels of a 
historic Presidential election last spring, 323 new Members 
were swept into Parliament, running on a platform of reform and 
the wholesale rejection of corruption. Seventy-five percent of 
the body is now made up of new Members who have never held an 
elective office--Members whose youth and courage make them 
well-placed to bring about the change that people want so very 
much. This new generation is the hope for a Western-oriented 
and robust Ukraine. All this while it faces a hostile enemy in 
the east and the south of its country.
    The Center has embarked on a bold initiative to expose as 
many of these Members as we can to observe the legislative 
processes of Congress and our system of lawmaking in State 
capitals throughout the country.
    Some of the most critical processes of interest to the 
Parliament are information services, like CRS, committee 
operations and leadership, and the creation of a parliamentary 
calendar. They are also interested in constituent services, the 
CVC, and consensus-building. The Center is well-positioned to 
provide programs around these themes.
    This initiative will launch next month with three 
delegations that will travel to North Dakota, New Hampshire, 
and Texas. These delegations include the leadership of the 
committees on foreign policy, on energy, on education, and on 
financial issues. A second travel date is scheduled in April 
and will include key members of the committees on digital 
transformation and on agrarian and land policy.
    This initiative will complement the Center's highly 
regarded civic program for Ukraine, which reached its 4,000th 
participant in the last year.
    Today, many of our alumni occupy critical positions in the 
new government and have become part of the vanguard for reform. 
Twenty-one MPs are alumni. We also have the minister and deputy 
minister of healthcare, the deputy minister of veteran affairs, 
two deputy ministers of education and science, the first deputy 
prosecutor-general, and top advisors to President Zelensky. In 
addition, five alumni have been appointed to the newly formed 
High Anti-Corruption Court.
    Last December, I had the opportunity to spend a week in 
Kyiv on a program-planning mission and met with the leadership 
at the U.S. Embassy with the Speaker of the Parliament, with 
several Members of Parliament, and with many other stakeholders 
on the future of a strong and prosperous Ukraine.
    I was impressed with the resiliency and character of the 
Ukrainian people. The work of our Ukrainian alumni to create 
services for veterans, to counter disinformation, to lead 
health and education reforms, and to fight corruption left an 
indelible mark on me. What the world is beginning to fully 
understand is that a corrupt Ukraine is good only for the 
Kremlin.
    I appreciate this opportunity to speak before you on our 
2021 budget request, and I thank you for the continued support 
and growing confidence that you have expressed in the work that 
we do. To that end, the subcommittee's interest and support of 
the Open World Leadership Center are essential ingredients for 
the continued success of the Open World program.
    Thank you.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Thank you. That is a powerful articulation of 
what you are doing. Thank you so much.
    We are going to start with Mr. Case, the gentleman from 
Hawaii.
    Mr. Case. Thank you, Mr. Chair.
    And, Ms. Sargus, thank you so much for your testimony. To 
your staff, congratulations on your great work.
    I live and work in the Asia-Pacific, and thank you very 
much for the summary of your efforts and activities, especially 
in my own hometown, not just my State but my hometown of Hilo. 
So I appreciate that. Good planning on your part, by the way.
    I guess my question really is, what is your focus in the 
Asia-Pacific? What are your activities in the Asia-Pacific?
    You know, we too often forget that Russia is a Pacific 
power, and Russia does definitely live and work and play in the 
Pacific and is influential in the Pacific. And there are too 
few opportunities for us in this country to interact with 
Russia from the perspective of the Asia-Pacific and Russia's 
role in the Asia-Pacific.
    And so, in Hawaii, for example, we have many, many 
organizations that are similar to what you are doing, two of 
which, the principal ones, are the East-West Center, which 
focuses on exactly that, East and West, to include Russia, and 
the Asia-Pacific Center for Security Studies, both of which are 
in Honolulu. They focus on, essentially, exchange between 
countries in that region.
    And so my question is, although many of your activities 
have to do with Eastern Europe and Russia in that context, what 
about the other part of the world?
    Ms. Sargus. Thank you for your question. That is a good 
question.
    Open World is limited, by our board of trustees and our 
statute, to countries approved by the board, and to add 
countries is a process. It is something that we have done. In 
fact, we have several times added countries. Originally, the 
program was established just for Russia; and in 2003, we added 
Ukraine; and then following that, in 2007, other Central Asian 
and other post-Soviet states were added.
    To add new countries to our portfolio would require a 
resolution to go to the board and a quorum to vote ``yes.'' We 
have gone to the board a couple of times to add countries. One 
time, we did go to the board and ask to add countries of the 
House Democracy Partnership, so we are able to engage in a 
parliamentary exchange program with any country in the House 
Democracy Partnership portfolio.
    Mr. Case. Okay. That is fair. But what about Russia 
specifically? What about Russia and the Asia-Pacific? Are your 
programs focused in Russia from that perspective, as well, the 
interchange from Russia as a Pacific power to Russia's east, 
rather than Russia's west?
    Ms. Sargus. Russia's east, yes. We do reach every region of 
Russia. There are 83 regions, as I understand it, and we do 
reach out for that emerging leader from all of the different 
regions of Russia.
    We are looking for candidates who can forward or advance 
the goals of civil society. We are looking for the future 
change-makers, the influencers. The rising leader is typically 
under the age of 30 and these people are able to come over and 
experience our ways but also to leave behind their ways too. 
And that is part of the exchange.
    So we do reach all the regions of Russia, and we try to be 
relevant and current. Because we are small, which is the way we 
like it, we have much more flexibility, we are much more nimble 
about changing the program and turning things around. We are 
not the Titanic, we are just a little boat, and we can move in 
different directions very, very quickly. We could also seek 
advice and counsel from Members of Congress.
    Mr. Case. Do you partner with other organizations? Because 
it strikes me that if you are small and nimble, you could also 
partner up with specialist organizations in parts of the world. 
In my part of the world, for example, again, the East-West 
Center, Asia-Pacific Center for Security Studies. Do you do 
joint programs with them? Do you think about that?
    Ms. Sargus. We work very hard to create partnerships, and 
that is one of the many cost-saving measures I use to make the 
Open World dollar become $1.35. I tell our staff that all the 
time: Cost-sharing is the way we make it happen. And, yes, we 
do partner with organizations, especially with overlapping 
goals, common goals.
    Mr. Case. Okay. I would be happy to set you up with those 
two and a couple of others in Hawaii.
    Ms. Sargus. That would be wonderful.
    Mr. Case. That might project you out in that part of the 
world without too much additional effort.
    Ms. Sargus. That is great. Thank you very much for that.
    Mr. Case. Thank you very much.
    Ms. Sargus. Thank you.
    Mr. Ryan. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    I think in line with my opening statement and the program 
turning 20 last year, I wanted to understand a little bit more 
about--and some of this does tie into what Mr. Case was saying 
with regard to your vision for the next 20 years and where you 
are going and how you are going to grow and change. Obviously, 
when it started, the world looked a little different, and today 
it does as well.
    But I was curious to hear you speak to that a little bit 
more.
    Ms. Sargus. The next 20 years will be challenging but also 
encouraging, because the Center is poised and quite ready to 
become that entity, that agency for Congress that fulfills and 
meets and informs foreign policy.
    So when you are talking to a parliamentarian from a country 
in this very critical region of the world, you get unfiltered 
information. You are getting an honest conversation. That will 
make the difference in how you would make decisions. It will 
inform your decisions for the future.
    And that is a very important role that the Center plays for 
Congress. That is what makes us a congressional agency. And 
being in Congress means we have the ability to offer that to 
our participants, our parliamentary participants. That matters 
a great deal to them.
    And because we are in Congress, an agency of the Congress, 
we have no problem with our Russian delegations coming over, 
not at all. And that is what has kept us--we are one of the few 
entities that is able to operate programs at all in Russia 
today.
    Some of that could be a reflection of, perhaps, the legacy 
of Dr. Billington, who created Open World Leadership Center, 
but it is also because we are people-to-people. We do not have 
a parliamentary exchange with Russia. There is language in our 
bill that says that we cannot, and we do not. But, to be fair, 
it works both ways. It wouldn't happen even if we were able to 
do it.
     So we are poised, though, to create an opportunity for a 
conversation down the road. You could have a conversation with 
a Member of the Duma or the Federation Council, if you wanted 
to, down the road. Because the work that we do with the 
citizens, the rising leaders, the young people there, who are 
our 20,000-plus friends now, creates that opportunity. It is 
just not ready to happen, but it could happen. And we can help 
with that if you are interested to.
     Ms. Herrera Beutler. Okay. Good.
     I wanted to ask, switching kind of, because I have seen 
you have been in my district a number of times and certainly 
very recently and are planning to go again, do you have 
challenges--so there are a few different thoughts I had on 
that, but do you have challenges finding American host 
families? Has that changed at all, or are people really open 
and excited about the opportunity?
     Ms. Sargus. There is definitely no difficulty finding host 
families. In fact, the demand for the Open World delegation is 
about three to four times what we can supply.
     Ms. Herrera Beutler. Really?
     Ms. Sargus. Yes. We have grantees, national-level 
grantees: the Rotary International, Friendship Force, the 
sister city associations. If we had the resources, they would 
take two, three, four times what we are offering.
     Open World is not really interested in that level of 
growth. Being nimble makes us more successful. So we like our 
little agency. We like our little offices. We like the ability 
to be flexible and nimble and to change and to meet the demands 
of any Member. And we work very closely with the caucuses to 
achieve that.
     But I don't want to bring 3,000 people in a year. It is 
just not something--it would be such a strain we would have to 
grow.
     Ms. Herrera Beutler. Yeah. Okay.
     Ms. Sargus. And we are not prepared to do that. We think 
being small and nimble is more effective.
     Ms. Herrera Beutler. Got it. Thank you.
     I yield back.
     Mr. Ryan. Mr. Newhouse.
     Mr. Newhouse. Thank you, Chairman Ryan.
     Welcome, Dr. Sargus. I think I missed a hearing on this. 
You guys seem to know a lot more about this than I do, so this 
is interesting to me. So just a couple of questions that have 
come to mind. I think I only have a few minutes.
     These are not elected leaders; these are rising potential 
leaders in communities in these other countries, correct?
     Ms. Sargus. Yes, except that we also have a local 
legislator program.
     Mr. Newhouse. Oh, okay.
     Ms. Sargus. We found that the national parliaments do like 
our working with local legislators because, of course, they 
have to work with them too.
     Mr. Newhouse. So how do you identify who you want to 
target to come over?
     Ms. Sargus. Well, we have several sources. We work very 
closely with our embassies in our countries. That is a very, 
very common source of nominations. Because they are on the 
ground and they know who that young leader is. They know who is 
making news or making waves or not. They know who is that young 
person.
     We have that as a source. We also have, except in Russia--
in every other country, USAID is also on the ground. And they 
have, you know, very strong programs going on in our countries, 
and they are also familiar with the people who would benefit 
from an Open World program, the peer-to-peer part. Because we 
don't provide technical training. This is not a training or an 
education program. It is a peer-to-peer professional program.
     Mr. Newhouse. Exposure. Yeah.
     Ms. Sargus. And then, finally, our alumni are often in a 
position to nominate----
     Mr. Newhouse. Oh, sure.
     Ms. Sargus [continuing]. Because they go back to their 
countries and they talk about their experience, and they 
realize, ``Oh, I think you would benefit. I would like to 
nominate you.''
     And it is nominations, not self-nominations. Everyone is 
required to be vetted by the Embassy, of course, for their 
visas, and so it becomes a pretty clean process.
     Mr. Newhouse. Then how do you pick where you take them in 
the United States? Do you rotate that? Do you have to meet a 
certain set of criteria for a State, or, how is that done?
     And my district is very rural. I don't know if you have--
you mentioned Ms. Herrera Beutler's district. I don't know if 
you have come to central Washington State.
     Ms. Sargus. Yes.
     Mr. Newhouse. Okay. But we would like to make sure that 
they are exposed to both urban and rural areas of the country.
     Ms. Sargus. So you ask a very good question. We have a 
grant process, and we give grants to 12 to 15 national 
grantees, something like Rotary International. Now, Rotary has 
clubs in every State and even the rural parts of the State.
     Mr. Newhouse. Sure.
     Ms. Sargus. So Rotary is an important source for us for 
hosting opportunities.
     Mr. Newhouse. Okay.
     Ms. Sargus. Friendship Force is in every State. That is 
another organization that works nationally. There are sister 
city organizations, and they are a very robust partner with us 
to find communities.
     So we do aim to go to every State every year. It has its 
challenges, but we do try to do that.
     Mr. Newhouse. Every year?
     Ms. Sargus. Every year. Usually it is in the upper 40s. I 
mean, strangely, sometimes some States are very difficult to 
host them for 1 year. So we do try to reach every State every 
year.
     And as for the district that we end up in, it is a 
combination of, you know, what district do you represent but 
also where can we find that hosting community. But once we find 
the hosting community, we work with that grantee and that 
hosting community to create a program that meets the demand.
     So, in 2017, we took Georgian engineers from the Republic 
of Georgia to the--they came from the Enguri Dam. And they 
spent, I don't know, 3 days in the Grand Coulee Dam area.
     Mr. Newhouse. Oh, is that right?
     Ms. Sargus. They were really interested in tourism, 
believe it or not. I mean, this is something they are trying to 
promote in the Republic of Georgia. So it was a really 
fascinating and very exciting delegation that went there in 
2017.
     Mr. Newhouse. Good. Good. Well, that is awesome. And I 
commend you on your memory for all of that.
     So another question came to mind. You said this is an 
exchange.
     So that implies to me that then Americans go to these 
countries. Is that the case or not?
     Ms. Sargus. They do. A lot of our host families are people 
who are already interested in international culture. They 
believe in--they love travel. So the exchange part that we do 
is the exchange of information. It is best practices.
     And when I greet the groups that come each month, one of 
the things I tell them is that, yes, you take away a lot of our 
best practices, you watch what we are doing, you see lawmaking 
in action. But what they leave behind is a little bit of 
knowledge and a little bit of affection and a little bit of 
friendship that begins to grow when they go back.
     Mr. Newhouse. Sure.
     Ms. Sargus. And a lot of our young delegates who stay with 
empty nesters--you can imagine this conversation--they go back 
and they talk about their American parents.
     Mr. Newhouse. Yeah. Oh, yeah.
     Ms. Sargus. And they communicate, they send emails, they 
visit. That happens very, very frequently.
     Our rule-of-law program, a lot of our judges have traveled 
to our Open World countries at the invitation of the judges 
that they hosted.
     Mr. Newhouse. I see. Well, it sounds like an awesome 
program, and thank you very much for sharing so much.
     Ms. Sargus. Thank you.
     Mr. Newhouse. I think it is a great investment, but I also 
want to commend you for not asking for an increase as well. So 
thank you.
     Ms. Sargus. Don't need it.
     Mr. Ryan. Thank you.
     And we know that the budget has been flat-funded since 
2016. Last year in this hearing, we talked about the 
opportunities that would maybe present themselves about raising 
some outside money.
     Ms. Sargus. Yes.
     Mr. Ryan. Have you been able to kind of tease that out and 
put a strategy together around that?
     Ms. Sargus. Thank you for that question.
     Outside fundraising or outside funds is a sensitive issue 
for Open World. I can't tell you exactly in this hearing, I can 
talk to you about this later, but there are strings attached to 
private money.
     And Open World is a nonpartisan legislative branch agency, 
and we have a single mission. We are not like the Library of 
Congress with lots of things going on, and, of course, they are 
able to accept gift funds for projects and stuff. But we only 
do one thing at the Open World program; we provide exchange 
opportunities for rising leaders and parliamentarians to meet 
with their counterparts here in the United States.
     So I tend to be careful around private funds and the 
strings that often come attached with it. We have done some 
exploration on this topic, and it is important for us. And we 
do have a donor, who is anonymous, who does fund our alumni 
program. And that is very successful. It targets mostly Russia 
and Ukraine.
     But we do have agreements with our embassies to do 
periodic alumni events in our country so that our alumni 
network stays in touch with us and we learn what they are doing 
and what they are changing. And as I mentioned, a lot of our 
alumni are doing very important things in Ukraine.
     So I am very careful about looking at outside money that 
has an agenda often----
     Mr. Ryan. Sure.
     Ms. Sargus [continuing]. Which does not suit our 
nonpartisan nature. So I tend to be very careful, very cautious 
about that.
     Mr. Ryan. Okay.
     Ms. Herrera Beutler. I do have a followup on that.
     Mr. Ryan. Go ahead. Please. Happy to yield.
     Ms. Herrera Beutler. I appreciate the gentleman.
     Because last year we brought this up, and part of the 
reason I brought this up last year was we just don't know, 
funding-wise, what is going to happen. And we all agree this is 
an incredibly important program.
     I would encourage you to not look at fundraising or 
support as necessarily partisan or someone having strings 
attached. Certainly, that is part of it. But I have done 
development for a nonprofit that had nothing to do with 
politics, and I wrote grants, right?
     Ms. Sargus. Uh-huh.
     Ms. Herrera Beutler. So there are a ton of foundations out 
there who want to do nothing but foster relationships. I am not 
saying go, you know, raise money from some political 
organization----
     Ms. Sargus. Right.
     Ms. Herrera Beutler [continuing]. But for the longevity 
and the security of the program, this is one of the ones where, 
if things get tight, people are going to say, well, this isn't 
directly related to, you know, da, da, da. Yet we all here 
acknowledge how significant it is and how important it is.
     So I would encourage you not--a development person or 
someone who could write grants could identify those things, and 
they could make their own money from writing the grant. So I 
wouldn't just----
     Ms. Sargus. Okay.
     Ms. Herrera Beutler [continuing]. Push this off. I think 
it is significant. And you can do it in a way that you are not 
giving away your mission or your values, certainly. There just 
are so many opportunities out there.
     And for something like this today, when Russia and Ukraine 
are all over the news, and who knows what is happening and what 
is going on with the relationships, for you guys to step in and 
say, ``Hey, we are building relationships with future leaders, 
and we are exposing them directly peer-to-peer,'' I just think 
there is a lot of opportunity to pull down resources. I guess I 
would encourage you, along with what the chairman is saying, to 
continue to explore that.
     I yield back.
     Mr. Ryan. I mean, I think there are opportunities out 
there, a lot of billionaires we hear about these days that 
would potentially see the value in this.
     And I just think the Parliament-to-Parliament, Congress-
to-Congress--we see it today in the world, that there are a lot 
of people in Congress who have been here 20 years, 25 years, 30 
years, relationships that well outlast the executive branch.
     Ms. Sargus. Yes.
     Mr. Ryan. And that is at the heart of the value that you 
provide and one of the reasons we want to figure out how to 
continue to expand this, even if it is limited within the 
context of our budget, because of the value you provide.
     And it is not sexy; it is not something you see on the 
front page of the paper. But at the end of the day--you know, I 
remember when we traveled, years ago, Chairman Obey was the 
chair of the Appropriations Committee who had been in 40 years, 
and we went to Northern Ireland. And he was just telling these 
stories about his relationship that he had with a lot of people 
in Ireland over the years that helped put together the fund 
necessary to help the peace deal when President Clinton was 
going over.
     But it was those deeper relationships that were behind the 
scenes that had a real impact. And so that is what I want you 
to hear when we are saying, like----
     Ms. Sargus. Yes.
     Mr. Ryan [continuing]. Let's help you grow this thing. So 
we appreciate it.
     I have one last question. One thing that was impressive is 
the difference in the cost between Open World versus the 
executive branch programs, with Open World's costs being 
somewhere between $8,000, $9,000 versus $19,000 per person in 
the executive branch. How are you able to do that?
     Ms. Sargus. To be fair, the executive branch State 
Department program is longer and they stay in hotels. It is the 
home stay----
     Mr. Ryan. You don't have to be fair to the executive 
branch.
     So they stay longer, and they stay in hotels.
     Ms. Sargus. And they stay in hotels. They have some 
community events and activities and interactions.
     But I am, by career, a budget officer, so I went to Open 
World as its budget officer. So I create the budgets, and I 
work on how to maximize the dollar. And from the very 
beginning, I saw my mission as a budget officer to help Open 
World achieve its goals with what you have.
     And from the time I started there to--right before I 
started there to now, the Center has experienced something like 
a 60-percent cut in its annual appropriation. So that is not a 
problem; it is just a challenge. And to meet the challenge, I 
looked for ways for cost-shares and to increase that component.
     So the first organization I went to would be all the 
grantees, the national organizations. And because they like 
hosting our delegations and they want more, they were willing 
to help with the cost per person by agreeing to do more for 
less, or the same amount for less. And that was the first 
place.
     The second place was, we took upon ourselves these direct 
relationships with our embassies in our Open World countries. 
When I work directly with an embassy, I am not paying anybody's 
overhead. We are not paying for staffing and all the components 
that drive up the cost of any program. So we save money via the 
MOU with our embassies in our Open World countries.
     And because the numbers of people that we are bringing are 
small in most of our countries, meaning 24 to 36 participants, 
they like doing it too, because they are already involved 
because of the visa and the vetting process for the candidates.
     So we work with embassies. We reached out to our grantees. 
Our big logistical contractor, which is the American Councils 
for International Education that is based here in Washington, 
D.C., they are also a partner and they cost-share with us.
     That is the benefit of working with someone who 
understands how money works. And so they agree with me that 
they would prefer to continue hosting, and they work with us 
very, very well to reduce those costs.
     And we do this every year. We took upon ourselves to 
manage all interpretation costs in-house. Instead of having 
every grant build in an interpreter, all that overhead is gone 
now. That doesn't happen anymore. We do it ourselves. So that 
management of the interpretation program for--every delegation 
has interpreters--is a savings to us of hundreds of thousands 
of dollars. We do it ourselves because we are not paying 
overhead and airfares and all the rest of it because we find 
interpreters who are local.
     So there are lots of ways to save money. And because I 
work at the micro level at Open World, it is not that hard to 
do it. Sometimes people grumble, but we mostly get a lot of 
cooperation because our grantees and our hosting network want 
to host. They want to work with us. So we get a lot of 
cooperation that way. And we are very nice to work with, so----
     Mr. Ryan. I may nominate her to be Secretary of Defense. 
Imagine what she could squeeze out of that budget.
     Ms. Herrera Beutler. I did have that thought.
     Mr. Ryan. Well, thank you so much. We appreciate all your 
work. And let's continue to have conversations about the 
private-sector----
     Ms. Sargus. Okay. That would be great.
     Mr. Ryan [continuing]. Stuff we talked about and the 
foundation stuff. So thank you.
     Ms. Sargus. Thank you.
     Mr. Ryan. This committee is adjourned.

                                      Wednesday, February 12, 2020.

                       CONGRESSIONAL BUDGET OFFICE

                                WITNESS

 PHILLIP L. SWAGEL, DIRECTOR
     Mr. Ryan. All right. Welcome to our second hearing this 
morning where we will be discussing the Congressional Budget 
Office and its appropriations request. CBO has become so much a 
part of this institution that we may take it for granted, but 
we should remember what a key role CBO plays in helping 
Congress effectively exercise the power of the purse assigned 
to us by the Constitution.
     Before CBO was established in 1975, Congress largely 
depended on the executive branch for budget and economic 
analysis and estimates of the costs of proposed legislation. 
With CBO, Congress has its own independent source of cost 
estimates for legislation, assessments of the President's 
budget proposals, and projections of the future path of 
spending, revenue, and deficits. We need to protect and 
strengthen that capacity.
     The CBO budget requests $57.3 million, which is a $2.4 
million or 4.3 percent increase above fiscal year 2020. 
Virtually all of that is for personnel costs. This funding 
would support existing staff and fully fund seven new employees 
hired in fiscal year 2020, as well as the increased costs of 
Federal benefits.
     Furthermore, it is my understanding that this request will 
also support Dr. Swagel's three initiatives which are to 
improve its responsiveness. CBO plans to make greater use of 
expert consultants in high-priority research areas, such as 
health policy, set up an internal IT system to track and manage 
documents, which will help streamline some aspects of the 
process by which the agency provides information to Congress, 
and that $45,000 be appropriated as no-year funding which would 
facilitate employees' attendance at important academic 
conferences that are held near the beginning of the fiscal 
year.
     This subcommittee has highlighted the need for 
responsiveness and a transparent CBO, and I believe CBO shares 
that objective. For example, in recent years CBO has been 
making more underlying data and details of its economic and 
budget projections publicly available. It has been publishing 
more information about its models and methods and more analysis 
of the accuracy of previous projections. These are all welcome 
developments, and I want to hear about CBO's future plans in 
this area.
     I should note that the Appropriation Committees are the 
source of some of CBO's heavy workload. We need CBO's help in 
making sure our bills add up to what they are supposed to, and 
we need CBO cost estimates at each stage of legislative action.
     The Appropriations Committee gets great support from the 
people at CBO who do appropriations scorekeeping, which 
sometimes includes late nights, weekends, and holidays and, as 
you know, on short notice. The committee appreciates that, and 
I am certain other committees similarly appreciate the people 
at CBO and the work that they do.
     Our witness today is Dr. Phillip Swagel who was appointed 
CBO Director on June 3rd, 2019. Previously, Dr. Swagel lived in 
Massachusetts, the Fifth Congressional District.
     He was a professor at the University of Maryland School of 
Public Policy and a visiting scholar at the American Enterprise 
Institute and the Milken Institute. He has also taught at 
Northwestern University, the University of Chicago's Booth 
School of Business, and Georgetown University. His research has 
involved financial market reform, international trade policy, 
and China's role in the global economy.
     Before Dr. Swagel testifies, let me turn to our ranking 
member, Ms. Herrera Beutler, for her opening remarks.
     Ms. Herrera Beutler. I thank you, Mr. Chairman.
     I also would like to extend a warm welcome to the tenth 
director of the Congressional Budget Office, Dr. Phil Swagel. 
Thank you for meeting with me in my office in December, and 
welcome to your first Appropriations meeting.
     Not only does CBO produce hundreds of formal cost 
estimates, thousands of preliminary cost estimates, dozens of 
calls from frantic chiefs of staff in the dead of night, and 
dozens of analytic reports and papers, releases numerous 
economic projections, and is a constant source of advice 
relating to budget issues for us, for Members and staff, the 
CBO also provides scorekeeping reports and estimates for 
individual appropriations acts at all stages of the legislative 
process.
     CBO's fiscal year 2020 budget request is $53.7 million, 
which represents a 4.3 percent increase from last year's 
enacted level. In reviewing your budget justification, CBO 
continues to focus on responsiveness to Congress, increased 
transparency, and expanded analytical capacity. All three items 
I wholeheartedly support, and I look forward to hearing more 
about your plans. I thank you.
     And, Mr. Chairman, I yield back.
     Mr. Ryan. Great. Without objection, your written testimony 
will be made part of the record.
     With this in mind, please summarize your statement and 
highlight your efforts in the past year to the subcommittee. 
After your statement, we will move to the question-and-answer 
period. You are on.
     Mr. Swagel. Thank you. Thank you, Chairman Ryan, Ranking 
Member Herrera Beutler, and Members of the subcommittee. I 
appreciate the chance to present the CBO budget, and, as you 
said, this is my first time doing this. So I just want to start 
by acknowledging the incredible team behind me. This is the CBO 
financial team, which is an amazing group of people, and it 
is--the overall agency, it has just been a privilege to work 
with them and with the overall team.
     So, as you said, we are asking for appropriations of $57.3 
million for fiscal year 2021. It is an increase of $2.4 
million, or 4.3 percent, from the current fiscal year and thank 
you to the Congress and the Appropriations Committee for your 
continued support.
     Most of our budget, as you said, Mr. Chairman, about 90 
percent is for personnel costs. So the proposed budget that we 
have requested would allow us to implement the multiyear 
staffing plan that was the basis for our funding increases in 
2019 and 2020. Now the Congress increased the CBO budget the 
past 2 years to bolster our capacity to be more responsive, be 
more transparent, and we have been working to accomplish that, 
and we are going to finish the plan to increase our staff this 
year. And most of the requested $2.4 million increase would 
allow us to remain at the higher staffing level. So we will 
have 2 years of increasing the staff, and then the request now 
is just to stay there. So it would cover the normal increases 
in personnel costs, as well as a full year's worth of salaries 
and benefits for the seven new staff members we will hire this 
year in 2020.
     And so let me just briefly say how that funding would 
bolster our responsiveness and transparency. An important part 
of the staffing that we have been doing is to better coordinate 
and integrate the analysis across the parts of CBO, so to hire 
people who can work across different parts of CBO. And so, you 
know, someone who can do healthcare can also work on energy and 
policy or other things.
     And so organizing staff with broader shared portfolios 
that, when there is particular congressional interest in one 
area, we can move people around instead of having people 
stovepiped and so dedicate more resources to regular reporting 
information requested by committees of jurisdiction and 
dedicate more staff to create publications that explain CBO's 
work. And I can go into more. There is more in our, the full 
statement.
     As you say, about $400,000 of the increase is for costs 
other than personnel, and that would fund the three initiatives 
that you mentioned.
     On the responsiveness, there is some high-priority areas, 
healthcare in particular, moving forward, climate and energy 
policies as well. So we are going to focus our increased staff 
in those areas.
     The information technology system we hope to create over 
the next year, again, will just help streamline our ability to 
respond quickly to congressional requests.
     Let me just highlight some of what we do and what the 
budget request would support. So we expect to do about 750 cost 
estimates, mostly to the authorizing committees, after bills 
are reported. We respond to, as you said, thousands of requests 
for technical assistance from committees and Members. A lot of 
this is before legislation is introduced and for some 
legislation, especially the bigger ones, we will go back and 
forth dozens or probably hundreds of times before legislation 
is introduced.
     We do about 130 scorekeeping reports and estimates for the 
appropriations process, including account level estimates for 
individual appropriations acts at all stages of the legislative 
process and then the summary tables and the running totals, a 
year-to-date basis. Then we will do about 70 analytic reports 
and papers. This will be about the economic outlook, the budget 
outlook, and the overall economy, and then the specific 
topics--healthcare, defense policy, Social Security. We have 
some more, like I said, on climate and energy policy, that I 
expect over the next year.
     So that is what we are aiming at, to make sure that we 
support the Congress on the policies that the Congress is 
focused on, to make sure our work is high quality, but also 
transparent and responsive. So why don't I stop there? And 
thank you again for this opportunity to present our budget 
request.
     And I look forward to your questions.
     [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

     Mr. Ryan. Great. I thank you.
     Let's start with the gentlelady from Massachusetts.
     Ms. Clark. I thank you. I feel like I have an inside track 
today.
     Thank you, Director Swagel, for joining us. The CBO is 
such a critical piece of what we do here. I am hoping you can 
sort of flesh out the picture for me. I know that CBO provided 
711 formal cost estimates to Congress, which sounds staggering, 
but that is a 25-percent decrease actually in formal estimates. 
Can you tell me a little bit about that? Is that a lack of 
resources? Is it just the sheer volume of bills that we are 
filing? I would like to sort of dig into that decrease a little 
more.
     Mr. Swagel. You know, it is a mix. We get over 90 percent 
of our cost estimates before a bill goes to the floor of a 
Chamber. So, in a sense, we are on time in a sense, or it is 
well over 90 percent, and we work hard not to be the bottleneck 
at any point in the legislative process. So, you know, after 
this year, I think we will be in a good position in terms of 
the responsiveness.
     And the decrease reflects partly on the side of the 
Congress that if there is fewer pieces of legislation coming 
out of one Chamber, the other Chamber in particular, then it 
just means we have fewer cost estimates, and our work is 
disproportionately for the House just because the House passes 
more legislation, and there are certain committees that pass a 
lot of legislation. So Financial Services is our top so--not 
client but the number one, and then there is others, a couple 
of others.
     Voice. You charge them accordingly----
     Mr. Swagel. No, we don't and we are usually pretty good 
about being responsive, being ready when they need us. Once in 
a while, we make them wait, but overall we are pretty good.
     So that is the reason we will estimate anything that comes 
to us. Just a little bit less has been coming to us from the 
Senate.
     Ms. Clark. One thing we have experienced, if there is a 
bill that we are trying to sort of get support for, but a lot 
of Members have concerns about, well, what is it going to cost? 
But if it is not a priority item, if it is not linked to a real 
committee, it can be very hard to get that formal cost.
     Have you ever considered a sort of cost-lite option, 
something more informal that could sort of give an indication 
with all the guardrails about this? This is not the same as 
your full analysis?
     Mr. Swagel. It is a challenge because to do the full, we 
need the legislative language.
     Ms. Clark. Yeah.
     Mr. Swagel. And we provide technical assistance. So we 
will provide informal feedback, but it is a challenge for us to 
get all the way even to kind of a light estimate without the 
legislative language, and generally the people, the staff 
working on an issue, are basically dedicated to the chairs, you 
know, the four chairs and ranking members on the issue. And I 
know it is a source of frustration for Members who are not the 
chairs and ranking members of the committees of jurisdiction 
that we can help them, but we don't get them a proper cost 
estimate.
     Ms. Clark. Yeah.
     Mr. Swagel. Honestly, I don't--we will do as much as we 
can, but it is going to be tough to--it is a problem I don't--I 
am challenged to see how we solve it, other than just trying to 
work on it.
     Ms. Clark. You enumerated some expertise that you would 
like to see, buoyed within your organization. Could you just go 
over those again where you would like to have additional 
expertise and what kind of resources you think it would take to 
build that capacity?
     Mr. Swagel. Okay. So the healthcare is number one where 
there is just an immense interest in healthcare legislation. So 
we are going to surprise billing, expansion of coverage in 
various ways and all the way from single payer to public option 
to incremental expansions under the current system to looking 
at the HRA rule that the administration has pushed and then 
drug policy.
     So we are hiring right now new analysts who would work on 
all those dimensions. It is hard, of course. We compete with 
not just other government agencies but with the private sector, 
and the private sector demand for economists is very stiff. And 
then the other part I will mention is, on the energy and 
environment side, we know we need to build our capacity in 
that, and we are going to be looking to add there as well.
     Ms. Clark. Great. I thank you so much.
     I yield back, Mr. Chairman.
     Mr. Ryan. Ms. Herrera Beutler----
     Ms. Herrera Beutler. I forgot what it was.
     Mr. Ryan. You may get a question about Paw Patrol or 
something like that.
     Ms. Herrera Beutler. Oh my gosh, yes.
     So you kind of were able to get into it a little bit with 
regard to the health analysis. Can you elaborate on that in 
terms of what you see coming? Obviously, this is an issue that 
is not--what I hope doesn't go away because it is something we 
need to fix for the country, but this is going to continue, I 
think, to eat up more and more of your time and your staff's 
time. I have got to believe, Patrick McHenry and Maxine Waters 
aside, that this one is going take up more emphasis, and I just 
wanted to see what your planning is with regard to that.
     Mr. Swagel. It is exactly right.
     And a challenge for us on health is we have excellent 
staff, and the rest of the world knows it, and so we lose them 
and for good reason, good purposes. One of our top staffers on 
the insurance side just told me she is resigning. No, but she 
is going to go and be the head of research for the State of 
Maine's health insurance agency.
     Ms. Herrera Beutler. It is so hard. You can't say no.
     Mr. Swagel. She is from Maine. Her family is in Maine.
     Ms. Herrera Beutler. What are you going to do?
     Mr. Swagel. So and maybe in a few years we will get her 
back.
     Ms. Herrera Beutler. How can we help you? Can we help you 
with that? Like how do we help retain? Because these are 
obviously for a lot of folks it is labor of love. Well, there 
is some health--there are different things we can add to the 
package, but it is not going to be as competitive as what they 
are worth.
     Mr. Swagel. Yeah.
     Ms. Herrera Beutler. But we also really need them. So do 
you have ideas?
     Mr. Swagel. We compete and we compete well especially on 
mission, and people understand that. People interested in 
policy? We compete well on quality of life and the things 
around that. I mean, things where we could help would be on the 
quality of life side, and obviously childcare is a natural one.
     Ms. Herrera Beutler. Childcare.
     Mr. Swagel. So it is just--and I am not saying that just 
because of the situation in the room, but it is--it--
     Ms. Herrera Beutler. It is a bigger issue----
     Mr. Swagel. It is a big issue.
     Ms. Herrera Beutler [continuing]. In this generation, I 
feel like more than in generations past because what I am 
hearing from staff and just in this position is people want 
more work-life balance. They don't want their careers to mean 
they are foregoing the personal side of things. I completely 
understand that, and it is really, really difficult. So how do 
we----
     Mr. Swagel. So I know we are in terms of the----
     Mr. Ryan. Please tell us how we get more work-life balance 
because we are all very interested in that.
     Ms. Herrera Beutler. From the budget office, right?
     Ms. Clark. This is your key analysis.
     Mr. Swagel. This is going to turn into a therapy session.
    But I know we face challenges. It happens to push the CBO 
interest. We are at or near the bottom of the priority list for 
childcare among the health complex, and so, more resources 
there would help everyone, but we would benefit. I think it is 
probably number one.
    Number two is, with our increase in staff, we are facing a 
little bit of a space challenge, which the physical space, 
which I was going to say Mark and Joe are and their team are 
dealing with it incredibly well. It means we have taken some of 
our shared spaces and turned them into offices. And so we are--
if there was some conference space or basically some other 
space in the Ford Building, we would benefit, which I know is--
real estate is a tough ask, but that would be our next ask.
    Ms. Herrera Beutler. It is, and it isn't, right? I feel 
like we always have all these Federal buildings. Somebody is 
always trying to round up buildings to sell or lease. I got to 
believe, no, we don't want to put you, in a warehouse on the 
other side of----
    Mr. Swagel. Right.
    Ms. Herrera Beutler. It seems like we should be able to 
come up with something.
    Mr. Swagel. With something. That would be the second thing 
that would go into quality of life. So childcare, one, and 
then, you know, again, a modest amount of additional space.
    Mr. Ryan. Have you surveyed your workers around childcare?
    Mr. Swagel. We are in the process of doing that. Stephanie 
Ruiz is----on this side----is all over that. So we will have 
more information for you.
    Mr. Ryan. We are talking to all the different agencies and 
offices about this with regard to childcare. So, as soon as you 
find out, make sure you let us know.
    Mr. Swagel. The information.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. I thank you, Mr. Chairman.
    Dr. Swagel.
    Mr. Swagel. Swagel.
    Mr. Newhouse. Welcome to the committee and to your staff as 
well. Thanks for being with us today.
    You guys do awesome stuff. It is amazing that you can 
respond as quickly as you do, but one of your requests has to 
do with response time. So can you tell me, is there an average, 
your ability, to respond as far as time, and what do you see 
that or what is your goal of improvement there with this 
request and your budget?
    Mr. Swagel. Yeah, it varies by the nature of the bill.
    Mr. Newhouse. Sure.
    Mr. Swagel. What we focus on is making sure that, because 
we are not the obstacle, that we respond in the time that is 
needed for the, whatever the legislative needs. So some things 
we respond to very quickly.
    Mr. Newhouse. If things are moving quickly, you have got to 
move quickly.
    Mr. Swagel. We have to, and we do best when we anticipate. 
So, for example, surprise billing is an important issue. Now it 
is three committees on the House side and one on the Senate 
side. We started working on this before I arrived, and so we 
are very responsive there. We will have another cost estimate 
out later today.
    The bigger challenge for us is having enough people and the 
expertise to be responsive and then having the foresight to 
think about where the Congress is going.
    Mr. Newhouse. You are not saying we have got it at 10 days 
now, and we want to get it to 8 days or something. It is hard. 
You can't quantify it that way.
    Mr. Swagel. It is hard. The quantification would be on what 
percentage of estimates we have for legislation before it goes 
to the floor of either Chamber.
    Mr. Newhouse. So you just answered me, partly my next 
question. I was thinking, as Ms. Clark was talking, that do 
you----what is the trigger for your research or your starting 
to work? Do you wait for a request, or are you anticipatory? Do 
you follow the process, and you see, ``Well, that thing is 
moving; we better get some groundwork done on that subject so 
we can be ready,'' because it is a priority of the Speaker or 
you can just tell that, you know, there is a lot of momentum 
behind it? So tell me a little bit about that. So you are ready 
to move before we are ready to move.
    Mr. Swagel. When we are at our best, we do that.
    Mr. Newhouse. Yeah.
    Mr. Swagel. We anticipate. It happens that surprise billing 
was an example. There are two analysts on our health team who 
basically were looking at data on----
    Mr. Newhouse. Okay.
    Mr. Swagel [continuing]. Individual patients and realized 
that surprise billing was an issue with anesthesiologists and 
ERs, and so they were ahead, and so we have been ahead. It made 
me look good just because two analysts were brilliant before I 
arrived.
    Mr. Newhouse. Sure.
    Mr. Swagel. On drug policy, we know. I mean, even before 
the Speaker kind of started to work on her H.R. 3, on her drug 
package, we knew this was coming. We started building the 
capacity.
    Mr. Newhouse. So that raises another question then. As you 
are doing that foundational stuff, does that help with the 
development of what the bill language would be? So how does 
that give-and-take or cross-pollination or whatever you want to 
call it, how does the work you do help us write better 
legislation besides just saying that is going to cost us this 
much?
    Mr. Swagel. Right. And we try to be as helpful as we can.
    Mr. Newhouse. But you don't volunteer stuff. We have to 
ask.
    Mr. Swagel. We say, well, respecting our role. So what I 
have said is you will get our analysis and not our opinion.
    Mr. Newhouse. Okay.
    Mr. Swagel. And it is on--let's say H.R. 3 was an example, 
the drug bill, there is just a lot of back and forth as the--
where the Speaker and her staff looked for things that will, be 
effective as reducing drug prices, and that is where we, help 
her staff. And, again, we are not saying, ``This is a good 
idea; it is a bad idea.'' That is not our role but having--this 
is going back and forth.
    But it is a difficult--it is the challenge for us is 
knowing where to draw the line is to say: Well, we are not 
going to volunteer because that is not appropriate.
    Mr. Newhouse. I suppose that is part of our role, Mr. 
Chairman, being smart legislators, learning how best to utilize 
you as a resource.
    The issue of dynamic scoring, how do you make the 
determination of when to use dynamic scoring, when not to?
    Mr. Swagel. So there we work closely with the budget 
committees, with, both the House and the Senate and the chairs 
and ranking members on both sides in figuring out where the 
dynamic analysis would add important information. One challenge 
is that sometimes legislation is just moving too quickly for us 
to do it.
    Mr. Newhouse. Sure.
    Mr. Swagel. But there are issues where we know it is 
important, and so we do it. So I am trying to think. I am 
sorry. We were--the--what--I am sorry. Yesterday we were 
talking about--I have to look at the staff--the dynamic 
analysis that we went through with the full bill. Anyway, I 
will come back to you. I apologize, because essentially we were 
working on trying to be in a position to do dynamic analysis 
more quickly in the future. So we were talking about, within 
CBO, about the past analyses that we have done and what we have 
learned. So I am hoping over the course of the rest of the 3 
years remaining in my term that we will be in a position to do 
more of it, but it is still a work in progress.
    Mr. Ryan. Do you have an example you can give us?
    Mr. Swagel. So this is my--one of my predecessors did 
essentially a dynamic score on the immigration bill. So this 
would have been in 2013. And in a sense it has got to be 
dynamic because the nature of the legislation has increased the 
size of the labor force. Right? More immigrants, we are going 
to legalize people and so the labor force will grow, and so 
doing a static estimate in which the size of the economy is 
held fixed, it just doesn't make sense.
    Mr. Newhouse. It is not realistic.
    Mr. Swagel. It is not realistic. Exactly. So that was 
essentially the first.
    Mr. Newhouse. What if I were a sponsor of a bill or just a 
Member of a committee? Can I say, ``Hey, Dr. Swagel, we have 
got to have a dynamic score on this''? Would you respond to 
that?
    Mr. Swagel. I would have two responses. One is we would put 
our macro team, the people who would work on it, together with 
your staff----
    Mr. Newhouse. Okay.
    Mr. Swagel [continuing]. And talk through it, and then, 
two, I would say--you are busy--if the chair of the committee 
or the ranking member of the committee supports that----
    Mr. Newhouse. I see.
    Mr. Swagel [continuing]. Then we would----
    Mr. Newhouse. Not just the bill sponsor.
    Mr. Swagel. And that is the challenge we have is our 
capacity to do work outside of the chairs and ranking members.
    Mr. Newhouse. You can only do so much.
    Mr. Swagel. We can only do so much.
    Mr. Newhouse. Okay.
    Mr. Swagel. But the first part we do sometimes in 
essentially in unlimited quantity of understanding where does 
the legislation affect the overall economy. I think you made--
if I can just take a second.
    Mr. Ryan. Take your time. Take your time.
    Mr. Swagel. One more example is on H.R. 3, on the drug 
bill, where that has a dynamic element in the sense of it will 
affect research and development going forward. It is something 
we had in our cost estimates for the bill, but it is something 
that I know there is a lot of interest in. And so our team 
working on drug research would meet with the staff to explain 
why we think the bill would, A, would save money and, B, would 
have an effect on the future development.
    Mr. Ryan. You did do that?
    Mr. Swagel. We Did. That is--we have done that analysis. We 
are still doing more of it.
    Mr. Newhouse. So you are essentially asking for a request 
to have a dynamic score?
    Mr. Swagel. I mention that one because it is not a dynamic 
score in the sense of the overall economy will change, but it 
is dynamic in the sense of, there is this forward-looking 
change in the industry that isn't fully captured in a sort of 
static 10-year view.
    Mr. Newhouse. So I guess more simple than that: You are not 
going to make a dynamic score determination without a request.
    Mr. Swagel. No, no, we wouldn't, and it would be a request, 
and we would consult with the Budget Committees to make sure 
that is the----
    Mr. Newhouse. The desire.
    Mr. Swagel [continuing]. The best, yes.
    Mr. Ryan. I don't know how this is framed, but can you 
capture in your analysis--in healthcare, there has been this 
discussion about prevention.
    Mr. Swagel. Uh-huh.
    Mr. Ryan. I remember when we went through the whole deal 
with the Affordable Care Act, if I remember correctly, we could 
not get basically the benefits of preventive healthcare, which 
obviously is very frustrating because we all know that 
screenings and, you know, diet, nutrition, this and that, we 
are learning more and more that prevents disease.
    Mr. Swagel. Yeah.
    Mr. Ryan. And so what is--what do you tell a guy like me 
who is, like, into health and wellness and want to try to prove 
out that these preventive measures can save us a lot of money?
    Mr. Swagel. So it is something we have worked on in the 
past, and we are still working on, and the challenge is that, 
in some ways, some prevention, as you said, saves money, but 
sometimes, you know, we screen a lot of people, and it costs 
money to detect the small number. Of course, it is worth it.
    Mr. Ryan. Uh-huh.
    Mr. Swagel. It still might end up costing money, and so 
that is the challenge of prevention is for us to have the 
research that would support, once you take the full portfolio 
of prevention activities, that, on net, they come out saving 
money. And that is something we are looking at closely to see, 
if that is supported and across what types of prevention 
activities.
    Mr. Ryan. Just to take that one level deeper. So you spend 
money on all the screenings, but only a small number of the 
people you are screening are actually going to be sick or have 
cancer or whatever the case may be, and so those two costs are 
balanced out in some way, and there may be a small savings 
maybe.
    Mr. Swagel. It could end up on the other side of that, but 
in some sense, it is worth it. Right?
    Mr. Ryan. Sure.
    Mr. Swagel. If we catch people at Stage 1 instead of Stage 
4----
    Mr. Ryan. Sure.
    Mr. Swagel [continuing]. It is worth it. It just costs 
money.
    Mr. Ryan. So then do you factor in the productivity of that 
person? Like, they are out working then because they are 
healthy and out, being productive, as opposed to being sick and 
getting care, is that part of the analysis?
    Mr. Swagel. No. So that would be a dynamic analysis but not 
in the static is the economic impacts. We have some impacts, if 
we catch--I will just continue with this Stage 1.
    Mr. Ryan. Yes, please.
    Mr. Swagel. If we catch one at Stage 1, then they save 
money. Basically, you know, sort of the treatment would be less 
expensive. So we do capture some of that. The same thing, 
legislation that improves access to pharmaceuticals means we 
save money on the hospital side. So we capture those sort of 
dynamics but not the bigger picture that you mentioned with, 
Mr. Chairman, on the labor supply. That is what we are missing.
    Can I mention one more thing----
    Mr. Ryan. Sure.
    Mr. Swagel [continuing]. In the same vein, which is we are 
thinking about on the climate side the same thing. If we had 
activities, if we spent money on things that would reduce the 
incidents of future costs, would that--essentially save money? 
And we don't know, but we know there is a lot of interest in 
that, in that analysis. So we are at the beginning of it, but 
we are starting to think about that. It affects, military 
installations, flood insurance, a variety of things.
    Mr. Ryan. You are going to have your hands full with that 
one.
    Mr. Swagel. Fortunately, much of the spending is 
discretionary. Fortunately, in the sense of, right, we don't 
project future discretionary spending. It just kind of 
straight-line at inflation, but we know there is a lot of 
interest. So we are working on it.
    Mr. Newhouse. Mr. Chairman, I just wanted to thank the 
doctor, again, for being here with us today and appreciate all 
your work. I do think it is--you guys represent a resource that 
we do depend on, become an important part of our legislative 
process, but also one that we need to probably learn to 
appreciate and utilize more. So I thank you.
    Mr. Ryan. All right. I thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. The first thing, I think you have a 
great organization. You know, the CBO has been very, very 
bipartisan, and that is tough in this town, but I think you 
have done it well.
    You have talked about and what a lot of your job is to pick 
what you are going to work on is picking your priorities, and 
in today's world, priorities seem to change. A lot of things 
are happening now in the area of healthcare and immigration. 
Probably you are doing more there now than you were before. So 
you have got to be flexible in that regard.
    My issue, and from a management point of view, is do you 
have the resources and the staff? I understand you have eight 
people assigned to the appropriations process. Is that enough? 
It seems to me there is so much volume that you have to deal 
with, and then everybody needs a score. If you don't have a 
score, you really can't move legislation. There is a lot of 
pressure on you and other agencies that you have to deal with, 
too.
    So basically my question is: Where are you from a 
management perspective? Do you have the resources you need? I 
also see that you are going to expand your senior analysts to 
do more and then try to bring in the junior analysts or 
whatever you call the junior analysts to maybe help you in that 
regard to service us and what we need in this process.
    Mr. Swagel. Thank you.
    Mr. Ruppersberger. Did you get it?
    Mr. Swagel. I got it. I got it. So the answer is, after 
this year, I think we will be in a good position, and we are--
--
    Mr. Ruppersberger. Why? Why?
    Mr. Swagel. Because we expanded the staff last year. We are 
in the process of doing it this year in part on the healthcare 
side and the energy and environment side. On the budget 
analysis function that supports the appropriations, as you 
said, we are adding two ways. One is senior people who are more 
flexible. Senior people will have broader portfolios, and so 
if, you know, on the national defense----
    Mr. Ruppersberger. How would you define a senior person 
though? I mean, years or what?
    Mr. Swagel. Years. It is a mix of years and experience. It 
was--on the junior side, it would be someone generally right 
out of college who would be at CBO for, say, 2 or 3 years and 
would support the more senior people, and there we are adding 
more of those staff and, again, the idea is they are just more 
flexible, right. We will have junior staff with good technical 
abilities who will be very versatile.
    So that is why I think, after this year when we finish, the 
hiring program this year, we will have the resources we need as 
long as we stick to the flexibility that we are planning on. I 
think we will be in a good position.
    And that is why, in this request, we are not asking--we are 
just asking for the funding to basically stay where we will be 
at the end of this year.
    Mr. Ruppersberger. What are things that we put pressure on 
you from our committees, our staff that you would like us to 
change a little bit to help you do your job?
    Mr. Swagel. the challenges we have are the same as you 
have. At the end of the year with the appropriations, right, we 
had people working, not around the clock literally, but over 
the weekend, and it is just the nature of the process, and we 
are here to support you. So, we will do it, and the people 
working on it know, we all know that that is how we do it.
    The other challenge we have sometimes is when several 
committees or the leadership are interested in the same thing. 
So drug prices are--in terms of the--the issue right now where 
we just have both the House and the Senate, multiple 
committees, leadership interested in the same issue, and there 
is a limited number of people and, we figure it out.
    Mr. Ruppersberger. How do you work with the administration?
    Mr. Swagel. At the staff level, we work very well and 
routinely. Our analysts will work with counterparts in 
executive agencies. We need to know, sort of this new 
transportation office, how much would it cost. On an analyst-
to-analyst level, it is routine, and even at the OMB level, it 
is routine. At the political level essentially we don't, we 
just are separate. Actually, I have, people I know who are in 
the administration. I am on leave from the University of 
Maryland in College Park.
    Mr. Ruppersberger. You are?
    Mr. Swagel. Yeah, I am.
    And one of my colleagues in the business school is in my 
old job, the chief economist of the Treasury, and he and I know 
each other. We----
    Mr. Ruppersberger. Relationships and trust.
    Mr. Swagel. Relationships, but at the political level, 
actually, I don't know the head of OMB. I have never talked to 
him. I know some of his staff, but it is essentially no 
coordination at that level.
    Mr. Ruppersberger. I guess you have some pretty smart 
people working for you.
    Mr. Swagel. We have a great----
    Mr. Ruppersberger. You have any Harvard people working?
    Mr. Swagel. Any?
    Mr. Ruppersberger. Harvard people?
    Mr. Swagel. We do, yes.
    Mr. Ruppersberger. You are, I know.
    Mr. Swagel. I am. It is Harvard, on the health side 
especially, is a great program. So part of our healthcare team 
have Harvard backgrounds.
    Mr. Ruppersberger. Just don't forget University of 
Maryland.
    Mr. Swagel. Don't worry, sir.
    Mr. Ruppersberger. I yield back.
    Mr. Swagel. No, thank you.
    Mr. Ryan. So you talked a little bit about the--Dutch 
brought up interfacing with the executive branch. The question 
we have around MOUs, you have to get individual MOUs is our 
understanding.
    Mr. Swagel. Yeah.
    Mr. Ryan. It would be easier if there was some kind of 
standardized MOU or some kind of--instead of doing the 
individual every time.
    Mr. Swagel. Yeah.
    Mr. Ryan. Does that make sense?
    Mr. Swagel. On the data use, it has worked so far that, 
when we need data, we have been able to obtain the data we 
need. The challenge is that sometimes the legislative process 
will be happening so quickly that just the sort of going 
through the steps doesn't work. We are still exploring whether 
there is some broader agreement we could come to, but we are 
not quite there yet.
    Mr. Ryan. Is it just part of the general struggle between 
the executive branch and the legislative branch?
    Mr. Swagel. It is almost--there is a little bit of that, 
but we don't have agencies that are actively trying to hinder 
or hide information from us. Sometimes it is more the 
bureaucratic inertia within an agency, and there is some that 
are better than others. That is--it is more that than a sort of 
trying to hide the ball.
    Mr. Ryan. Okay.
    Mr. Swagel. Yeah. But we would come back to you for help.
    Mr. Ryan. Okay.
    Mr. Swagel. You will hear from us right away if we need 
specific help.
    Mr. Ryan. Well, do you have something?
    Mr. Newhouse. No, great. Thank you.
    Mr. Ryan. We appreciate you. Thank you. Thanks for coming 
in, and we will stay in close contact. As you know, we talked 
about this is a tough budget year for all of us, and we will do 
the best we can.
    Mr. Swagel. Okay. Wonderful. Thank you, sir.
    Mr. Ryan. Thank you.
    The meeting is adjourned.

                                      Wednesday, February 12, 2020.

                OFFICE OF CONGRESSIONAL WORKPLACE RIGHTS

                                WITNESS

SUSAN TSUI GRUNDMANN, EXECUTIVE DIRECTOR
    Mr. Ryan. The committee has been gaveled in. Ms. Grundmann, 
welcome back to the Legislative Branch Subcommittee and 
congratulations on the 25th anniversary of the creation of the 
Office of Congressional Workplace Rights.
    Your mission is needed now as much as it ever has been over 
the last 25 years. We know the past year has been a monster 
year for your office as you have had to meet all the deadlines 
of implementing the changes to the Congressional Accountability 
Act in 6 months.
    Kudos to you and your staff who clocked so many hours to 
meet the deadlines. We really appreciate it. I know the reforms 
are in the early stages of implementation, but we will be very 
interested in your thoughts about how it is going. As I will be 
saying at all of our hearings, we have been told to expect a 
funding allocation this year that is a freeze of last year's 
allocation. That is especially unfortunate for your agency, 
since you requested no increase last year. I am sorry to be the 
bearer of that bad news, but I just want to give people a 
realistic picture of where we are starting from.
    Before you give your testimony, I will ask Ms. Herrera 
Beutler if she has any opening remarks.
    Ms. Herrera Beutler. I thank you, Mr. Chairman.
    And welcome. It is a pleasure to have you.
    This is the second time you will have testified before the 
subcommittee since the Congressional Accountability Act of 1995 
Reform Act was signed into law and the first since the new 
dispute resolution process was implemented. So I look forward 
to hearing how it has all progressed.
    Going into CAA reforms, there were some unknowns associated 
with what the financial costs would be for a full 
implementation, and I hope there is now more certainty around 
what those costs will be and that they have been incorporated 
into your request.
    I understand we asked for these changes to happen really 
quickly. It was yesterday when we asked. Right? So thank you to 
you and to your staff for implementing these changes in such a 
short timeframe.
    We appreciate your office's work in improving safety, and 
it really is the safety of the entire legislative branch, 
protecting the rights of employees, and assuring access to 
persons with disabilities and educating our constituency on 
CAA's mandates.
    So I thank you.
    And I yield back, Mr. Chairman.
    Mr. Ryan. I thank you.
    We are pleased to hear your oral remarks. We will include 
your written opening statement in the record. So you may begin.
    Ms. Grundmann. Thank you.
    Good morning, Chairman Ryan, Ranking Member Herrera 
Beutler, and all our distinguished Members of this committee. 
It is good to see everybody back again.
    On behalf of the Office of Congressional Workplace Rights--
thank you for the opportunity to tell our story and to answer 
your questions on our 2021 budget justification.
    So, when last we met, we were undergoing full 
implementation of the Reform Act, and while our office has been 
in operation since 1996, we are just barely 6 months under the 
new system.
    As you know, the Reform Act, and you mentioned in your 
statement, mandated that we complete virtually all the changes 
within 180 days, and that really was akin to designing a brand 
new agency in 6 months. But in 6 months, we accomplished a 
great deal, and bear with me as I go through them.
    We implemented full--following full public notice and 
comment and meetings with our stakeholders, new procedural 
rules that reflect changes brought about by the Reform Act. 
Normally a process of this nature would take more than a year. 
It took us 5 months.
    We created new roles, position descriptions, and 
responsibilities and hired and trained new staff to fill two 
new statutory roles in our office, the Confidential Advisor who 
is here today, Sargam Hans, and our preliminary review hearing 
officers. Normally the design, recruitment, and training of 
these positions would take at least 6 months. We accomplished 
the same in two.
    We created a new e-filing system designed and implemented, 
called SOCRATES, which translates into Secure Online Claims 
Reporting and Tracking E-filing System.
    Mr. Ryan. How did you come up with that?
    Ms. Grundmann. Our IT manager. Oh, yes, pretty good. We are 
pretty proud of it.
    And normally the design, the testing, and the launch of a 
system like this would take years. We accomplished it in 
partnership with the Library of Congress and our vendor in 4 
months. We launched the first ever legislative-wide workplace 
climate survey, which includes questions about attitudes 
towards sexual harassment. That survey launched in December. It 
will be open through February.
    And we continued business as usual. Cases were still 
processed. Occupational safety, health, and public 
accessibility inspections continued. Labor disputes were 
administratively addressed, and we continued to fulfill our 
statutory mandate to educate and to outreach in our community 
on the rights and protections under the Congressional 
Accountability Act. And it is this role that has increased in 
stature by virtue of the Reform Act because now mandatory 
training of everybody leg branch employee by every employing 
office, some of which have designated us for that purpose.
    So, privately, I have expressed our deep appreciation and 
our dedicated staff to the purpose of the mission and certainly 
the last year. Today, let me publicly acknowledge the women and 
men who worked night and day during this monster period, as you 
say, to meet the deadline. And while time was always an issue 
during the 180 days, thank you for seeing that we received 
sufficient funding to meet the demands of that challenge.
    Thank you for the privilege of your time. I know you have 
questions. We hope we have answers, given that the short period 
of time we have been under the system, and I look forward to 
talking to each one of you.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  

    Mr. Ryan. Good. I thank you.
    But thank you to all of you. We appreciate it. We know we 
asked a lot, but, obviously, this is a very important. We want 
to set the gold standard here in Congress, and you are helping 
us do that. We appreciate it.
    We are going to open it up. I am going to yield to Ms. 
Clark for questions.
    Ms. Clark. I thank you.
    And I thank you, Director Grundmann, for being here and to 
all of you for being here. We so appreciate the work you are 
doing and the incredible timeline in which you were given and 
have met. It is really very, very impressive.
    But we continue to have concerns about instances of sexual 
harassment and discrimination in our congressional workplace, 
and I know that you are undertaking a congressional climate 
survey to do that, and we received many calls about different 
surveys into our office. One thing I found a little 
disconcerting was that we didn't know about this survey, my 
staff didn't, until we were researching for this hearing. So I 
wondered how you field the outreach and education. I think 
there is a general reluctance to participate in these surveys 
that you have to overcome, if you could tell me a little bit 
about your approach and how we can help you get the best 
response right possible.
    Ms. Grundmann. Perfect. First, let me start by saying that 
the climate survey is a statutory creature.
    Ms. Clark. Right. Yes.
    Ms. Grundmann. Yes. So, under the statute, we have to do 
certain things. It had to be voluntary, anonymous, and 
confidential. It had to have questions regarding attitudes 
towards sexual harassment, and we had to collaborate with 
methodology and procedures with CHA, Senate Rules, and Homeland 
Security, Government Affairs.
    Having said that, the survey did launch. We are pinging 
employees every single week. The survey is actually in your 
mailbox right now. It is under <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8e8184808c99889e989f9b8894ad828e9a9fc38a829bc3">[email&#160;protected]</a> We have 
tried to reach out to chiefs of staff. We have had a table in 
the cafeteria reaching out to people on their lunch hour. You 
can help us out by reaching out to your chiefs of staff and the 
other chiefs of staffs and encouraging them to take that 
survey.
    Clearly, the more responses we get, the less the margin of 
error and the more reflective it is of this community.
    Ms. Clark. What are you planning on doing with the data?
    Ms. Grundmann. Well, according to the statute, the data 
results will be delivered to CHA, Senate Rules, and Homeland 
Security. We are hoping that something will come out of that 
survey to tie into the other side of your question that we can 
mine to develop new modules because, if you have seen the 
survey, there will be questions about supervisors. How did 
supervisors handle this type of complaint? Did they address it 
immediately? So there is an opportunity, if we find a weakness 
in that area, to develop modules for them.
    Certainly we know we are going to have to develop a new 
module for the paid parental leave that is now law, and we can 
talk a little bit about that, but we will keep pinging. We need 
your help.
    Ms. Clark. Okay.
    With secure e-filing case management system, what ongoing 
costs do you anticipate for maintaining that system?
    Ms. Grundmann. So far, we have spent $500,000 to date. That 
system--let me just talk a little bit about SOCRATES. It is 
more than an e-filing system. It is a file-sharing system, and 
that is required by statute that the parties have access to 
during the pendency of their procedures. We also use SOCRATES 
to fulfill our statutory requirement to file reports to 
Congress. So it is a very vast system.
    What we would like to do is rebuild SOCRATES from the 
ground up. We know that cybersecurity wars rage. We know 
hackers are getting smarter, and in order to stay secure, we 
need to rebuild the system. So that would be at least another 
$500,000.
    Ms. Clark. Great.
    And, finally, with the ADR program----
    Ms. Grundmann. Yes, ma'am.
    Ms. Clark [continuing]. That went into effect in June, we 
know this is a significant departure from pre-Reform Act. I 
just wondered if you could give us an update as you implement 
any significant developments. Has the number of cases 
increased? Has participant satisfaction increased? Just any 
sort of general update on that process.
    Ms. Grundmann. Definitely. Let me just preview my remarks--
and I have said this in our statement--but we have to this date 
yet to take a case from the beginning of the process through 
adjudication to the final decision. So we are still 6 months 
into a new process. It is entirely different, as you say, from 
the old process.
    But in that 6 months we can make a couple of generalized 
statements, the first being--and this is not new--costs, 
adjudication costs, have gone up, as we expected, and that may 
be partially due to the preliminary review that occurs within 
the first 30 days of the process. As you know, that review is a 
7-point review to determine whether the claim can proceed 
through the administrative process.
    We also have new employing offices under our jurisdiction. 
We also know that the Library joined us in March of 2017, and 
they are to this day the second employing office with the most 
number of claims. Looking forward, we know that there will be 
other employing offices, new categories of employees like 
unpaid staff.
    The second trend is not necessarily new. Race, national 
origin, and color are consistently the largest number of claims 
that we receive, and that is under the old system. It has been 
throughout the old process, and that is current under the new 
system as well. What we have seen in the last year is an 
increase in age discrimination cases, almost double from the 
previous year. We also see in the new cases, in the new claims 
specifically, more retaliation cases than we have seen in the 
past.
    So but let me bear in mind that an allegation made is not 
necessarily an allegation found, and we are still exploring 
this process as we grow into it.
    Ms. Clark. Great. I thank you so much.
    I thank you, Mr. Chairman.
    Mr. Ryan. So you said $500,000----
    Ms. Grundmann. Yes.
    Mr. Ryan [continuing]. That would cost an additional.
    Ms. Grundmann. Yes.
    Mr. Ryan. You are developing this system from scratch?
    Ms. Grundmann. Yes.
    Mr. Ryan. So tell us your thinking on between getting, you 
know, right-off-the-shelf technology and building the thing 
from scratch and just share with us your thinking on that.
    Ms. Grundmann. Sure. The reason why we used existing 
commercial software is because of the 180-day deadline. There 
was just no way to build something from scratch. Now, with 
implementation behind us, we have a little time to build it and 
to create it and to put all the bells and whistles that we 
would like to in it.
    The 180 days, as everybody has noted, is not ideal, but in 
order to meet that deadline, that is what we had to do.
    Mr. Ryan. And so you can't take it to the next level with 
the bells and whistles, using the commercial off-the-shelf.
    Ms. Grundmann. Currently, the system is maintained through 
patches through the Library of Congress and that is costly. 
That takes us offline on occasion. We can't necessarily control 
it. We would like to get to the point that we can, that it is 
our system.
    Mr. Ryan. Okay.
    Ms. Grundmann. And that is what it is going to take.
    Mr. Ryan. Ms. Herrera Beutler.
    Ms. Herrera Beutler. I thank you.
    It is hard to wrap my mind around there is a lot here. I 
did want to ask about FMLA.
    Ms. Grundmann. Yes.
    Ms. Herrera Beutler. I know the NDAA amended it, the CAA, 
to extend paid parental leave to legislative employees.
    What is your role in the implementation of that new 
legislation?
    Ms. Grundmann. So I remember a conversation last year, and 
there was a great deal of discussion on this, particularly the 
inconsistency between the offices. Well, you fixed all of that 
through the NDAA by amending our act, and as you say, for first 
time legislative employees are authorized paid--not unpaid, but 
paid--parental leave in connection with the birth or the 
placement of a child after October 2020. So it is very bold.
    Ms. Herrera Beutler. After--this goes into effect after 
October of 2020.
    Ms. Grundmann. It is into effect now, but it is for paid 
parental leave requests that come after October 1st, 2020.
    And to add onto that, for first time ever, employees who 
have not worked the entire 12 months, the preceding 12 months, 
are now entitled to this benefit. So it is enormous.
    We have some simple FAQs on our website. I can see a module 
coming out of this because there are so many questions about 
it, and that would be our outreach mandate that we were 
fulfilling, but we have a statutory mandate as well, and that 
is we must develop substantive rules to further flesh out this 
law. And we will be doing it through public notice and comment 
with our stakeholders. And once we adopt those rules, then you 
have a role in that in that you must pass this legislation into 
law.
    Now, there is a little bit of urgency here. It is not the 
180-day kind of urgency, but if you are planning on having a 
child or planning to adopt a child and after October 2020, 
chances are you are going to know soon or you are going to know 
now. So that leave may be coming fairly quickly.
    Ms. Herrera Beutler. Okay. I wanted to ask for 
clarification. Getting back to where we were right before me, 
the new incidents of or what you are seeing an uptick in, in 
terms of the types of claims being filed, and before--we talked 
about retaliation, discrimination, and age. Age discrimination, 
it was race. What was right before that?
    Ms. Grundmann. Race, color, and national origin.
    Ms. Herrera Beutler. And that is what you are seeing the 
most----
    Ms. Grundmann. That is consistent.
    Ms. Herrera Beutler [continuing]. Cases?
    Ms. Grundmann. Yes, yes, those are the types of claims we 
generally see.
    Ms. Herrera Beutler. Discrimination based on.
    Ms. Grundmann. Yes.
    Ms. Herrera Beutler. Wow. Has it been historically that, or 
is that newer?
    Ms. Grundmann. Yes.
    Ms. Herrera Beutler. That has always been what it has been.
    And you say that is the highest percentage?
    Ms. Grundmann. No, it is usually the vast majority of our 
cases.
    What is interesting this last year, again, you know, there 
are changes that, you know, fluctuations throughout, but there 
is a drop in claims based on gender and sex. So it is working.
    Ms. Herrera Beutler. Yeah. On the survey, so I got mine 
this week, and I started to open it and then I stopped. It is 
over 150 questions. Is that required? Because I know there were 
certain things we required you do.
    Ms. Grundmann. The statute required that we consult with 
CHA, Rules, and Homeland Security. So they wanted to get it 
right, and they developed a good deal of content based on our 
initial draft.
    Ms. Herrera Beutler. So it has to be 150 questions.
    Ms. Grundmann. It does not have to be 150 questions.
    Ms. Herrera Beutler. I just wondered if that is going to be 
part of the inhibition people have about opening, starting it.
    Ms. Grundmann. It is, depending on--the way the survey 
works is it branches out. If you say no, you skip to the next 
question. If you say yes, there is a series of other questions. 
I really believe that the committees wanted to be detailed, and 
they wanted to get it right in terms of asking the right types 
of questions and getting the right type of information that 
they are looking for.
    Ms. Herrera Beutler. The only concern I have is the only 
ones who are going to really go through that whole process are 
people who are self-selecting, likely. I am--conjecture, so I 
have got something I need to say here. I have got a problem. So 
I am going to get in, and I am going to do the whole 150 
questions whereas it is, like, I am thinking about some of the 
folks in my office--and, yes, I am going to ask my chief to 
make sure everybody, we highlight it. Do I think they are all 
going to do it?
    Ms. Grundmann. You can ask.
    Ms. Herrera Beutler. And we want to have a good sample 
sides. It really all comes down to sample size. Anyway, I thank 
you.
    I yield back.
    Mr. Ryan. Is there something we can do to incentivize 
people filling it out? I mean, I know a lot of these surveys 
you get, I will give you a $5 Dunkin' Donut card or whatever.
    Ms. Grundmann. Yeah.
    Mr. Ryan. People will take the time to do it.
    Ms. Grundmann. Yeah. I want to say yes, but realize the 
statute requires that it be anonymous and confidential. So 
there are limits. I mean, what we have done is we have had 
ePosters. Dear Colleague letters are out there.
    Ms. Grundmann. Just get the word out. I mean, our slogan is 
simple: Just take the survey. We will come to your offices and 
talk about it, but it still has to be anonymous and 
confidential.
    Mr. Ryan. Did we send out one to--I know we talked last 
year about sending out, maybe you and I, sending out a----
    Ms. Herrera Beutler. A Dear Colleague.
    Mr. Ryan [continuing]. A Dear Colleague--maybe we should do 
that.
    Ms. Grundmann. Yeah, please, that will help us.
    Mr. Ryan. Yeah, we can do that.
    Mr. Newhouse, you are up.
    Mr. Newhouse. I thank you, Mr. Chairman.
    I was just looking because I didn't think I had gotten one, 
but here it is. It was on Monday. I guess I need to look closer 
at my emails.
    Well, welcome, Director Grundmann, and welcome to all of 
your team. I appreciate you being here with us.
    It is important stuff, and I am very impressed that you 
were able to get things put together so quickly.
    I had a question about that and just at some point 
certainly you guys didn't huddle and say: Okay. Let's do this. 
You must have found some outside models or things to look for, 
for resources in order to put things together, I am assuming, 
but I don't want to take my whole time asking about that but I 
am guessing that there was some--I hope there are some things 
in industry or other governments that you were able to utilize.
    Ms. Grundmann. With the e-filing, we consulted a couple of 
executive branch agencies like DHS and MSPB. They have similar 
intake e-filing systems that interface with the public. So 
they, you know, created some ideas for us. We worked closely 
with the Library of Congress, who hosts the system.
    Mr. Newhouse. Yeah, you said that.
    Ms. Grundmann. And we had a vendor who designed software to 
go along with it. It is all lessons learned. We were learning 
some of them as we went.
    Mr. Newhouse. It is evolving; you are saying.
    Ms. Grundmann. Yes. Well, right now, the system is, you 
know, invite us over. We will show you what it looks like and 
play with it a little bit. It is very, very detailed because 
the claim form itself has to--it has to survive scrutiny from 
preliminary review.
    Ms. Grundmann. So it asks a series of questions that will 
allow our preliminary review hearing officer to determine that 
7-point review that is part of----
    Mr. Newhouse. It is kind of a litmus test to make sure it 
is----
    Ms. Grundmann. In a manner of speaking, yes, you could say 
that.
    Mr. Newhouse. Okay. So we have had--kind of talking a 
little bit before the hearing started. So I appreciated that. 
But my question is related to you, I wanted to ask you about 
the mandatory training that is required for all Members and 
staff, and I am assuming your staff as well----
    Ms. Grundmann. Yes.
    Mr. Newhouse [continuing]. Which would be ironic if it 
wasn't, right? But you guys have come up with non-mandatory 
training that is available. So----
    Ms. Grundmann. Correct.
    Mr. Newhouse [continuing]. What is the difference? And are 
we, looking as a conservative Republican, you know, fiscally 
and all that, why do we need two things? Shouldn't we be 
focused on getting the best return on our investment here? And, 
frankly, as we talked about before, although it may be 
improving, I wasn't certain that the mandatory training was 
really as effective and as time well spent as it could have 
been. I think we are losing an opportunity here on a very 
important topic. So I am very interested in what you guys have 
come up yourselves.
    Ms. Grundmann. Understand.
    Just to be clear that the mandatory training for the House 
of Representatives is not our training.
    Mr. Newhouse. Right. I understand. It is an outside 
contractor.
    Ms. Grundmann. An outside contractor.
    Mr. Newhouse. That is why I can throw rocks at them, 
because it is not.
    Ms. Grundmann. What we now know is we no longer live in a 
time where it suffices to train on the mere letter of the law. 
In order for that true change to occur in this community, which 
all the legislation people have demanded, we must educate on 
the underlying biases, practices, and behaviors that could 
cause discrimination, that could create a----
    Mr. Newhouse [continuing]. Makes sense----
    Ms. Grundmann [continuing]. Exactly.
    For those reasons, we have reached into preventive tools, 
for instance, our bystander intervention tools, which talks 
about what bystanders should do or say when they witness 
behavior, and our unconscious bias module. They are all in 
person that we deliver. Those are preventive tools to think 
about what you are saying, not that what you are doing is 
necessarily wrong but think about whether your actions or your 
perceptions are truly what this climate demands. We are not 
condemning anyone. It is an interactive module. It is from our 
reviews, from the reviews that we have seen, a lot of fun, and 
so that is the next generation. We want to be able to go 
further into that level.
    Mr. Newhouse. I have not heard that description on the 
mandatory. I am just saying, but so that is great. I am 
excited, and I do think that, if we are going to be effective 
here, we have to have something that people, I think, feel as 
though they are investing their time in a good way----
    Ms. Grundmann. Uh-huh.
    Mr. Newhouse [continuing]. Or else you just turn off, and I 
am probably exposing my own, what I do, but I am trying to be 
as open-minded as possible when I go into the training, but I 
tell you what, it is not easy. So thank you for all of your 
efforts there.
    I think I heard that the race discrimination claims are 
going down?
    Ms. Grundmann. They are up.
    Mr. Newhouse. They are up.
    Ms. Grundmann. That is consistent.
    Mr. Newhouse. Oh, gender is going down.
    Ms. Grundmann. Gender has actually gone down this year.
    Mr. Newhouse. So that is a good thing, right?
    Ms. Grundmann. That is a good--well----
    Mr. Newhouse. Does that reflect on the training?
    Ms. Grundmann. It could reflect on the mandatory training. 
It could be as simple as that poster that you now require that 
employees be aware of their rights in this community. It is now 
a mandatory poster. It is--we view it as good news that the 
reforms you put in place are working.
    In terms of the future, I mean, we have talked a little bit 
about the climate survey. The climate survey is a wonderful 
tool or could be a wonderful tool for us to mine for areas 
where we think that there are new areas we should explore.
    Mr. Newhouse. So it could be, and I don't know if it is a 
bad thing, we could see an increase in claims potentially as 
people understand that, well, there is a resource available to 
me, and there is a bigger awareness of this--that shouldn't be, 
and there is something that I can do.
    Ms. Grundmann. Right. So, in our history, and this is pre-
reform, post-reform, there have been fluctuations in caseload. 
We really can't attribute them to anything. There was a slight 
increase in claims based--cases based on gender in 2018. That 
has dropped in 2019.
    Mr. Newhouse. Okay. I appreciate your work on this. It is 
awesome and very great work on everybody's part for you being 
able to work in such a close, short timeframe to get things up 
and running, and it is important stuff to have a safe 
workplace.
    Ms. Grundmann. Right. Thank you.
    Mr. Newhouse. I thank you.
    I thank you, Mr. Chairman.
    Mr. Ryan. I thank you.
    So the GAO last December issued a report required by the 
Reform Act to assess OCWR's management practices in 
implementing the act, and the report was generally favorable. 
In your response to the statutory requirement, how have you 
responded to the GAO's report findings on executive actions on 
management issues?
    Ms. Grundmann. That is interesting because the GAO, as you 
note, said we did a number of things right, which is to manage 
the changes to the administrative dispute resolution program--
we did that through promulgation of rules--to appoint a 
Confidential Advisor. And hers is more than an appointment. It 
has some specific statutory requirements. She is a statutory 
being. And, of course, to develop SOCRATES.
    Now what GAO found that we need to work towards is a 
permanent record retention program. Our office has a permanent 
record retention policy. We have had one pre-reform, going back 
to at least--2016 and that complies with the statute. What we 
are moving towards is a program which now identifies risks and 
manages those risks, and we do that by looking at the document, 
finding out who has access to that document, and what period of 
time.
    Now the other GAO recommendations, there is kind of a 
little bit of interrelationship between all of them. One of 
them is to develop a schedule of tasks, IT tasks, and for that 
we have a current vacancy announcement out for an IT program 
manager. That is also tied to folding our IT planning into our 
strategic plan, which is tied into another GAO recommendation 
that we identify performance results and performance measures 
in our strategic plan.
    And now it is time with reform behind us, because our 
strategic plan really looked at implementation, now we have got 
that behind us, now is the time to refresh. Now is the time 
midterm to look at how our changing work environment has 
affected the way we measure our own success.
    Mr. Ryan. Uh-huh. One of the questions I had, which fits in 
here, is about the satisfaction, user satisfaction, and that is 
something that you just said that you are going to try to 
really be able to kind of get that information.
    Ms. Grundmann. Yes.
    Mr. Ryan. What is your sense now as to the user 
satisfaction?
    Ms. Grundmann. It is too new. We are still 6 months into 
the system. There are only--I think our statement says there 
are only 20 claims so far. We had 65 total, 65 under the old 
system under 2019. So it really is too early to tell.
    I think--and this is just a thought at this point, again, 
because it is too early--the system is moving faster than it 
used to work before because before you had the requests for 
counseling, 30 days mandatory mediation, 30 days cooling off 
period, 30 days. Now, from the day you file, you can either go 
to court right away or you are right into the adjudication 
process, which is the preliminary review.
    Mr. Ryan. And so, in the context of the reporting of 
payments by the Member offices for workplace claims, we know 
that we did try to speed it up, but also the public reporting 
piece of the claims, we understand that the first report has 
just been released, but it is surprising that the report 
doesn't report any payments for either the House or the Senate 
employing offices.
    Is that a question of timing?
    Ms. Grundmann. That is a question of timing. The reporting, 
this is just one new reporting requirement that we have, and it 
is to enhance transparency in the system, which was demanded.
    But under the statute, reimbursement only applies to awards 
and settlements in connection with certain types of claims 
filed on or after the effective date and that being June 19. 
So, in the first 7 months of our existence, there is nothing to 
report. Now there will be a second report coming out January 
31st of next year which will cover the entire year of 2020. 
Again, a footnote: We have yet to take a case from initial 
processing through the filing of the claim through adjudication 
to a decision. So there is nothing to report at this time.
    Mr. Ryan. Okay.
    Well, we had the conversation earlier about the paid leave. 
Is that a 12-month or 6-month?
    Ms. Grundmann. It is 12 weeks.
    Twelve months. Wow. It is 12 weeks. It is 12 weeks of paid 
parental leave.
    Mr. Ryan. Okay. I have a couple more questions, but do 
you----
    Ms. Clark. No. Go ahead.
    Mr. Ryan. Does anyone else have any?
    Mr. Newhouse. Just one. It occurred to me. In these cases, 
who is the judge or the jury or who decides? Is it you guys, or 
is there an independent panel?
    Ms. Grundmann. It is actually a hearing officer and----
    Mr. Newhouse. One person?
    Ms. Grundmann. No, it is several. It is several because the 
statute requires that this individual, the hearing officer, be 
appointed randomly and rotationally and that person, this 
person be either a retired judge or arbitrator with experience 
in the types of cases that we have.
    Mr. Newhouse. One person per case.
    Ms. Grundmann. One person per case, correct.
    Mr. Newhouse. Okay.
    Ms. Grundmann. Except, under the new system, there are now 
two judges. There is the preliminary review hearing officer, 
and the merits hearing officer is actually a different person 
under the statute.
    Mr. Newhouse. Okay. Okay.
    Mr. Ryan. A couple of questions that are off of the nuts 
and bolts of what we are been talking about. One is, if you 
paid any attention to the hearings we have been having over the 
last couple of years, we are talking more and more about the 
health and wellness of our staffs, our employees, and given 
what you all have been through in the last year, as I said, 
they look good, but sometimes that could be deceiving on how we 
feel.
    Ms. Grundmann. Yeah, what doesn't kill you makes you 
stronger.
    Mr. Ryan. Well, yeah, there is that, too.
    Is there anything that you are doing along the lines of 
health and wellness? We have started the House Wellness Center, 
and we want to make sure that is available to everybody on 
Capitol Hill. Are you guys doing anything along those lines?
    Ms. Grundmann. Frankly, there hasn't been time.
    Even though the Reform Act has passed, it is still as busy 
as ever in this office, in our office. New employing offices 
are coming to us. People are reaching out for advice, technical 
advice on the new legislation. Certainly the paid parental 
leave is a great area of interest right now, and we are 
grateful that they are reaching out to us, but it is always 
something all the time.
    Hopefully we will be able to take a break.
    Mr. Ryan. Yeah. Well, we want to make sure everyone is 
functioning at peak performance, and that includes taking care 
of yourself.
    And so we would encourage you to look at what we are doing 
within the House Wellness Center.
    Ms. Grundmann. How are we doing?
    Mr. Ryan. The public statement and the private statement 
are probably two different ones.
    The other issue, we have been talking a lot about is 
childcare and what we talk, we had the Capitol Police in here 
yesterday. We have had private meetings with different aspects 
of the legislative branch.
    And one of the issues for us is really competing with the 
private sector and retention, and part of that is trying to 
provide some services in an environment that, obviously, it is 
a lot of the stuff is mission-based, which you all experienced 
over the last year or so, that this is important work and 
people want to be here, but you also have to provide some level 
of support for them.
    Do you have any information around childcare needs for 
people that you are working with? And if you don't, I mean, 
that is fine. If you could maybe start exploring that----
    Ms. Grundmann. Yeah.
    Mr. Ryan [continuing]. Because we are trying to take more 
of a holistic approach.
    Ms. Grundmann. One of the tools that has worked well in our 
office, particularly with employees who have younger children, 
is telework. So it can't be all the time, but certainly we want 
to encourage our mothers and fathers of young children to take 
as much time as they need and be comfortable in that 
environment and that flexibility I think gives them the joy and 
the inclination to stay.
    Mr. Ryan. Yeah. As can you see, we have very liberal 
policies here on the committee.
    I have covered all the ground I want to cover.
    Ms. Clark. Thank you so much.
    Mr. Ryan [continuing]. Any other questions? What is your 
son's name?
    Ms. Herrera Beutler. What is your name?
    Ethan. Ethan.
    Ms. Herrera Beutler. Ethan.
    Mr. Ryan. Ethan.
    Ms. Grundmann. Ethan is on the record now.
    Mr. Ryan. Ethan, do you have any questions you want to ask?
    Ms. Herrera Beutler. He was very curious about the color, 
and when it would start beeping red, he said, ``They are not 
stopping. They are not stopping.''
    Mr. Ryan. You give him the gavel one time, and he wants to 
start running the show here.
    Welcome to Congress. You are going to be a good one.
    Well, I thank you so much. Again, please pass along to 
everybody how much we appreciate your work, and we are here to 
help you and support you. We will send out--either Ms. Herrera 
Beutler or I will send out a Dear Colleague about filling out 
the--yeah.
    Ms. Grundmann. Wonderful.
    Mr. Ryan. I thank you. We appreciate it.
    Ms. Grundmann. Thank you.
    Mr. Ryan. Thanks for all the great work.
    All right. The meeting is adjourned.

                                       Thursday, February 27, 2020.

                    GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

GENE DODARO, COMPTROLLER GENERAL OF THE UNITED STATES
    Mr. Ryan. We are going to call the hearing to order. They 
are saying votes soon. So we want to get started.
    This is the fiscal year 2021 budget hearing for the 
Government Accountability Office. We want to welcome Mr. Gene 
Dodaro.
    We welcome you back to the subcommittee. I always enjoy 
this hearing and getting to hear you talk about some pretty 
vast topics and your deep knowledge. We have a great admiration 
for your agency's work in ferreting out misconduct and finding 
ways to save billions of dollars with your recommendations to 
improve Federal agency operations.
    We especially appreciate your neutral independence in 
facing difficult budget questions. I am afraid in our current 
situation with flat budget caps, it will be hard to accommodate 
your healthy request, but we will do our best.
    I want to quickly move to any remarks from Ms. Herrera 
Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Thank you. Welcome back. GAO's scope of work includes 
evaluations of Federal programs and performance, financial and 
management audits, policy analyses, legal decisions, bid 
protest adjudications, and investigations. And the list goes 
on. We rely on your work, your nonpartisan work, and the 
thoroughness with which you do it, to really help shape policy 
here for the American people. So it is incredibly important 
what you and your team do, and I look forward to hearing your 
testimony. Thank you.
    Mr. Ryan. Mr. Dodaro.
    Mr. Dodaro. Good afternoon, Mr. Chairman, Ranking Member 
Herrera Beutler, Congressman Newhouse. It is very nice to be 
back here again today.
    First I want to thank the subcommittee for your support of 
GAO over the past several years. Based on your support, last 
year, we had a record number of financial benefits for the 
government. It was over $214 billion, which is $338 for every 
dollar you have given us. So we believe we are a sound 
investment, and continue to improve.
    In fact, in 7 of the last 8 years, we have produced over a 
hundred to one return on our investment. In addition to the 
financial benefits that we bring to government, there are a 
wide range of other benefits. In the last year alone, there was 
over 1,400. These are things like leading Congress to create a 
program to help deal with lead in drinking water in our 
schools; and to help promote better suicide prevention efforts 
at the Veterans Administration; to help ensure that they have 
better credentialing so they don't have disqualified doctors 
providing healthcare to our veterans; leading Congress to 
create a requirement for DOE to work with the private sector 
and others to create a national strategy for protecting our 
electricity grid; leading better tools and techniques for 
asylum officers to review applications to screen for fraud. I 
could go on and on across the Federal Government's activities.
    Now, our request for next fiscal year would be, enough 
money to fund GAO at 3,250 full-time-equivalent positions, 
which I believe--and I have been consistent in this over many 
years that I have been Controller General--is the proper size 
for the GAO. This would be an increase of only 50 staff years 
from the level that we have this year.
    Most of that money would go to increasing our work in our 
new Science, Technology Assessments, and Analytics Team. This 
is a team we talked about last year that we created in response 
to requests from Congress for more scientific and technical 
assistance. We have worked with your support to, in effect, by 
the end of this year, have doubled the size of that team.
    So we are able to deal with a wide range of issues across 
the Congress, including, as Congressman Newhouse knows, the 
hazardous waste materials at the Hanford Nuclear Site, our 
whole efforts to refurbish the nuclear arsenal that we have, a 
lot of efforts at DOD in artificial intelligence, quantum 
computing, and sophisticated weapon systems and things.
    It is a wide range of issues, right now, we are doing 
infectious disease modeling issues, and so it is healthcare and 
everything across the board.
    Part of the money would also go to increase the number of 
attorneys we have in our fiscal law, appropriations law group. 
We are being inundated with an unprecedented number of requests 
for legal decisions and interpretations, technical assistance 
and others, dealing with the Impoundment Act, the shutdown last 
year for 35 days and the exceptions that some people took to 
try to say it was an exception under the law. Some we have 
agreed with; many we haven't agreed with. So we are doing 
decisions there, and we get requests from fiscal officers in 
the executive branch agencies, in addition to the Congress, on 
appropriation law questions. So we need more attorneys.
    We have increased the number of attorneys that we have had. 
We are making some internal distribution of our resources, but 
we could use some additional attorneys to be timely in 
responding to the Congress. The request would also allow us to 
continue to have the information technology resources to 
upgrade our decades-old system. The document management system 
we have for keeping the documents for our audits is over 30 
years old.
    The GAO building is 69 years old. It was built the same 
year I was born. But, fortunately for us, there are more parts 
for the GAO building than there are for me. But we need money 
to be able to refurbish it. The outside of the building is 
deteriorating. It is limestone. I mean, I could go on if you 
have more questions about that, but it would allow us to be 
more energy efficient and other matters as well.
    So I very much appreciate, as always, your careful 
consideration of our request. I thank you again for your 
support, and I would be happy to answer any of your questions.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. I appreciate it. So let me jump right in. You 
mentioned the impoundment issues. We have got a significant 
legislative/executive, balance of power issue. And I was 
troubled to learn that the OMB had declared that GAO findings 
on the issues such as the antideficiencies in impoundment 
cannot bind the executive branch, and that goes against a long 
historical record of executive branch action when either party 
is in power. So can you share with us the steps you are taking 
to push back on this misguided OMB directive?
    Mr. Dodaro. Yes. And our general counsel, Tom Armstrong, 
who is here with me today, sent out a memo to all the executive 
departments and agencies saying basically we disagreed with 
OMB's view on that matter. While they aren't minding by law, 
they have been by practice. Same as our bid protest decisions 
on contracting matters. But we said: Look, if you are not going 
to report them as antideficiency violations, or report them to 
the Congress, we will.
    So we have tried to carry out our responsibilities for the 
Congress. Under the Impoundment Control Act, we are the 
Congressmen's policemen to make sure that the administration 
follows the Budget Impoundment Act, including going to court to 
release funds that may not be released. And we are prepared to 
do that if necessary.
    So we have pushed back quite a bit. We will stand firm in 
our obligation to the Congress to ensure that its prerogatives 
as the power of the purse are protected. And we will continue 
to report to the Congress all matters that we find are not in 
compliance with appropriation law and other matters.
    Now, one of the things that the committee could do to help 
us is we are having trouble getting timely response from the 
executive branch when we ask for their legal analysis as to why 
they think what they did was consistent with the law.
    Now, last year, as a result of problems we had with the 
Interior Department, Congress put a provision in the 
appropriation law that said that Interior has to respond to our 
request within 45 days. But that is only the Interior 
Department. We are having problems with other agencies across 
the government. So I would ask that you consider that.
    We are working with the Budget and Appropriation Committees 
and others. I think there are things that Congress could do to 
strengthen our role in this process and thereby strengthen the 
Congress' enforcement powers to make sure that all decisions 
made by the Congress are faithfully executed by the executive 
branch. And we are happy to take on additional 
responsibilities----
    Mr. Ryan. What are those other recommendations?
    Mr. Dodaro. Well, some of the recommendations would be that 
they would have to--let me ask my general counsel to come up if 
I might.
    Mr. Armstrong. Good afternoon. I am Tom Armstrong, general 
counsel. We have a number of ideas in mind for strengthening 
your role in exercising your power of the purse, as well as our 
role in supporting your exercise of the power of the purse. 
Gene mentioned--the Comptroller General mentioned one, and that 
is requiring agencies to be more responsive to us.
    There are some other things that we would propose, 
including adding some discipline for violations of other 
appropriations provisions, not just the Antideficiency Act. The 
Antideficiency Act provides for discipline for Federal 
employees who violate that act, but we also have the purpose 
statute. We have the bona fide needs statute. We have other 
statutes for which there is no discipline, and that is 
something else that we would propose that you legislate so that 
it gets attention and to make sure that our decisions do get 
attention in the executive branch.
    We were troubled, too, by what OMB did last summer and last 
fall and the memo that the OMB general counsel sent to 
executive general counsel saying that they can disregard our 
decisions. And we are working, we are fighting back at that in 
order to advance your prerogatives of the purse. That is what 
our role is in this area of law.
    Mr. Dodaro. The other thing that I have suggested--and I 
have suggested this in the past, but it hasn't been able to be 
legislated--our authorities basically allow us access to 
records at the departments and agencies, not to individual 
agency officials to compel testimony. And I would like to be 
able, in rare circumstances--and the fiscal law area would be a 
very important part of this--is to be able to compel testimony 
from executive branch officials and even under oath, if 
necessary, in order to really find out exactly what was done 
and why.
    The records will tell us in a lot of cases what was done 
and the timing, but it won't necessarily give us the full 
picture of what the intent was over the action. So there is a 
number of things. We have a list that we have provided to the 
Budget and Appropriation Committees. We are happy to provide it 
to this committee as well.
    Mr. Ryan. Yeah, I would love to see it.
    Mr. Dodaro. Yeah, we will send it to you.
    Mr. Ryan. I have been here 18 years, and I have watched, 
obviously this goes back well before I ever got to Congress, 
but the executive branch continuing to assume power on a 
variety of different issues, not just war and peace. And what 
we have seen over the last year or two, I think continues down 
this road. So I am very, very interested in having you connect 
with our team and talking through with the staff as to what the 
best next steps are for us to reclaim some of our congressional 
power. And the people govern this country and the Congress 
governs, and a lot of this stuff starts in the House of 
Representatives, especially when it comes to spending. So I am 
going to spare you my 20-minute diatribe on this issue, but I 
think I have communicated how I feel about it. And we want to 
make sure that we have some substance behind what we try to do 
this year.
    Mr. Dodaro. I share your concern. And I will save you my 
20-minute thought.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you. And I know they have called 
votes. So we don't have a lot of time. I am curious about that 
line of questioning, however, because you mentioned that there 
is discipline built into the Antideficiency Act, but you are 
telling me the Antideficiency Act is being disregarded. So I 
don't know if adding discipline----
    Mr. Dodaro. Yes. There are. I am sorry.
    Ms. Herrera Beutler. No, no.
    Mr. Dodaro. Yeah, good. No, there are civil and criminal 
penalties actually for the Antideficiency Act violations. 
Although nobody has ever been----
    Ms. Herrera Beutler. I was going to say----
    Mr. Dodaro [continuing]. Prosecuted. But what has changed 
is that typically OMB and the agencies would respect our 
decisions and honor our decisions. Under the current 
administration, that has changed. They are telling the agencies 
that they don't have to follow our direction unless the 
agencies and OMB agree with it. Now, we disagree with that 
based on past practice and our----
    Ms. Herrera Beutler. So essentially there is not going to 
be a resolve if--I mean, in my mind, this is going to get--it 
is going to get escalated. Someone is going to have to enforce 
at some point.
    Mr. Dodaro. Right.
    Ms. Herrera Beutler. I mean, we essentially have the 
authority to enforce subpoenas and----
    Mr. Dodaro. Right.
    Ms. Herrera Beutler [continuing]. We haven't necessarily 
done that, so I don't know if giving you that at this point----
    Mr. Dodaro. Yeah.
    Ms. Herrera Beutler [continuing]. Is going to get us there, 
right?
    Mr. Dodaro. Well, it would give----
    Ms. Herrera Beutler. In theory, but in practice, in what we 
are seeing----
    Mr. Dodaro [continuing]. In theory, it would.
    Ms. Herrera Beutler. Yeah.
    Mr. Dodaro. In practice, the real way that Congress can 
enforce this in the most effective way is through the 
appropriation decisions. I mean, you can--if there is an 
Antideficiency violation, you can deal with it in the 
subsequent year appropriation bill by forcing them to correct 
the decision. I mean, Congress has the ultimate authority.
    Ms. Herrera Beutler. I mean, and, generally, I favor us 
keeping that authority, right?
    Mr. Dodaro. Oh, yeah. We are not saying give it to us, but 
you still have it.
    Ms. Herrera Beutler. I just think it is, it is more 
effectively used if we are----
    Mr. Dodaro. Right.
    Ms. Herrera Beutler. I agree. Okay. So I know we are 
voting.
    I did want to ask about, a quick question on the 314 to 1 
is what you were talking about, your dollars saved.
    Mr. Dodaro. Yeah.
    Ms. Herrera Beutler. Are those figures based on actual 
savings or savings that could be achieved if we followed every 
one of the GAO's recommendations?
    Mr. Dodaro. No. They are based upon actual----
    Ms. Herrera Beutler. Actual dollars, awesome.
    Mr. Dodaro [continuing]. Actual savings, yes.
    Ms. Herrera Beutler. Okay. I yield back because I know we 
have one more.
    Mr. Ryan. Mr. Case.
    Mr. Case. Thank you. How are you doing?
    Mr. Dodaro. Fine. How are you?
    Mr. Case. Good. Thank you. Last year, we had a discussion 
about your Science, Technology Assessment, and Analytics 
efforts, and you emphasized the importance of that, and as I 
recall, you had some concerns over whether you had the 
capability to actually attract a good solid team, given 
competition in the private sector. I just wanted a quick gut 
check on that. How is it going?
    Mr. Dodaro. It is going very well. This year we have 
hired--or last year we hired 26 people to that group. We are 
planning to hire another 20 this year. We have added people on 
life sciences, aerospace engineers, chemists, biologists, a 
whole wide range of skills. We hired our first chief data 
scientists from the private sector. So we are doing real well.
    Mr. Case. So you are able to compete?
    Mr. Dodaro. Yes, yes.
    Mr. Case. Okay.
    Mr. Dodaro. I mean, we have a great mission, and we have 
access to data that nobody else has, and so it is a draw for 
people that want to provide public service. We create a good 
work-life balance at GAO. But the problems we are working on 
are just incredibly attractive to people.
    Mr. Case. Okay. Thank you. That is good news. And then the 
other thing that we talked about last year was, I think you 
made the comment that your work with the intelligence community 
didn't quite run as smoothly as your oversight work with some 
of the other parts of the government. You noted that when it 
came to Intelligence Committee requests, or generated requests, 
I should say, the community was responsive, but not for non-
Intelligence Committee requests. And is that still the case, 
and if so, what should we be doing to have greater responsivity 
to your needs for us to oversee the intelligence community?
    Mr. Ryan. And if you--excuse me--if you could give a brief 
answer if you could. And I am sorry, Congressman Case, because 
we have a vote coming up, and Mr. Newhouse has one quick 
question.
    Mr. Dodaro. Sure, yeah.
    Mr. Ryan. So feel free to answer Congressman Case's 
question.
    Mr. Dodaro. Sure, sure. Basically, it is the same status as 
it was last year. Congress could work with the Intelligence 
Committees to provide better direction to the intelligence 
agencies to cooperate with us.
    Mr. Case. Okay. Well, we would welcome the specifics about 
how to do that--I would at least because I think that that----
    Mr. Dodaro. Sure.
    Mr. Case [continuing]. Community does need the same 
oversight as everybody else.
    Mr. Dodaro. I will provide it to you.
    Mr. Ryan. And we will submit a question for the record----
    Mr. Dodaro. Sure.
    Mr. Ryan [continuing]. And you can have that.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Ryan [continuing]. Drill here, buddy. Make it quick.
    Mr. Newhouse. Do it quick.
    Mr. Ryan. No time-outs left.
    Mr. Newhouse. I can do it in one breath.
    Mr. Ryan. All right.
    Mr. Newhouse. You talked about the Science, Technology 
Assessment, Analytics, and that was the essence of what I was 
curious about. I am on the Modernization Committee as well, and 
we have talked about resurrecting the--I think it is called the 
Office of Technology Assessment--or it used to be called that. 
So what do we need to know about what you are doing? What 
should we be aware of if we go forward with that effort?
    Mr. Dodaro. Right, right. Well, basically we are performing 
all the same functions that that office did.
    Mr. Newhouse. So it would be duplication?
    Mr. Dodaro. It could be. However, I would add this one 
caveat. I think the needs are so great for science, technology 
assistance in the Congress. The position I have taken is that 
Congress could--needs more additional resources in this area. 
Now, the National Academy of Public Administration did a study 
based upon Congress' request and recommended that, rather than 
that office be recreated, GAO be expanded but there be a small 
office created in the Congress to help Congress absorb the 
science and technology information that was coming from GAO, 
the National Academies, and others. And so I think that that 
would be a good idea as well. But we are building the capacity 
to give as much support to the Congress as we can with the 
resources that you all provide us. And that is why last year I 
provided a plan that came up in March that said we need 140 
people in the Science Technology Assessment Group. By the end 
of this year, we will be at a hundred. All right? And so we 
need the additional 40, and that is, therefore, our request for 
next year.
    I appreciate the situation that you are in every year. I 
audit the Federal Government's financial statements. I know 
what kind of position we are in and the debt and deficit 
issues, and I have longer than 20 minutes on that one. But we 
need your help. We provide a good return on our investment, but 
if Congress is going to need--science and tech is so ubiquitous 
now to almost everything that is being done. You need to help 
us help you better.
    Mr. Ryan. Yeah.
    Mr. Dodaro. And so I would ask you to seriously consider 
our request.
    Mr. Ryan. Well, we appreciate you, appreciate your team. I 
know a lot of them aren't here, but please give our regards to 
everybody who does all of the great work, and we rely on you 
tremendously. And especially in the last year, we wish we could 
give you a little hazard pay, but I don't know if we are going 
to be able to do that. But again we are in tight budget as you 
said, we are going to do the best we can for you, but whatever 
we give you is not nearly--does not signal nearly the level of 
appreciation that we have for all the work that you do. So we 
are very, very thankful, and good luck.
    Mr. Dodaro. Thank you very much, Mr. Chairman.
    Mr. Ryan. All right. This hearing is adjourned.

                                       Thursday, February 27, 2020.

                          LIBRARY OF CONGRESS

                               WITNESSES

DR. CARLA HAYDEN, LIBRARIAN OF CONGRESS, LIBRARY OF CONGRESS
MARK SWEENEY, PRINCIPAL DEPUTY LIBRARIAN, LIBRARY OF CONGRESS
MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
MARIA STRONG, ACTING DIRECTOR U.S. REGISTER OF COPYRIGHTS, U.S. 
    COPYRIGHT OFFICE
    Mr. Ryan. We are going to call this hearing to order, 
especially since we have hit the big time here in the full 
committee hearing room. And you should see all the technology 
back here. So if I am distracted, it is because there are bells 
and whistles here.
    We want to welcome Dr. Carla Hayden, the Librarian of 
Congress, to talk about her fiscal year 2021 budget request. 
After that session, we will turn to the budget request for the 
Government Accountability Office with Comptroller General Gene 
Dodaro.
    Dr. Hayden, it is always a treat for Members to learn more 
about the Library of Congress, its mission, and its impact, not 
just here in Washington, D.C., but in their districts.
    Your 2021 budget request is about twice the size of the 
increase Congress was able to provide the Library last year, so 
I have to register a note of caution about your request. The 
domestic discretionary caps are basically frozen this year 
after the increases of last year. We will do our best, since 
all of our Members are big fans of the Library, but it is going 
to be a tough year.
    I want to yield to Representative Herrera Beutler for any 
remarks she may wish to make.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And welcome, Dr. Hayden and Principal Deputy Librarian Mark 
Sweeney. It is a pleasure to have you.
    I was thrilled to have Dr. Hayden come out to my district 
this last year, the Camas Public Library. She was a star--I 
was, like, the forgotten--everywhere she goes. And it is true 
and well earned. We had a fun story hour with kids and Q&A with 
local librarians that I don't think have ever wanted to meet 
me. But they were there en masse to meet Dr. Hayden.
    So thank you. It was a treat to have you fly all the way 
across the country to help share Americans' Library with folks 
who may not have it in their backyard.
    In reviewing your 2021 budget request, I see the Library is 
quite busy. And as a result, there are a lot of different 
requests and competing priorities, which is a good thing. It 
means there is stuff happening.
    From the data center transformation, to the Congressional 
Research Service's NextGen Integrated Research and Information 
System--that is a mouthful--to the modernization of the 
Copyright Office, to important enhancements at the National 
Library Service, the Library has a lot of exciting 
transformations happening. And under Dr. Hayden's leadership 
organizational changes have allowed the Library to tackle so 
many things at once.
    And I will also note that strong support for the 
appropriators doesn't really hurt either.
    As we know, the Library is also embarking on a public-
private partnership to transform the experience of visitors who 
come to the Thomas Jefferson Building here in D.C.
    And we learned from The Washington Post a couple of weeks 
ago that the Library is to receive the $10 million private 
donation to help fund this initiative, which is exciting.
    Congress has already appropriated $20 million for this $60 
million project, and it is exciting that the funding for half 
of the renovation has been secured.
    I think there is an opportunity to transform how people 
interact with the Library, and I look forward to being a 
partner on this project and reviewing the plan as it evolves.
    Dr. Hayden, I look forward to your testimony.
    Mr. Ryan. Dr. Hayden, if you want to potentially introduce 
anybody who is here with you, you are more than welcome to do 
that as well. I look forward to your comments.
    Dr. Hayden. Principal Deputy Librarian Mr. Mark Sweeney is 
here, as also staff members, senior staff members from the 
various units, CRS, the National Library Services for the Blind 
and Print Disabled, as well as the Copyright Office are here. 
And Mr. Bud Barton, our head CIO, is here as well. So there 
might be items that they could add some information to as we 
move along.
    So thank you very much, Mr. Chairman, Ranking Member 
Herrera Beutler, and Members of the subcommittee. Thank you for 
the opportunity to provide testimony in support of the 
Library's fiscal 2021 budget.
    Now in my fourth year as Librarian of Congress, I am 
excited to see the progress we have made in sharing more of the 
Library's resources and collections and our staff's expertise 
with their commitment to public service. And I would like to 
express my sincere gratitude for your support in the 2020 
funding bill.
    Our top priority remains expanding user access, and public 
engagement with the Library's resources and services. And your 
significant fiscal 2020 support for the visitor experience over 
3 years is helping us transform the magnificent Jefferson 
Building, finished at the end of the 19th century, into a 
state-of-the-art destination for discovering, creating, and 
learning in the 21st century.
    The planning and design process is underway for the 
Treasurers Gallery, the Orientation Gallery, and the Youth 
Center/Learning Center. The redesigned spaces will open in 
phases beginning in late calendar 2022. We want our visitors to 
be better connected with the Library of Congress and learn 
about our country and our cultural heritage after seeing and 
learning about our collections, such as Thomas Jefferson's 
library, the Rosa Parks papers, the map Lewis and Clark used on 
their expedition to the American West. We want them to see it 
firsthand.
    I greatly appreciate the funding you have given us to meet 
additional high priority needs, such as enhanced functionality 
of the congress.gov system, delivering talking, and Braille 
books and magazines via the internet, optimizing the capacity 
of our Financial Services Directorate, supporting phase two of 
the data center transformation and network modernization 
initiative, and much more.
    I also want to thank you for your continued support for the 
collection storage modules at Fort Meade as part of the 
Architect of the Capitol's budget. Your strong support for 
modernization allows us to move forward on next generation 
systems--for example, CRS' Integrated Research and Information 
System, IRIS--a new electronic recordation system for the 
Copyright Office, and that data center transformation project 
scheduled to be completed this fiscal year.
    The Library's funding request for 2021 continues 
modernization and is strategically sequenced, systematic, in a 
very deliberate way. The fiscal 2021 appropriations request 
aligns with the strategic goals set forth in the fiscal 2019 to 
2023 Strategic Plan. Those goals: expand access, enhance 
services, optimize resources, and measure impact.
    The Library of Congress fiscal 2021 budget request is for 
approximately $830 million, which represents a 7 percent 
increase over the Library's fiscal 2020 enacted appropriation. 
This request includes $38 million in mandatory pay and price 
level increases. The balance of the increase represents 
critical program investments necessary to fulfill the Library's 
role and to move forward on the commitment to become more user 
centered.
    The budget seeks to expand service to Congress by enhancing 
the depth and the breadth of CRS' research capacity on current 
and emerging legislative issues related to science and 
technology.
    In the critical area of cybersecurity, we are requesting 
funding for security enhancements to protect congressional and 
other digital high value assets, including sensitive 
information from CRS, the Law Library, and the U.S. Copyright 
Office.
    Our responsibility to be good stewards of the world's 
largest library is reflected in our storage and preservation 
request. We seek funding to replace the third of four quadrants 
of compact shelving in the Law Library. The shelving houses a 
significant portion of what is acknowledged as the world's 
largest and most comprehensive collection of international, 
foreign, national, and comparative legal resources.
    The request to rebalance the Library's preservation program 
requires no additional funding, and we believe it is the best 
and most cost-effective way to move forward so that our 
collections will be accessible for generations to come.
    We ask your support for our request to repurpose the 
funding we have been spending on mass methods since the 1990s 
to rebalance the preservation needs of our collection. This 
includes conservation of the Library's most significant 
artifacts, reformatting of fragile and irreplaceable items, and 
the content management and information technology 
infrastructure necessary to preserve the digital collections.
    In closing, the 2021 congressional budget justification 
continues to help modernization across the Library. We thank 
you for your support, and I would be pleased to take any 
questions.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Thank you, Dr. Hayden. It is always a joy to get 
the update from the Library of Congress and the Librarian of 
Congress.
    We are going to start with questions, and we will start 
with Ms. Herrera Beutler.
    Ms. Herrera Beutler. Yes. Thank you, Mr. Chairman, and I 
have a bunch of questions here.
    I am going to start with one about the National Library 
Service for the Blind and Print Disabled. A few of my questions 
are a little bit around work-life balance and access. I want to 
start here.
    So talks of finding the National Library Service a new 
office have been ongoing for quite some time. Several options 
have been thrown around, such as the page dorm, the Government 
Publishing Office, and space within the Library campus itself. 
I understand your current Taylor Street location for which you 
have been located for longer than I have been around has some 
security and building condition challenges.
    So what is the status of finding a new location for the 
National Library Service? And as we continue to put money into 
that lease, what are some challenges you are facing with the 
costs associated with that lease?
    Dr. Hayden. You are definitely correct in terms of the 
length of the rental facility on Taylor Street. It is 
approximately 50 years of rental there. And we have been 
involved with the Architect of the Capitol's assessment over 
the past few years of the three potential locations. One, the 
old House page dorm that is at 501 First Street; the Government 
Publishing Office, GPO; and also looking at the possibility of 
incorporating NLS into existing Library facilities. And the AOC 
identified the 501 First Street as the preferred location.
    And basically the main focus of making sure that the 
Service is connected physically and the synergy of having NLS 
part of the Library's entire physical and closer to what we are 
doing has been the motivating factor of making sure that they 
have the most up-to-date facility and are prepared to offer 
even more services to more people in the future. And so we are 
awaiting congressional guidance, AOC specifically.
    And there is a sense of urgency because the current lease 
ends in January of 2026. And in order to make plans to either 
be prepared to move to a new location, all of these things, it 
is getting critical that we have some indication of where we 
are going.
    Ms. Herrera Beutler. From AOC?
    Dr. Hayden. Yes. And AOC is waiting on congressional 
guidance.
    Ms. Herrera Beutler. Okay. Switching gears a little bit, 
and you may or may not be able to speak to this, but we had a 
couple of weeks ago, Office of Congressional Workplace Rights, 
Susan Grundmann. And one of the things we have tasked her with 
was really changing, helping us evaluate and address issues of 
harassment or a hostile workplace. She has had a big task.
    One of the things that she mentioned was they added the 
Library employees to their caseload. So it wasn't just 
congressional legislative employees, they added the Library. 
And with that came a significant bump in cases and types of 
cases. And we weren't able to get a lot of clarity about that. 
I wondered if that is something you are familiar with, 
harassment cases.
    Now, this is something as I am sitting here thinking I 
wanted to ask you about. If that is something that the Library 
has any responsibility in as that has been--obviously it is 
under her office now. You are getting ready to answer because I 
think this might be----
    Dr. Hayden. Well, we are both getting ready to answer and 
we----
    Ms. Herrera Beutler. Okay. I would like you to speak to it 
a little bit just for clarity purposes, for us and for me, 
understanding what--if there is just a big backlog or if there 
is a culture issue, which I can't believe, but that is why I 
have got to ask.
    Dr. Hayden. And Mark Sweeney, we will both tag team on this 
one, because of course workplace environment is a high 
priority. We value the staff. We have one of the most dedicated 
work forces I have had the honor to work with.
    Ms. Herrera Beutler. Good people.
    Dr. Hayden. And when you look at the number of incidents 
that might have been transferred or included, you are going 
from 10 to--5 to 10. And the Library has a very robust program. 
And this is a welcome addition that gives staff another vehicle 
as well.
    So in terms of going from 5 to 10, that seems to double. 
But when you look at the workforce of roughly about 3,400 and 
what the disposition of the cases are, we are working closely 
to make sure that we--that employees--the main thing is that 
employees have as many options and opportunities to express 
anything.
    And, Mark, if you want to add anything.
    Mr. Sweeney. The Library does have a duplicate or a 
parallel program. We have an EEO diversity program as well. And 
you can pursue both tracks, both internally or through OCWR.
    Ms. Herrera Beutler. Concurrently, or you have to choose 
one?
    Mr. Sweeney. You can concurrently be in them. And, 
obviously, we were carrying that workload, and so you can carry 
that over on the OCWR side.
    In terms of the total number of cases that we have, we 
haven't experienced an increase in what we have coming through 
our EEODP program.
    Ms. Herrera Beutler. That is what I wanted to know, because 
she was talking about an increase in hers, but I think it is 
just opening the door to allow the concurrent.
    Dr. Hayden. And that is very good, to open a door for more 
options for employees and staff members to have.
    Ms. Herrera Beutler. And I yield back because I am over 
time. Thank you, Mr. Chairman.
    Mr. Ryan. If you have another question, you can follow up.
    Ms. Herrera Beutler. Well, just along that vein, because 
she gave us a lot of numbers, and you are thinking quick.
    As a mom in this place, I want to make sure that women and 
moms, pregnant moms, have reasonable accommodations. And this 
is a newer--it is a great thing that we are now having to 
grapple with, how do we make sure that we are being equitable, 
and I have introduced legislation on this. And I just wanted to 
ask about the Library in this sense and what types.
    I will say just empirically we had our staff meeting over 
there, and one of your folks was like: Oh, you need a place to 
pump? Well, I will make this happen.
    But I just wanted to see what types of considerations you 
are taking into account for your 3,000-plus employees.
    Dr. Hayden. I have been very concerned from the beginning 
of my tenure because I have always felt that the workplace 
should be a place that is supportive of whoever is there, and 
we have a responsibility to that, and to look at life 
conditions, whether it is taking care of an elder parent or 
needing some flexibility with childcare and things like that.
    And so I did ask about lactation centers, and the Library 
has up-to-date equipment and also has done even more to make 
sure that all of the campus buildings have very attractive and 
secure and safe facilities, as well as working with managers 
and having training on how to work with staff members and 
encourage them to talk about life issues and what things are 
happening during regular performance evaluation and work plan, 
not to have an evaluation at the end and say, ``You missed a 
lot of time and I am going to do this,'' but maybe say, ``I am 
noticing that you are coming in a little later.''
    So really doing more with training of managers to be able 
to help employees. So we are very conscious of that. And I must 
say Take Your Child to Work Day is very lively at the Library.
    Ms. Herrera Beutler. I bet. Thank you.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman, Madam Ranking 
Member.
    Welcome, Dr. Hayden. Always a pleasure to have you here. I 
can't believe it has been four years, but time goes by quickly, 
doesn't it?
    I would be remiss if I didn't start by thanking you for 
coming to my district last year.
    Dr. Hayden. Yes.
    Mr. Newhouse. People are still talking about your visit. It 
was awesome. And thank you very much for making the Library of 
Congress come alive for people even out in the hinterland. We 
appreciate that very much. It was a special, special time. And 
for bringing your mother with you.
    Dr. Hayden. She enjoys learning.
    Mr. Ryan. Dr. Hayden, I think they are running a coup to 
get the Library to go to Washington State. I know what they are 
doing.
    Mr. Newhouse. Is it working?
    So one of the things that I have embraced in my direct is 
the Veterans History Project. We have been fortunate enough to 
interview dozens of veterans, getting their testimonials, to 
preserve them. In fact, last week at a senior symposium we 
offered that again to veterans in attendance. And so I just 
wanted you to talk a little bit about that project and how you, 
through this budget, intend to work with that and make it 
available to more people.
    Dr. Hayden. I am very pleased that you mentioned the 
Veterans History Project and the opportunity to actually have 
staff members from the Library visit districts and provide 
training, as well as the online resources for veterans history, 
that people can go online wherever they are.
    We are working on the possibility of an actual app. We were 
very fortunate to have a pilot with a donated application that 
gave us a lot of information about what we might need to do as 
we move forward with that. And as you probably know, we have 
expanded to the Gold Star families as well.
    Mr. Newhouse. Yes. Right.
    Dr. Hayden. And that is a very important part.
    So the Veterans History Project is part of our American 
Folk Life Center that is embedded into the Library Services 
Directorate and a very important part of that. So we are making 
sure that we increase awareness of the program. And, in fact, 
it will be incorporated into the visitor experience in the 
Orientation Center.
    The new Orientation Center will not only let people know 
about the history of the Library and what the collections are, 
but also the services. So within that Orientation Center will 
be a--I am doing this because it is going to be a panel and a 
touch screen that will let people know about veterans history. 
And hopefully the technology will allow them to download 
things, the training kit, and find out more information.
    So part of the audio-visual aspect of the Orientation 
Center is to help us get those types of enhancements so 
visitors can find out about it and look up their own, maybe, 
familial association. And that is very important.
    And we found, too, that people want to find out other 
people that they served with and look back and say, ``My dad 
served this,'' or something like that.
    So it would have to be a pretty robust mechanism, but that 
is one that will be included in the visitor experience.
    Mr. Newhouse. Good.
    Dr. Hayden. Because we see that so many people, it touches 
so many people in so many ways. I just heard about the Merchant 
Marines the other day. Are we making sure that we are including 
Merchant Marines in the veterans history.
    Mr. Newhouse. Good. Awesome. So glad you are doing all 
that. That is really important, really important.
    I wanted to ask you, too, about in your budget you talk 
about the phasing out of the mass deacidification project.
    Dr. Hayden. One of the preservation methods that the 
Library has used.
    Mr. Newhouse. Yeah. I am all for preservation, don't get me 
wrong, I really am, but I am just trying to make sure we have 
the information to make the right decision.
    In your cost estimates, you talk about--there is a fancy 
word for cold storage--that projects the cost of that out for 
40 years. The deacidification, I believe, can allow documents 
to be preserved for 300-plus years. So I just want to make sure 
we are comparing----
    Dr. Hayden. Right.
    Mr. Newhouse [continuing]. Apples to apples here and the 
cost assessments of both options to make sure that we are 
making the right choices.
    Dr. Hayden. And you are definitely right about making sure 
that we are looking long term. And with the responsibility that 
the Library of Congress has as the Nation's Library as well as 
the cultural repository for this Nation and our collecting, 
that is a major concern, and we have to look to the future as 
we preserve the past.
    And so that is why I are really pleased that Mark Sweeney 
is able to provide even more insight, because when this aspect 
of preservation started--and Mark has been with the Library 
over 30 years in various capacities, and he was the head of the 
Preservation and Conservation Department. So I will let Mark 
give you a little more sense of the history of preservation at 
the Library and then----
    Mr. Newhouse. I mainly want to know about cost comparison 
and justification for this decision of going to cold storage 
versus the acidification.
    Mr. Sweeney. I think one of the most important things to 
remember about the preservation program is that we need to 
address a wide variety of materials in different formats, 
whether it is physical or digital, as a collection item.
    Deacidification focuses on paper material that is acidic in 
nature that has not already become too embrittled to go through 
this chemical process.
    We have been at this--following this program for 20 years. 
We have invested $100 million in it.
    Mr. Newhouse. We are 90 percent done, right?
    Mr. Sweeney. We are 90 percent done of the highest priority 
items for treatment, 70 percent of the original estimate of 
what we would do.
    Of course, this whole chemical approach emerged in the late 
1990s, and it was focused on the challenges of collections that 
existed at that time.
    Twenty years later, we have an explosion of digital content 
that we need to collect. It is probably the most at-risk 
content that we have. So in this rebalancing, what we are 
looking to do is to shift our resources in a neutral way within 
our budget to focus more on the emerging or the current 
challenges that we have.
    Cold storage is what we would call optimized environmental 
storage. It provides a broader benefit for our collections 
because it is not exclusive to acidic books. It can be used for 
a wide variety of materials in our collection to extend their 
useful life.
    We have done extensive studies. We have looked at this, did 
a market analysis of this several years ago. We have had an IG 
report on this as well. And then we followed up with an 
economic cost study with consultants on the merits one way or 
another with costs looking at these two alternatives.
    I am happy to provide additional detail on that. We have 
got quite a bit of research that we have done on it.
    Mr. Newhouse. Okay. I think that helps me understand 
better. A lot of the materials don't lend themselves to the 
deacidification.
    Mr. Sweeney. Correct.
    Mr. Newhouse. My question, and I think you have helped me 
with that, was if the costs for the cold storage are just 
looked at for 40 years. Certainly it is going to cost money to 
keep those freezers on for the next 40 years and the next 40 
years.
    Mr. Sweeney. Right.
    Mr. Newhouse. And on to 300 to 1,000 years as it would have 
compared to the deacidification.
    So that is where my train of thought was. I want to make 
sure that all of that was being considered.
    Mr. Sweeney. Yes.
    Mr. Newhouse. Interestingly, I learned a long time ago, I 
think the best way to preserve any written material is etched 
in stone. That could take a while to do all that.
    But anyway, thank you very much. Again, thank you for being 
here. It is always a pleasure to have you with us.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ryan. Thank you, Mr. Newhouse.
    So I know you touched upon the visitors experience, so this 
is kind of our big project that, when I talk to Members, this 
is what captures everyone's imagination. So we are super 
excited to try to accomplish this with you.
    If you can give us a little bit of a sense, we know the 
plan is to add $20 million in private funding to the total of 
$40 million in Federal funds, and the need for funding is 
probably fairly high in the early years, which we would assume 
is the case. You are signing contracts, construction, displays, 
and all of that.
    So combining both the Federal and the private funding--and 
we want to thank Mr. Rubenstein for his amazing contribution to 
the Library--how much do you estimate you will need to obligate 
in fiscal years 2021 and 2022 to continue the project going 
uninterrupted?
    Dr. Hayden. And I want to echo that appreciation for Mr. 
Rubenstein's $10 million gift of the $20 million on the 
private, really, commitment is significant. And he has also 
acquired a commitment from the Annenberg Foundation for an 
additional $1 million, and he has been very active in terms of 
development plan on that side.
    Mr. Ryan. Fantastic. That is great.
    Dr. Hayden. So we thank him for that.
    Mr. Ryan. That is real money even around here, you know.
    Dr. Hayden. They will be on a critical path schedule with 
outside vendors in the next few weeks. And in terms of the 
total committing--and if you will excuse me for putting on my 
glasses at this point because it does get a little more 
technical with the actual----
    Mr. Ryan. Without objection.
    Dr. Hayden. Thank you. Thank you very much.
    Just to recap, the $10 million that was appropriated in 
2018, $2 million was for the master plan that was approved, and 
then the remaining $8 million was released upon that. And then 
the $10 million appropriated in fiscal 2020 allowed us to work 
with the AOC on initial design work and specifically for the 
Treasures Gallery. The additional funding in this request will 
allow us to move forward with the audio-visual components. I 
mentioned some of the things that we would like to do in terms 
of veterans history and other things as well.
    And so we will be having exhibit fabrication, speaking of 
new terms, but actually making things as well. So that is the 
exhibit fabrication $4 million to be obligated this fiscal 
year, as well as the AV and interactive productions. So the 
total to be obligated would be 9.55 for those specific things. 
The other parts are going along with AOC, those design costs as 
well.
    Mr. Ryan. The exhibit fabrication, tell me about that.
    Dr. Hayden. And speaking of a fancy word to use, it is 
construction, fabrication. You have design, you have 
blueprints, but when you actually are contracting out to have 
something made. And those are items, exhibit cases, then case 
work, that are made offsite, and you contract with an exhibit 
designer.
    I am looking around the room to try to see if there is an 
example. But basically exhibit cases and case work, and that is 
what the fabrication is. They are going to start.
    And the design that is going on now and had been designed 
from the sketches are now into really things that a carpenter 
or electrician or whoever is involved can actually start making 
what has been designed.
    Mr. Ryan. You mentioned David Rubenstein, and I know we 
have had several conversations around development----
    Dr. Hayden. Yes.
    Mr. Ryan [continuing]. In the development office, around 
increasing the private funding that may be available out there.
    You look at this project, and it is such a magnificent 
project. It is tied to the history of the country. It is tied 
literally to Thomas Jefferson and his library.
    So what is happening with any new efforts to go out and try 
to acquire more private money?
    Dr. Hayden. One of the most exciting things that happened 
was we hired Ms. Kathryn Milliken (ph). She was formerly at the 
Smithsonian Institution in their development department and 
specifically their regional fundraising. So she was responsible 
for going around the country and working with potential donors 
and making sure of that.
    She has been with us about seven months now and is working 
with Mr. Rubenstein. And we have supplemented some of the staff 
members that are available to be part of the fundraising 
effort. And we will be hiring a person that is specifically 
tasked with foundations and corporations and growing our 
private fundraising group, the James Madison Council. Mr. 
Rubenstein is the chair of that.
    And so we are going to our closest donors first. And he 
already has at their last meeting reiterated his commitment and 
what he expects that he might see from them. So it is very 
robust, and he is raring to go, basically. And the commitment 
and having the partnership with Congress has been something 
that has really helped.
    Mr. Ryan. Great.
    Dr. Hayden. They know that they are helping and in 
partnership with Congress.
    Mr. Ryan. Great. Well, we appreciate that. And if there is 
anything we can do from our end to facilitate and encourage, 
because obviously we want as much help as we can get as soon as 
we can get it.
    Dr. Hayden. Yes.
    Mr. Ryan. To keep the project up and running and let the 
American people see it and feel it and taste it.
    So with that, have we a special guest that arrived.
    Chairwoman?
    I yield to Chairwoman Lowey.
    The Chairmwoman. Well, thank you, Mr. Chair.
    And welcome.
    Dr. Hayden. Thank you.
    The Chairwoman. I will say you have many admirers on this 
panel, and I am sure every chair would be filled if we didn't 
have many other hearings. I know I have been juggling back and 
forth. But I wanted to be sure to be here and thank you and 
your excellent team for the important work you are doing.
    We really are privileged to have a place like the Library 
of Congress here in Washington, in the United States of 
America, and we all have an obligation to keep it as great as 
it is. And you certainly have ramped up development efforts in 
search of private funding for the visitor experience project, 
and the Library, with all its grandeur and history, seems a 
natural candidate to approach private funders for support.
    You estimate the project will require totals of $40 million 
in Federal funds, $20 million in private fundraising overall. 
If we are fortunate, maybe the private funds will match the 
public funds as well. So if we are combining Federal and 
private money, can you estimate--and if you already did, I 
apologize--what you will need in fiscal years 2021 and 2022?
    Dr. Hayden. The request for fiscal 2021 is for $10 million 
appropriated funding, and 2022 would be the remaining $10 
million for the entire $40 million of appropriated funding.
    And I just have to say that you are really on track with 
the potential of raising private funding to support ongoing 
exhibits, ongoing programming, and really establishing the 
Library of Congress as a philanthropic opportunity and 
investment for the private sector that is comparable to other 
cultural institutions in Washington, the Smithsonian and other 
institutions, that have very--and I use that term ``robust'' 
quite a bit because in fundraising that seems to be the term. 
But they have learning staffs and everything like that.
    But I think the Library of Congress definitely has a very 
wonderful opportunity to let people know that investing in the 
Library of Congress would be something that would help the 
Nation.
    The Chairwoman. And they would be privileged to assist, I 
am sure.
    Dr. Hayden. Yes.
    The Chairwoman. The Library, as I understand it, receives 
2.1 million items a year for its collections. I know you plan 
to digitize recent and future accusations, if appropriate, but 
you still have an enormous amount of material to store.
    How long will your long-term storage at Fort Meade handle 
the flow of materials coming in? And do you foresee a time when 
the Library will need to become more selective about materials 
it accepts because of limited storage capability?
    Dr. Hayden. The Library is very selective at this point and 
will continue to be. And the aspect of the Library of Congress 
that makes us really confident, that the history will never 
stop.
    And the types of items that the Library of Congress 
collects, personal manuscripts, collections that are different 
from even most academic libraries or university libraries or 
school and definitely public libraries, necessitates the fact 
that we will have storage needs and storage in all formats.
    And so Mark Sweeney, our Principal Deputy Librarian, who 
has been involved with this for quite a while, I would like him 
to add some insight for you.
    The Chairwoman. Well, I know there are others who are eager 
to ask you questions, so I just wanted to stop by and thank you 
very much for your leadership and all the important work that 
you and your distinguished group are doing.
    This is an incredible place for us as Members of Congress. 
And when I look at those ceilings, it is a magnificent place 
that should be shared. And any way that we can encourage more 
people to come and share the excellence of this place is 
important, and we look forward to continue to support your 
efforts. And I thank you for appearing before, and I apologize 
that I have to leave again.
    Thank you.
    Mr. Ryan. Thank you, Chairwoman Lowey.
    Do you have any anything to say for the good of the order 
here?
    Dr. Hayden. Mark.
    Mr. Ryan. Mark.
    Mr. Sweeney. I would just add that our current Fort Meade 
facility plan originated in 2000, and it covers 2000 to 2026, 
and it called for 13 storage modules. We are currently 
opening--we will be opening in the following year module 6, so 
we are behind in building that capacity. But we are in the 
process right now with AOC reviewing that plan and establishing 
the need from 2020 to 2050.
    Continued collection storage is essential to the Library of 
Congress. Collections will never stop. But they do change in 
form, physical, digital, motion pictures, books. It is a wide 
variety of material. And the Fort Meade modules is the most 
efficient way for us to manage those collections for the long 
term.
    Dr. Hayden. And I have to add that the Library of Congress 
as the Nation's Library will be collecting into the future when 
other libraries will not.
    Mr. Newhouse. Why is that?
    Dr. Hayden. When you think about different types of 
libraries, I mentioned university and college libraries and 
public libraries, you are pretty familiar with those, and 
school libraries, and actual school libraries, they possibly in 
the future will count on a national library to collect things 
that they will be able to rebalance their own portfolios and 
their immediate needs of the people who are coming in from 
their communities.
    So, for instance, the Library of Congress might collect the 
materials that J.K. Rowling--we wish, but that is the British 
Library--but that type of famous author, all of the 
manuscripts, all of the things, in even digital form in the 
future, because there will be writing, maybe not with things 
that are printed out, but they will be sending as they are 
starting to do now, Mr. Meacham, they will be creating things 
digitally.
    And so we will have to store things digitally. We will have 
to store the material that led to the actual book, and then the 
latest Harry Potter or whatever it is, a public library 
wouldn't collect that.
    So we collect unique items, Teddy Roosevelt's diaries, 
those types of things, and there will be other collections and 
other significant historic collections that will be coming to 
the Library. We just received--the opera singer, Jessye Norman, 
who passed recently, she is giving and had given her papers to 
the Library of Congress.
    So there will be different things in different formats that 
we will be working on and other libraries and even college 
libraries might not be collecting.
    Mr. Ryan. Well, we can't thank you enough. And to your 
team, who remain nameless sometimes, we know all the great work 
that they do.
    Dr. Hayden. Dedicated.
    Mr. Ryan. And it is not easy to be a government employee 
today. And we just want to say on behalf of the committee, 
thank you for all of your good work that goes unseen, but we 
know that it is your effort that makes this such a spectacular 
institution and one of the hallmarks of this country. So we 
want to thank you for all of the good work day in and day out, 
and we appreciate it.
    And, Dr. Hayden, obviously, your leadership has been 
tremendous. And I love seeing you. I love meeting with you. I 
love hearing about the Library and your passion that you bring 
to this. So we are going to do the best we can for you.
    Dr. Hayden. Well, thank you.
    Mr. Ryan. And, as we said, this is a really, really tough 
situation that I think all of us are put in with the budget 
caps and everything. But this is something that we think is 
very, very special. The projects that you spearhead are 
important. And to the extent we can help you, we are going to 
help you.
    But we just want to let you know right out of gate that it 
is a tough year for all the committees. But whatever we give is 
going to be all we can give, and it is not necessarily a sign 
of our passion, because if we could give you a heck of a lot 
more, we would. Which is why we are encouraging you with Mr. 
Rubenstein and others to try to let us know how we can help on 
that end as well.
    Dr. Hayden. Thank you.
    Mr. Ryan. So thank you. God bless.
    This hearing is adjourned.

                                            Tuesday, March 3, 2020.

           HOUSE OFFICERS BUDGET REQUEST FOR FISCAL YEAR 2021

                               WITNESSES

HON. PAUL D. IRVING, HOUSE SERGEANT AT ARMS, U.S. HOUSE OF 
    REPRESENTATIVES
HON. CHERYL L. JOHNSON, CLERK, U.S. HOUSE OF REPRESENTATIVES
HON. PHILIP G. KIKO, CHIEF ADMINISTRATIVE OFFICER, U.S. HOUSE OF 
    REPRESENTATIVES
E. WADE BALLOU, LEGISLATIVE COUNSEL, OFFICE OF LEGISLATIVE COUNSEL
DOUGLAS N. LETTER, GENERAL COUNSEL, OFFICE OF THE GENERAL COUNSEL
MICHAEL T. PTASIENSKI, INSPECTOR GENERAL, OFFICE OF INSPECTOR GENERAL
RALPH V. SEEP, LAW REVISION COUNSEL, OFFICE OF THE LAW REVISION COUNSEL
BRIAN P. MONAHAN, ATTENDING PHYSICIAN OF THE U.S. CONGRESS AND THE U.S. 
    SUPREME COURT
    Mr. Ryan. Let's call the hearing to order.
    Good afternoon. Today, we gather to discuss the fiscal year 
2021 budget request for the House of Representatives.
    To begin, I would like to welcome the officers and 
officials of the House to our subcommittee hearing. Testifying 
before us are the Honorable Cheryl Johnson, our Clerk of the 
House; the Honorable Paul Irving, Sergeant at Arms; and the 
Honorable Phil Kiko, Chief Administrative Officer.
    Before we start with the testimonies, I would like to take 
time to thank all of the officers, officials, and their staffs 
for the extraordinary work over the past year.
    The fiscal year 2021 budget request for the House of 
Representatives is $1.5 billion, which is a $165 million 
increase over the fiscal year 2020 enacted level. This request 
will allow us Members an opportunity to retain and hire the 
best and brightest. The work we do here is important, and it 
requires a certain set of skills to negotiate legislation that 
will move our country forward.
    While this is a healthy request and would provide Members 
and committees the resources necessary for us to represent our 
constituents by effecting policy and implementing laws that 
will address our country's critical needs, we have to be 
realistic, because the budget caps only allow for a $2.5 
billion increase across all nondefense agencies.
    This limited increase concerns me, especially when looking 
at the House of Representatives, because for far too long we 
have put many of this body's issues on the back burner. At some 
point, we have to make investments to protect this institution 
to ensure it is in good shape for the next generation of 
leaders.
    To give everyone some food for thought, the fiscal year 
2011 enacted level for the House was $1.3 billion. The fiscal 
year 2020 enacted level was $1.4 billion, just $100 million 
increase since 2011.
    And so with that in mind, I look forward to each of you and 
your testimonies today.
    At this time, I will yield to my colleague.
    Mr. Newhouse, do you have any opening statement?
    Mr. Newhouse. I do. Thank you, Mr. Chairman.
    I would also like to welcome back to our committee the 
three principals for the House, Mr. Phil Kiko, Chief 
Administrative Officer; Ms. Cheryl Johnson, our Clerk; and Mr. 
Paul Irving, our Sergeant at Arms.
    Welcome to all of you.
    The fiscal year 2021 budget request for the House agencies, 
as the chairman just says, is $1.531 billion, which is $165 
million above the current enacted levels.
    Each of you have a vital role to ensure the House can 
function for the American people. The House Sergeant at Arms 
Office oversees the security of Members of Congress, of staff, 
and certainly visitors at the Capitol complex. The CAO provides 
the important administrative, technical, and operational 
support so Members can focus on performing their constitutional 
duties. And the House Clerk issues procedural assistance and 
support for orderly conduct of the official business of the 
House.
    So I would like to thank each of you for your work so that 
this institution can run smoothly in a safe and secure 
environment.
    I would also like to thank and welcome the Attending 
Physician for participating in today's hearing. Certainly, with 
the coronavirus outbreak reaching the United States--and, as 
you know, in the State of Washington it is rearing its ugly 
head very much--it is imperative that our medical offices in 
the Halls of Congress have the proper policies in place to 
ensure that they can communicate with and inform House and 
Senate offices of any procedures or events relating to the 
coronavirus in the Capitol complex.
    So with that, again welcome to all of you. I look forward 
to working with each of you with the challenges facing us in 
fiscal year 2021.
    With that, Mr. Chairman, I yield back.
    Mr. Ryan. Thank you, sir.
    Without objection, each of your written testimonies will be 
made part of the record. With this in mind, please summarize 
your statement and highlight your efforts of the past year to 
the subcommittee. After your statement, we will move to the 
question-and-answer.
    Madam Clerk, we will start with you.
    Ms. Johnson. Good afternoon. Chairman Ryan, Mr. Newhouse, 
members of the subcommittee, thank you for this opportunity to 
testify about the operations and fiscal year 2021 budget 
request of the Office of the Clerk.
    As you are aware, the Office of the Clerk plays a central 
role in the legislative activities of the House. Clerk staff 
facilitate House floor proceedings and operate the Electronic 
Voting System, upgrade Chamber technology, produce the 
constitutionally mandated House Journal, transmit messages to 
the Senate, and provide streaming video and legislative updates 
via the Office of the Clerk's website.
    During 2019, our Office of Legislative Operations processed 
6,465 introduced measures and supported 784 hours of House 
floor activities. There were 586 engrossed bills totaling 
20,000 pages. The defense bill alone totaled 1,974 pages and 
included 433 amendments.
    A single amendment might require hundreds of changes to a 
bill. Adding the 433 amendments to the defense bill took four 
enrolling clerks 2 weeks to insert these changes. Then once the 
changes were made, enrolling clerks labored another 6 days to 
read the engrossed bill by paragraphing. That meant reading 
first word, last word of each paragraph, and in some cases 
reading each amendment word for word.
    In addition to floor support, the Clerk's Office supports 
committee hearings here on Capitol Hill and field hearings 
across the country. The Official Reporters provide reporting 
services for all committee hearings, markups, and depositions, 
as well as many investigative interviews. Here today we have 
Sherry Bryant from the Clerk's Office.
    During 2019, our Office of Official Reporters provided 
stenographic and editing services for more than 1,600 committee 
hearings and depositions, roughly a 40 percent increase in the 
number of committee hearings compared to 2018.
    The office also performs many other functions outside the 
Chamber to assist the House with its operations, including 
administering the filing of and public access to all financial 
disclosure forms; providing Members with legal counsel and 
training on employment matters, including anti-harassment, 
anti-discrimination laws, and other issues arising under the 
Congressional Accountability Act; managing any congressional 
offices that become vacant. Currently, we have five vacant 
offices that we are managing.
    We are able to carry out our operations because of the 
subcommittee's ongoing support. For fiscal year 2021, we 
respectfully request $32.8 million. This request is roughly $2 
million, or 7 percent, above the fiscal year 2020 enacted 
funding level and excludes all nonrecurring costs.
    Approximately two-thirds of the requested increase, or $1.4 
million, would cover mandatory personnel expenses, such as 
COLAs, the Personnel Base Adjustment, and longevity increases. 
The remainder of the increase, or $640,000, along with base 
funding, would support these priorities: Business Continuity 
Disaster Recovery; contractor support for projects such as the 
Clerk's website; Financial Disclosure Filing System; LIMS; and 
the Comparative Print Project.
    Please note, our request does not include funding to 
implement recommendations made by the House Select Committee on 
Modernization. Should the House pass the resolution, I would 
ask the subcommittee for supplemental funding to carry out our 
responsibilities.
    Members of the subcommittee, I would like to invite you all 
to tour the Clerk's operations firsthand. The chairman did 
recently. I think he would agree that we have a remarkable 
organization.
    He was able to view a House Journal from 1886, the 49th 
Congress. He compared that Journal to the current one, compiled 
by hand each day that we are in session, in the same manner as 
it was more than 200 years ago.
    You would also meet the team of clerks, official reporters, 
technology specialists, and others behind the scenes.
    We have a talented and diverse staff, people like Bob Rota. 
Bob Rota has been here 32 years, and he is still just as 
passionate today as he was 32 years ago. He serves as an 
enrolling clerk. Mr. Rota says, and I quote: ``I view each 
enrolled bill as a finished product that I help to create.''
    Bob Rota is but one of the Clerk's 200 professionally 
dedicated and highly skilled staff who provide enormous support 
to the House.
    Thank you again for this opportunity to testify, and I look 
forward to your questions.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Thank you.
    Mr. Irving.
    Mr. Irving. Good afternoon, Chairman Ryan, Ranking Member 
Herrera Beutler, and Members of the committee. I appreciate the 
opportunity to present the Office of the Sergeant at Arms' 
budget request for fiscal year 2021. It is an honor and a 
privilege to serve this institution, and I look forward to 
continuing to partner with the committee as this year 
progresses.
    Since the first Congress, the daily responsibilities and 
expectations of the Sergeant at Arms have changed 
significantly. Members of Congress continue to receive an 
unprecedented number of threats and threatening communications, 
mandating a proactive approach to our security posture, which 
my office has worked to implement and refine over the past 
several years.
    We remain focused on ensuring appropriate physical security 
protection for Members, whether they are in their districts, in 
Washington, D.C., or elsewhere, and have employed a 
multifaceted effort to complement sound security practices for 
Members and their staff as we continue to build upon the 
success of the District Office Security Program.
    The Office of the Sergeant at Arms proactively interfaces 
with Members' offices to coordinate security for off-campus 
events in the Washington, D.C., area, districts, or elsewhere. 
These protective measures can lead to local law enforcement 
support, additional assistance by my office, or Capitol Police 
deployment.
    As an example of these activities, my office and the 
Capitol Police coordinated law enforcement support for more 
than 765 district events in fiscal year 2019. These include 
public appearances and events hosted or attended by Members. 
And in conjunction with the Capitol Police, my office has 
performed 44 security awareness briefings for Members' offices 
last year.
    Our District Security Service Center continues to serve as 
a single point of contact for district security measures and 
law enforcement coordination. Since its inception just over 3 
years ago, the Service Center has documented over 17,000 
interactions with district office staff. During this period, 
the Service Center also coordinated the installation or upgrade 
of 540 security systems through our national contract.
    In addition to coordinating security upgrades, we pay for 
monthly services for monitoring and maintenance for the 
security of these offices, to include all the billing and 
invoicing for over 500 systems. We have recently updated our 
Law Enforcement Coordinator Handbook, which is being delivered 
the first quarter of this year.
    For fiscal year 2021, I am requesting funding for the Joint 
Audible Warning System, or JAWS. This is a shared effort with 
the Senate Sergeant at Arms, Architect of the Capitol, and the 
Capitol Police to replace the aging wireless annunciator 
system. The funding requested will help procure a joint non-
cell tower encrypted radio frequency transmission system and 
deliver new devices to all House offices.
    The JAWS effort, in conjunction with other existing 
notification capabilities, will provide notification resiliency 
to send emergency messages to all Members and staff. It is 
critical for us to replace the system components, including 
2,500 devices currently in every office, every hearing room, 
meeting room, and work area on the House side of the Capitol.
    I am also requesting funding to continue providing security 
services to Member district offices through the Sergeant at 
Arms District Office Security Program. We carefully managed 
resources last year to avoid funding the contract in fiscal 
year 2020. However, I am requesting funds to exercise our 
option year so that we can continue the contract and purchase, 
install, and pay for maintenance and monitoring for district 
office security systems.
    Nonpersonnel expenses for fiscal year 2021 will continue to 
support travel, including Sergeant at Arms-approved Capitol 
Police advance support of overseas leadership codels and other 
large-scale noncampus events attended by Members.
    Thank you once again for the opportunity to appear before 
the committee. I am so appreciative for the committee's 
unyielding support and partnership as we strive to maintain the 
delicate balance between strong security measures and a free 
and open access to the Capitol complex. I am happy to answer 
any questions you may have.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Thank you, Mr. Irving.
    Mr. Kiko.
    Mr. Kiko. Chairman Ryan, Congressman Newhouse, and Members 
of the subcommittee, on behalf of the more than 700 dedicated 
CAO employees serving the House, I thank you for the 
opportunity to present our fiscal year 2021 budget request.
    Following my testimony in March last year, we heard from 
the Members that we need to improve, modernize, and expand our 
services. We took that direction and our commitment to being, 
quote, ``Member-focused and service-driven,'' our new motto. My 
written testimony points to what I believe is significant 
progress, but much more needs to be done.
    The fiscal year 2021 budget for the CAO is $190.2 million 
request, with an increase of $37 million. Today, I will focus 
my opening statement on what the additional money will do. This 
request includes $12.8 million in technology upgrades, 
including improving network services to district offices, as 
well as updates throughout the CAO to sustain our services. 
This is sort of the basic blocking and tackling that we need to 
do to provide support to Member offices, payroll, IT, all that 
stuff.
    $1.7 million specifically for our cybersecurity program and 
related projects, $10 million in no-year funds for Select 
Committee on Modernization recommendations if the committee so 
desires, $12.2 million to fund existing personnel, longevities, 
and COLAs, and additional new positions and contractor 
conversions.
    Let me focus on our largest business unit. House 
Information Resources provides a wide range of technology and 
support services. It is responsible for maintaining the House's 
cybersecurity posture, website design, hosting services, 
network access, maintenance, telecommunications, emergency 
response, and technology support. This is the engine that 
drives all the systems of the House, and if we don't advance 
with the growing technology we will be in a catchup mode.
    This year's budget for technology provides for an increase 
of nonpersonnel costs of $13 million. These funds will be used 
for renewal of software licensing, necessary life cycle 
upgrades to critical systems that support human resources and 
payroll and benefits, and continued networking and connectivity 
upgrades to district offices.
    With regards to cybersecurity, in previous years many of 
the questions posed by Members related to cybersecurity. I will 
give you an update.
    In 2019, the Office of Cybersecurity blocked an estimate 19 
billion--billion--unauthorized scans, probes, connections that 
contained approximately 300 million questionable emails, 
including spam, and we thwarted phishing attacks and blocked 
more than 83,000 malicious URLs and spam.
    Our cybersecurity posture protects the devices we use every 
day, ensures the integrity of our financial, legislative, and 
administrative systems.
    The request for the Cybersecurity Office is an increase of 
$1.7 million to enhance cybersecurity measures to align with 
our new cloud-based initiatives, to increase access to advanced 
threat assessment information, enhance mobile device protection 
for Members and staff, and to increase cybersecurity training.
    As to modernization, our request includes $10 million to 
fund several of the recommendations of the Modernization 
Committee. And we can have that discussion--I am working with 
the Committee on House Administration as well--as to if you 
want to fund that much or what projects should be funded.
    Over the last few years, we have made modernization a 
priority. However, in the CAO's office, last year Office 365 
and Microsoft Teams were rolled out to all House offices, 
significantly improving the collaboration, video-conferencing, 
and remote access to House offices.
    In 2019, two internet points of presence for the West Coast 
and the South-Central district offices were installed. That 
allowed 210 district offices to utilize the new services and 
have much faster internet response time, downloads, and 
uploads. We hope to expand that to other regions of the 
country.
    We eliminated most paper-based vouchers and are working to 
add digital signatures on payroll and other administrative 
forms.
    Our fiscal year 2021 budget includes funds for both 25 new 
positions and 25 positions for contractor conversions across 
the CAO. By converting these positions, we will save nearly $2 
million in fiscal year 2021.
    Additionally, the overall budget will continue to maintain 
and expand the following roles and initiatives: the growth of 
the popular wellness initiatives that contribute to staff 
productivity and quality; support the Customer Experience 
Center, which connects Member, committee, and leadership 
offices with the CAO; continue logistic support for the 
congressional transition and continuing emphasis and focus on 
district offices; and last but not least, provide 
administrative, logistical, technology, financial, and 
consultative support for newly elected Members.
    I am also happy to report the House did receive its 21st 
consecutive clean audit opinion for fiscal year 2018. So we are 
in good stead.
    Thank you very much.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Thank you. We are going to move into the 
questions.
    Let me just say how thankful we are for your leadership. We 
are really, really lucky to have all of you. And I know you 
scrubbed your proposals as well as you could, but we appreciate 
you articulating wide support. And so thank you.
    Mr. Ruppersberger. I want to also say that we are really 
lucky to have the leadership here. You are kind of new, but you 
jumped right in and doing a good job, too, Ms. Johnson.
    Just a couple side questions. The first thing, we 
specialize here. I specialize in national security and 
intelligence, defense approps, and that type of thing. You do, 
too, by the way.
    But I raised the issue last year about security clearances 
and how long it takes. Overclassification is making sure that 
our staff now, not the Intel staff, or the Defense Approps 
staff--just can't get information. And we are running like 
crazy three or four hearings a day.
    And I know, too--and I don't know if you have these 
numbers, and this question is really to you, Phil--the issue of 
how many clearances that the Senate has versus what the House 
has and what we can do about this issue. Because it is getting 
worse, and we can't do our jobs when our staff can't get the 
information to talk to us about things that we deal with in 
that realm where you need a clearance.
    Any comments?
    Mr. Irving. I think it is more----
    Mr. Ruppersberger. Oh, yours, Paul?
    Mr. Irving. It is more in my domain.
    So you raised a couple of very salient issues. One is the 
number of clearances we have. The other is the time that it 
takes to obtain a clearance. And as you know, we work very 
closely with the executive branch, namely Department of 
Defense, to get those clearances expedited as soon as possible.
    They had a backlog, as you remember, for quite a few years 
when OPM was doing it. Now we have got Defense----
    Mr. Ruppersberger. I represent NSA. So they do their own 
and that is pretty efficient.
    Mr. Irving. Yes, yes. Some agencies, some executive branch 
agencies actually do their own. And just for that very reason, 
the time, the backlog is just so extensive when you get one or 
two agencies doing all the backgrounds.
    We voiced the concern. So I just want to assure you that we 
have certainly followed up with them. But to a certain extent 
we are at their mercy when it comes to their investigators.
    Mr. Ruppersberger. At whose mercy?
    Mr. Irving. Well, the Defense Department, the agency that 
does all the clearances.
    Mr. Ruppersberger. Do you have any suggestions on what we 
can do to do something----
    Mr. Irving. We are working extensively with them. I will 
come back to you with some ideas. But I think we have done 
pretty much everything we can to reduce the backlog.
    I will say, when it comes to the number of clearances, that 
is something that we work on with leadership and the committees 
of jurisdiction here to determine how many clearances each 
office should have, either a TS or SCI.
    Mr. Ruppersberger. This is just a housekeeping issue. We 
have to have our votes, and a lot of us when we go outside in 
between the votes, and those bells, you can't hear them half 
the time. We have been working on this issue for 10 years.
    Is there anyone--Cheryl, I don't know if this is under your 
bailiwick--that can make sure that we get louder bells outside 
so we don't miss votes? We literally can be out and the vote is 
being called, we don't hear the bell.
    Could somebody try to do something about it? This has been 
a 10-year problem and it doesn't seem that--we should be able 
to deal with that, the issue of the bells that are louder so we 
can hear the votes. Could somebody just take that and run with 
it and get back to me?
    Mr. Irving. Maybe we can work with the Architect of the 
Capitol as well on that.
    Mr. Ruppersberger. Outside where we are. And that is all, 
just that one area.
    Mr. Ryan. Just to clarify, I mean, you can literally be on 
the steps outside of the House Chamber, just outside on a phone 
call, and you can't hear the bells.
    Mr. Ruppersberger. I am an Under Armour guy, but what is 
the Nike phrase? Just do it.
    I also want to acknowledge, too, Dr. Monahan. I have been 
involved with medical issues and I am very active with the 
University Maryland Hospital. I think he has got one of the 
best operations, one of the best docs we can have. It is one of 
the benefits we have here.
    So, Dr. Monahan, you and your team do a great job. Thanks 
for looking after us.
    Dr. Monahan. Thank you.
    Mr. Ruppersberger. Yield back.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. Again, thank all of you for being here with 
us this afternoon to talk about the budget request.
    One overriding question that I will probably ask all of you 
to think about, the chairman has been very clear to everybody 
that is coming before us to anticipate us not being able to 
honor requests fully.
    So not to put words in the chairman's mouth, but I just at 
some point want to hear from you what impacts, if we cannot 
fully fund your request, what are we going to see different? 
How will you respond to that? What would be your way of dealing 
with those issues?
    But I wanted to talk about a couple things, to you, Mr. 
Sergeant at Arms, first. When the Capitol Police was in front 
of us last month, earlier this year, we talked a little bit 
about the incident, I think it was last November, and I guess I 
would characterize the failure of the mass notification system 
to fully inform people what was going on.
    Could you tell me, from your perspective, what went wrong? 
What have we learned? Moving forward, how are we going to 
prevent that kind of an issue from happening again?
    Mr. Irving. Yes. I can assure the committee that that will 
not happen again. It was an AIRCON, what we call an AIRCON, so 
a threat from the air. There was an anomaly on the radar that 
the Command Center had trouble identifying.
    And we have a phased approach. Capitol Police, as you know, 
the first responders have a phased approach. We don't 
necessarily notify everyone of what is going on behind the 
scenes. But we have a color-coded system, and they go from what 
we call, you know, a blue to a yellow to an orange to a red.
    Normally, no one here would know about it until we go to a 
red, which is when we would actually evacuate the campus, 
because the threat is so close.
    In this case, we were between a yellow and a red, what we 
call condition orange. And there was not a notification 
protocol for a condition orange, because orange was designed at 
the time or the thought at the time was we would only need 
orange for maybe 30 seconds to a minute, because you are either 
going straight up to red or back down to yellow.
    The problem was we were at orange for an extended period of 
time, because we had an unidentified object and----
    Mr. Newhouse. How much time was that?
    Mr. Irving. Oh, it was a good 25 minutes plus.
    And in hindsight, we spoke to--we have done a lot of after 
action on this, I can assure you. Someone in the Command Center 
probably should have said: Hey, you know what, we have been 
doing this for an extended period of time. Even though we don't 
have a protocol, a notification protocol for orange, we should 
make a notification.
    That didn't happen. We have since retooled, and there will 
be a notification for an orange.
    But, again, at the time the concept was: We are not going 
to be at that condition for an extended period of time. And the 
Capitol Police is very process-based and they should be, 
because everything should have a procedure in terms of when 
notifications are made and when they shouldn't be made. But 
that slipped through the cracks. It won't happen again. And we 
fixed that.
    Mr. Newhouse. How do we prevent these anomalies from 
happening on radar screens? That is above your pay grade maybe. 
I don't know.
    Mr. Irving. Well, that is an excellent question, and that 
is a tough one. Technology, you may remember we had the issue 
maybe 6, 7 years ago with an ultralight. We had trouble 
identifying the ultralight. And it gets to the point where 
technology is only so good, and if you get something that is 
below a certain level--and I can't get into it in this forum 
here--but we only have so much capability on radar. We do the 
best that we can, and sometimes we have anomalies and we are 
just not sure.
    Mr. Newhouse. Sure, okay. I appreciate that.
    Mr. Irving. But we are working with all of our 
intelligence, law enforcement, and military partners to do as 
best we can to maintain a clear airspace.
    Mr. Newhouse. Good. Thank you. A lot of people are 
interested in that, as you can imagine.
    Mr. Irving. Yes.
    Mr. Newhouse. Ms. Johnson, you, in your short tenure, but 
just over a year now, right?
    Ms. Johnson. Yes.
    Mr. Newhouse. When you came to see me last week, you talked 
a little bit about some of the effort that you have put into 
saving money, cost-saving measures. And I just wanted to let 
you expound on that, talk a little bit about some of the 
things, areas that you have been able to find that, in 
retrospect, seem to be fairly easy, but were certainly 
significant.
    Ms. Johnson. As I stated last week, that having a new set 
of eyes just on where the Clerk's funds are going. About 98 
percent of it is nondiscretionary and really goes towards 
salaries and most of our technology projects. So there is not a 
lot of room for any discretion.
    But one of the things I looked at was at our publications, 
we do have some discretion there, and learned that we were 
spending a substantial amount of money on newspapers. And so I 
have managed to cut about $18,000 or $20,000 just from 
newspaper publications, because most of it is read online 
anyway.
    So that was one source of cutting funding. And continuing 
to look at other sources. Again, it is not a lot, but I will 
continue to scrub as much as I can.
    Mr. Newhouse. I commend you for that, and thank you.
    My time is up, but I just want to repeat, I appreciate very 
much, I think all of us do, all of the fine work that you and 
the people that work with you do, including our Attending 
Physician.
    So thank you very much, and we look forward to working with 
you on this year's budget.
    Mr. Ryan. Thank you, Mr. Newhouse.
    Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman.
    And thank all of you for being here. We truly appreciate 
it, and we appreciate the personal visits as well.
    And to the power corner over here, we thank you for all 
your work as well.
    My questions, if you don't mind, are for Wade Ballou, if 
you wouldn't mind addressing a few of those.
    First, I want to start by extending our condolences on the 
loss of Fiona Heckscher. She was a delight to work with in our 
office. And your staff, as always, has picked up her work and 
continued it, and we just really appreciate that. And please 
extend our heartfelt thoughts and prayers at her loss to all of 
you.
    And I did want to speak to you--I am very aware of the 
clock going--about how overworked your office is. And I think 
that as I looked over your budget request, I want to make sure 
that you have the capacity to hire to 87, but you currently 
have 76 employees. Can you do that hiring within your fiscal 
year 2021 budget request?
    Mr. Ballou. Yes, ma'am. We are able to hire within our 
request, due to a combination of retiring senior members, and 
when hiring a new attorney the cost, in terms of salary for 
that attorney, is about half of the senior attorney. And so 
with the turnover, we are able to work within that request.
    Ms. Clark. Great. One of the barriers that you cited to 
recruiting and retaining--and I know this goes across many of 
our staffs--is student loans is a way that we can use very 
effectively as a tool for recruitment.
    The program has a lifetime cap of $60,000, which is 
significantly below the 145 in debt that the average law 
student in this country graduates with, $145,000. If we raise 
this cap to $80,000, do you think that would help with your 
recruitment?
    Mr. Ballou. That would definitely help.
    One of my delights is when I sign one of the student loan 
forms for one of our young attorneys. It definitely helps them 
to come to the office and remain in the office.
    Ms. Clark. And to Mr. Kiko, I believe that I am correct 
that even if we raise that cap to 80,000, because we still have 
office caps, we would not be overall increasing the liability 
for the House. Is that right?
    Mr. Kiko. That is my understanding.
    Ms. Clark. Okay. Great.
    One other thing. We have run into the situation several 
times where there are just fine-tuning that we need to do, but 
because of the way it is set up in your office we have to have 
lawyers come back and spend time looking at fairly minor edits.
    I hate to compare favorably the Senate to the House data. 
That hurts me a little. But Senate Leg Counsel has really 
avoided that issue by providing a formatted Word document where 
the changes can be tracked.
    We have asked--in one of our bills we had very, very simple 
changes from Department of Justice, and we asked if we could 
access your formatting software and were told no. Have you 
considered providing Members' offices with access to that 
software so that we can make better use of your attorneys' 
time?
    Mr. Ballou. Yes, ma'am. So the software that we are using 
is XML. It is provided actually through the Clerk's Office. And 
it is the software that produces the legislation in the XML 
format. Off of that software, we are able to produce a Word 
document.
    Right now, that process is not automated. And for any 
particular bill it does not take long for us to produce a Word 
document. In the aggregate, however, the amount of time taken 
would be large.
    So I have also begun conversations with Legislative 
Computer Systems in the Clerk's Office about automating our 
production software so that in addition to the PDF that we 
produce and the XML that we attach to every PDF file that we 
send out, we can also produce a related Word file.
    Ms. Clark. Great. Well, we look forward to working with 
you. We would love to do that.
    And do you have any idea why the Senate and House bills 
have such totally different formats? That seems to be another 
area where we could really expedite if the Senate would just 
see it our way.
    Mr. Ballou. Of course. The formats generally should be the 
same or very similar. The underlying XML is the same, because 
that is the legislative data form that is used throughout the 
process. It is what is produced at GPO and is used later 
downstream at congress.gov.
    Ms. Clark. That certainly hasn't been our experience. Our 
bills, they say the same things but come back looking 
completely different when the Senate has changed it.
    But thank you. I see my time has expired. Thank you all 
again.
    Mr. Ryan. Mr. Case.
    Mr. Case. Thank you.
    Mr. Irving, I just wanted to pick up. You were commenting a 
little bit about district security. And I think that is, 
unfortunately, a reality for all of us. When we go back to our 
districts, we want to engage, and yet we need to take the 
appropriate precautions for the folks that join our events.
    And in my case, for example, you basically line up the 
Honolulu Police Department to cover me, which I appreciate you 
doing that and I appreciate what they do for me in district, 
and I am sure that is similar for all of us.
    You said that these requests were increasing, as would be a 
natural expectation. Are they reimbursed at all by Congress or 
do they do that on--well, first of all, who is ``they''? Is 
that always the local police department? Are there other ways 
that you provide district security or foster and facilitate it?
    Mr. Irving. Well, ``they,'' it depends on the area, but it 
could be multiple jurisdictions. We may have a sheriff's 
department that is near a police department and we might get 
assistance from both. Many times it is manpower dependent. So 
it could be a local, a county, a State. Sometimes the State 
Police will assist. If we can't get local, county, or State, 
then I will make a phone call to the FBI or Secret Service or 
another homeland security-related Federal agency to assist.
    So we do whatever we can to get law enforcement support to 
our Members everywhere, because the Capitol Police can't be 
there. Many times we just don't have the time to respond. An 
event may be that day or the next day.
    To answer your question in terms of reimbursement, they are 
not reimbursed. These police departments do it, you know, to 
cover the health, safety, welfare of their citizens, and they 
do it at our request. And I have to say that I spend a lot of 
time thanking chiefs and sheriffs for the time that they spend 
assisting us.
    Sometimes we will send a Capitol Police deployment, but 
that is only in a rare circumstance, because it is so manpower 
intensive for the Capitol Police, and that is only if we cannot 
get the local support at that location.
    But I have to say, we do, hat in glove, we really do thank 
our partners in law enforcement everywhere, because they 
usually do step up, but it is a labor for them.
    Mr. Case. Yeah. No, I agree with that. They do it 
selflessly and we are grateful for that. But I wonder sometimes 
whether we should. And this is not really the question for the 
current budget cycle, but I do wonder sometimes whether, with 
these increases, it is the fair thing for us to do to provide 
some kind of reimbursement in some way, shape, or form.
    Has that ever been a discussion within your office?
    Mr. Irving. Well, it has. And I have to say back from my 
prior life at the Secret Service, it was a very big part of the 
discussion. And at the time, again, the Service, we never did 
reimburse, because it really--it becomes a tough thing. The 
next thing you know police departments will be submitting bills 
for a lot of things that sort of get out on the periphery.
    So there is sometimes very targeted reimbursement for major 
events like the political conventions, where the local police 
departments will receive some Federal assistance and 
reimbursement. But on a case-by-case basis, when it comes to 
Members sponsoring, having events in their districts, it 
becomes a little bit of a tough line of what should be 
reimbursed and what shouldn't be. So we have stayed away from 
it.
    Mr. Case. Okay. Thank you.
    I will yield back, in the interest of time. Thank you.
    Mr. Ryan. Thanks, Mr. Case.
    So I think what we are going to do here is take a real 
quick recess. We are going to go up with two quick votes. We 
will catch the end of this first one, we will do the second 
one, and we will come back down maybe with some reinforcements, 
too.
    So the committee is in recess for a few minutes.
    [recess.]
    Mr. Ryan. We are going to gavel the committee back, and we 
are in the question and answer.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And I was hoping to ask a few questions of our Attending 
Physician.
    Mr. Ryan. Dr. Monahan, you are welcome to come up.
    Ms. Herrera Beutler. Come on up.
    Mr. Ryan. And those should be working, Dr. Monahan.
    Now that you are officially at the table, we want to thank 
you for all your great work. I know many Members rely on you 
and your team, and that is just the most professional 
operation. I think there is a move afoot to have one of your 
offices in every one of our congressional districts so we can 
access----
    Ms. Herrera Beutler. Yeah, right.
    Mr. Ryan. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you so much.
    And I echo that. I think we are very fortunate that you 
have chosen to serve, and serve here, and take care of really 
the Capitol complex, the Members, the staff, and the visitors 
that come who have experienced emergencies when they are here 
visiting their Nation's Capital. There are thousands and 
thousands of people who come and go through these doors.
    And we often have people who are thinking about their 
physical security, right, but their health security is just as 
critical. And being from Washington State and spending a lot of 
time--in fact, that is where I was sometime in the last hour or 
two, was at the White House with a bipartisan group talking 
with Vice President Pence about coronavirus. We talked with our 
Governor, our State folks yesterday about what is happening in 
Washington State.
    And it got me thinking, and we talked about this last week, 
the chairman and I, just about what is happening here on 
Capitol Hill with regard to staff and visitors and what types 
of planning--this might be a little bit of everybody--but what 
types of thought is going into planning for the virus that is 
going to be with us for some time and how we are going--we are 
in the mitigation and treatment phase, and how do we mitigate, 
make sure people have access.
    So I wanted to ask kind of your broad scope on that, and 
then a little bit about supplies and such. I will turn it over.
    Dr. Monahan. Well, presently, I am in consultation with 
leadership offices of both the House and the Senate on a pretty 
regular basis on this event as events evolve.
    We are closely aligned with the Centers for Disease Control 
recommendations and with the District of Columbia public health 
authorities with regard to the support of this capital region.
    There are various prerogatives leadership may employ with 
regard to access to the Capitol, limitations, et cetera, that 
would be part of like a matrix of a decision process that they 
would develop, largely driven by external events of our 
external partners, such as District of Columbia, Federal 
agencies, other institutions and other factors involving things 
such as the D.C. public schools, for instance.
    Ms. Herrera Beutler. In terms of what--so that, in my mind, 
goes to closures or social distancing or limitations. Here 
physically, if the Capitol--and leadership obviously is going 
to have their impact on who comes to work, when, and whether we 
get into essentials. But that is a little bit further down the 
road.
    I mean, the reality that we are living in an area--you 
know, we might not get shut down, but people amongst us will be 
or possibly could be sick. And is your office preparing or are 
there preparations being made with regard to communicating to 
Member offices best practices and how to keep people safe or 
mitigate risk, so to speak?
    Dr. Monahan. Yes. We have a website that lists current 
situation summaries, and that incorporates our current advice 
to Member offices with regard to practices to keep their own 
employees safe, practices for visitors, and mostly reiterations 
of the CDC guidelines now, which are our best defense at this 
time.
    There will be future evolutions should a vaccine be 
developed that would involve distribution, et cetera, to our 
community that have yet to be determined.
    Ms. Herrera Beutler. Do you feel like you have enough 
supplies? Do you have enough, whether it is, you know, I don't 
know? I don't want to read any historical situation or scenario 
into it, but do you feel like you have the supplies and such 
necessary here--should there be something of an outbreak?
    Dr. Monahan. Yes. I think we are adequately prepared by way 
of resources to protect our first response personnel and 
provide that service to the Capitol community for any number of 
scenarios that might arise.
    Ms. Herrera Beutler. And I assume this probably could have 
been something we talked to about the security force and the 
police force. I assume all that is being considered as well?
    Mr. Irving. Yes. Indeed, we have been in extensive 
discussions with the Capitol Police as well as the other House 
officers, the Chief Administrative Officer, the Clerk, the 
Architect, on preparations, again, working very closely with 
Dr. Monahan and his team, but on preparations here in the 
greater Washington area, the Capitol.
    Also, focusing on getting information out to our district 
offices so that they have their COOP plans in place. And also, 
again, working to ensure that if COOP plans do need to get 
somehow----
    Ms. Herrera Beutler. Activated.
    Mr. Irving [continuing]. Activated, thank you--then what 
the proper protocols are for that.
    The Chief Administrative Officer, I know, has a big piece 
in this relative to the working remotely.
    So, yes, we are all in discussion and coordinating very 
closely and will be prepared.
    Ms. Herrera Beutler. I think, with that, I yield back, Mr. 
Chairman.
    Mr. Ryan. Thank you.
    So, Dr. Monahan, while we have you here, so this is a 
virus. They say it is a lot like the flu virus. Can you just 
talk a little bit about what it is, what it does, who it 
affects? It seems like it is targeting people who already 
have----
    Dr. Monahan. Yeah. The virus now circulating is one that 
exists in nature. We believe that it resides typically in the 
bat population, and through an intermediate animal not yet 
identified, came in contact with human populations. So in the 
right mix of the so-called animal market in Wuhan, China, in 
the high-density population, the virus has leapt from an annual 
vector into humans.
    The virus is similar to the head cold viruses that 
circulate among us all the time. It is a family of viruses 
known as the coronavirus. It is called that based upon its 
shape of a crown under electron microscope magnification 
viewing. It is a general term.
    The virus is constructed of an RNA genetic code of a 
sequence of amino acids, and scientists have studied that 
carefully and have published that as great public service out 
to the scientific community of the world. And United States 
scientists also have investigated that.
    The virus exists in an environment attached to particles 
typically of either saliva or mucus that a person coughs or 
sneezes. Depending on how far or how close you sit to a person 
who is infected, they will produce this particle into the air. 
It will either enter your nose and you will inhale it, or 
attach to your face and you will touch it, or attach to an 
environmental surface and you will transfer it to your face is 
how you acquire the infection.
    The virus then enters the body, and for a period of days 
the person feels relatively well. It is called the incubation 
period. So for, say, 4 to 9 days a person has minimal or no 
symptoms.
    That is a very important consideration in the Nation's 
response to this particular virus in that a substantial amount 
of virus replication in the nose and throat takes place before 
the person is visibly ill.
    Unlike other viruses we have dealt with in the past, like 
the SARS virus and the MERS, Middle East Respiratory Viral 
Syndrome, a person would be hard to detect. In fact, the 
majority of patients in the Chinese experience and in the 
Diamond Princess cruise ship experience did not have any 
physical sign at the time of their diagnosis, such as a fever 
that you could detect by monitoring temperatures, for instance. 
Less than half did.
    Once the virus then grows in the mouth and throat up to 
some level, the body begins to respond. The virus descends into 
the lungs, where it attaches to what is called the cilia or 
hair cells inside the lung. And these are vital little 
structures in the lung that sweep mucus out of our airways. 
When those cells are attached by the virus, the virus grows 
inside, replicates, and the cell is injured. So that function 
becomes lost in the lung, where a person accumulates large 
amounts of the naturally occurring mucus secretions in their 
lung.
    In that setting, some people then will not get sicker than 
that. They will have a head cold-like illness. That occurs 
about 80 percent.
    If there are any bright spots in this difficult situation, 
it is that the vast majority of people who acquire this 
infection will feel ill for several days and then recover on 
their own without medicines or other intervention. About 80 
percent of people will recover.
    About 20 percent of people, though, the virus will go on to 
damage the lung and lead to pooling of secretions in the lung, 
which sets the stage for pneumonia. Of those who get the 
pneumonia, about one out of seven will have a severe pneumonia 
that will threaten their ability to take every breath, and 
oxygen in the blood will fall down low, and they are at risk 
for suffocation.
    In that instance, doctors and nurses in an intensive care 
unit would step in with machines to take over the work of 
breathing, known as intubation and mechanical ventilation, the 
high art of intensive care unit care, very labor intensive, 
very resource intensive, and focused on that number of 
individuals. And then some will recover, but others will go on 
to develop other failure of organ systems and lead to their 
death.
    So the fatality rate depends upon many factors. It is an 
important number that people see. And the chance of dying from 
the infection overall is probably in the 1 to 2 percent range.
    For those who are of advanced age, the risk is much higher, 
because they tend to have other diseases such as compromise of 
their lung function, emphysema, chronic bronchitis, diabetes, 
heart disease, and all of those things kind of conspire against 
the person at the time of their severe illness.
    So the chance of death increases quite a bit over age 80. 
It begins to increase over age 70. It is modest in the fifties 
and sixties and very low in much younger people. In fact, 
children have a very low risk of getting the severe form of 
pneumonia that threatens their life.
    So one of the issues that comes up is that the most 
vulnerable of people are at the highest risk of death, and that 
is a major consideration, as you see playing out now in the 
State of Washington in the long-term care facility, where 
people are in advanced age and various debilitating health 
conditions, and the virus, that is kind of the prime domain for 
the worst experience of survival.
    Mr. Ryan. I wish you were a little smarter, Doc. 
[Laughter.]
    Can we please get some talent around here?
    I have no further questions on the coronavirus.
    We appreciate you. We love you.
    Dr. Monahan. I appreciate it. Thank you very much, sir.
    Mr. Ryan. And this is why all the Members respect you and 
have such affection for you. So we appreciate you and your 
team. So you can hang out here if you want.
    Dr. Monahan. I would like to return to the business of the 
Capitol.
    Mr. Ryan. I am going to ask Phil, see if you can follow up 
on that.
    Thank you so much, Doctor, appreciate it.
    So I want to get into the JAWS, the question about the 
Joint Audible Warning System. So you talk about the heat 
mapping and all of that. After the heat mapping is completed 
and you have a good idea of the hard-to-reach places in the 
Capitol, how do you address the locations that will be hard to 
get signals to? What is the solution to that?
    Mr. Irving. Well, the heat mapping would help us determine 
where additional equipment is needed to reach those areas.
    Mr. Ryan. You just put up another--okay, easily solved.
    Mr. Irving. Yes.
    Mr. Ryan. Do you have any concerns that this is growing 
beyond the original scope of what we are thinking about, the 
JAWS system?
    Mr. Irving. No. There is concern, will we have the 
capability to reach all those areas with a radio frequency? My 
concern has always been that we don't have a whole lot of 
vendors that are capable. So it is a limited pool. But I think 
that we have worked very closely with the Architect, with the 
Senate Sergeant at Arms, with the Capitol Police, to identify 
the resources or the requirements needed for this system.
    And the teams know that they are abiding by those 
requirements and nothing else. And if this heat mapping doesn't 
yield results, then we will have to refocus our efforts. But I 
am comfortable with the way it is going.
    Mr. Ryan. Okay. Just keep us in the loop. And I know 
someone asked you earlier, I think Mr. Newhouse, about the 
warning system and the radar and the plane and all that. We are 
engaging the Capitol Police to do a meeting with them, just to 
do a debrief on it.
    Mr. Irving. Yes.
    Mr. Ryan. We would love for you to be a part of that.
    Mr. Irving. Thank you, Mr. Chairman. In fact, we are going 
to follow up on that. I would recommend we do that in the SCIF 
so we can get into some of the other classified.
    Mr. Ryan. Yes, exactly.
    Mr. Irving. So, yes, absolutely, we will set that up.
    Mr. Ryan. I know we are trying to get everybody's schedule.
    Mr. Irving. We will do--there will be an AIRCON. And then 
we will talk about some of the residual issues we had with the 
radar and airspace.
    Mr. Ryan. Yes, we want to hear that, too.
    Ms. Johnson, thank you. We had a great tour, as you 
mentioned in your testimony. Amazing work. Please give our 
regards to everybody. Bob----
    Ms. Johnson. Bob Rota.
    Mr. Ryan. The guy way in the back, yeah. We toured it, we 
went way, way, way, way in the back. And Bob was back there in 
this little cubicle, and it was just amazing to see him do that 
work and literally reading through all of the bills and the 
amendments and just amazing.
    And just as a side note, you mentioned it, about it has 
been going on 200 years plus.
    Ms. Johnson. Tomorrow, March 4, is 231 years since Congress 
first convened.
    Mr. Ryan. All right. Send a cake over.
    But to tie it back, because I think we are all so busy, and 
the country, obviously, is getting a lot of information about a 
lot of different things, it is, I think, so important to really 
have that touchstone of, like, this has been going on a long 
time and this is what holds the whole thing together, is that 
what is in those documents matters, and we all have agreed to 
adhere to the laws that are passed and bills that go into law 
and all of that.
    So I just think it is really important. I encourage every 
Member to take a tour. I hope not to overwhelm you, but to get 
back and see everything you are doing.
    You talked a little bit about the modernization, and we 
talked about this in our private meeting. I know your budget 
doesn't request any additional funds for full-time employees. 
But you could be tasked, in addition to Phil, with trying to 
absorb some of that.
    I am assuming that at this point, given the difficulties 
already with the budget, that you do not have the money to 
absorb any of the modernization requests.
    Ms. Johnson. Mr. Chairman, we would not. And a lot of what 
is requested, we are not even aware of the cost, because we 
have not done an assessment, an assessment of, say, how much it 
would cost for a second display board on the House floor or 
what it would cost to provide closed captioning for committee 
hearings.
    We know that for the floor action, we pay roughly $500,000 
a year for closed captioning. So to have it done for--last 
year, we had more than 1,600 committee hearings. So to have 
closed captioning for each committee hearing would be pretty 
substantial.
    Mr. Ryan. Those are committees, subcommittees?
    Ms. Johnson. Yes, yes.
    Mr. Ryan. Would be 1,600?
    Ms. Johnson. Yes, 1,600 meetings that we covered.
    Mr. Ryan. Phil, I guess this is for you, too. I mean really 
all of you, because tomorrow we are going to hear from the 
Members, Congressman Graves and Congressman Kilmer, on the 
modernization.
    And so, Phil, if you could help us. How are we going to 
figure out how much all of these things cost? I mean, are you 
the best person to kind of go through? I know you asked for $10 
million. Have you gone through the list? Are you waiting till 
it gets out of committee?
    Mr. Kiko. I have gone through the list. It is my 
understanding there is going to be a bill that will be acted on 
soon, and then I will see what it looks like. I mean, there are 
modernization things that can be done that don't have a lot of 
cost.
    One of the issues was bulk purchasing. I mean, bulk 
purchasing, if you do that you can save money for the House, I 
mean, not necessarily--with Members, you know what I mean? If 
we would bulk purchase some of the computers, we might be able 
to save money rather than it being purchased out of the MRA. We 
are selling computers in the gift shop at below the price.
    We have looked at some of those, and we think that $10 
million was just a stake in the ground that I put because I 
thought modernization, some of the efforts would need money. We 
have been trying to modernize some things just without money, 
like Office 365, getting into the cloud, those kind of things, 
you know what I mean? There are some things that we can do just 
to make things better and run better.
    But we have looked at the modernization things, and we are 
ready to engage in a discussion back and forth with the 
committees on how you want to handle it, how much things would 
cost. I know in the original legislation that it tasked the CAO 
with a lot of reports that the Modernization Committee wanted 
us to write, to look at things. And I think there were some 
timeframes in which we were to look at these issues. So that 
is--look into that.
    Mr. Ryan. So I know that the Clerk, you talked about some 
of--most of your increase was for increases that----
    Ms. Johnson. Are mandatory.
    Mr. Ryan [continuing]. Are mandatory.
    Ms. Johnson. Two-thirds of the $2 million I have requested 
are mandatory: salary adjustments, the COLA, the longevity 
increase, the Base Personnel Adjustment.
    Mr. Ryan. Out of your $36 million, I think a good chunk of 
it was the same.
    Mr. Kiko. Yes, some of it was that, exactly.
    Mr. Ryan. Because that is the argument we are making to 
people, that a lot of this stuff is mandatory, and we try to 
keep good staff and people deserve to get the next step up.
    Mr. Kiko. Well, I agree with that. And some of the upgrades 
I have in my budget are just we have to upgrade systems that 
are supporting the House, whether it is financial systems. Some 
of the finance systems are--you know, the contractors, they are 
now going into the cloud. Some of the systems are not in the 
cloud. So we have to move into the cloud or they are not going 
to be upgraded. So some of this stuff we just have to do.
    I mean, we have been looking for ways to save money. Like I 
said earlier in my testimony, I can save $2 million by 
converting some of our contractors that move furniture around 
all the time, I can save $2 million by converting them to CAO 
employees. And that is a given.
    And there is more of that we can do, too, not just willy-
nilly do that. But we could save money. You lose a little bit 
of--sometimes you want a contractor that is very well-trained 
and up to speed on the latest and greatest technology. But some 
of the stuff we are just going to need--if we convert, we can 
save money.
    Mr. Ryan. One of the things you mentioned in your testimony 
is that the budget will expand services to House community and 
ease the administrative burden on House offices. Can you 
explain what this means and how your request would support 
that?
    Mr. Kiko. Well, I think that--
    Mr. Ryan. Especially with regard to the MRAs, there are 
things that you can do that--
    Mr. Kiko. Well, we are in the process of continuing to look 
at these things. We want to eliminate paper forms. So that is 
coming down the road. We want to have simplified purchasing for 
Members' offices. We want to streamline services that we have.
    So we want to have situations where the Members' offices 
don't have to figure out which office to call. So we want to 
have--one of the things we would like to do is when a Member 
calls in an office for a service, no matter where they call, we 
know what they have called about in the past, sort of like 
companies do. And we want to have--we just want to have the 
best service that we can have. It is not like you got to call 
HIR, you are going to call the Finance Office. They can call.
    But we need some software to develop to do those kind of 
things. We would like to have it so you can purchase things 
like you do off of Amazon. We are looking at systems like that. 
You can just do it. It automatically gives you the best price. 
Member offices can do that.
    We have a lot of those things that are sort of in the queue 
that would make life, like, easier and some of it would save 
money. We are always looking for ways, though, to save money. 
And I just don't like to come up here with my tin cup out here 
and ask for more money. I think it is incumbent to try to save 
some money, too, and make the processes better. We have a lot 
of archaic processes that we have been trying to eliminate to 
make things better.
    Mr. Ryan. We have talked a lot about wellness over the last 
couple years, and we continue to push with regard to the House 
wellness program, which we are all really excited about. It is 
now getting off the ground and getting people in better health. 
Because every meeting we have, say, well, where is your money 
going? Well, more healthcare costs, higher healthcare costs.
    So one of the things we talked about is really tailoring 
our wellness approach to certain issues that maybe the vast 
majority of people on the Hill are dealing with and that are 
driving up the healthcare costs. So we discussed some of the 
roadblocks that you ran into, Phil, trying to get me healthcare 
data.
    And what help do you need from us so that we can begin to 
try to get this data? Not that we want to get in anybody's 
personal business, but if we have a wellness program set up 
that is going to attack and then give increased quality of life 
and help people get healthy and have nutrition and diet and 
mindfulness training and financial literacy and all these 
things that our workers are dealing with, we want to be able to 
better target that. So what were some of the roadblocks that 
you ran into?
    Mr. Kiko. Well, I think that we had this conversation late 
last year about looking at some of this healthcare information. 
And we engaged OPM that has a lot of this data. We engaged DC 
Health Link and we engaged some of that. And we were not able 
to, while they gave us information on the number of people that 
were covered and how much the cost increased and those kind of 
things, we were not able to get any kind of even sort of macro 
healthcare information about what people, what they were--the 
money was being used for and how they circulate. So we were 
trying to find that.
    The big healthcare providers have not said no, but they 
haven't said yes, you know what I mean, we are still trying to 
break that out of them.
    What we have done, though, we have tried to engage--and we 
haven't stopped. It would be helpful. You know, we could use 
your help to try to get that information.
    There is all information that is privacy protected and 
stuff like that, and I am not trying to get individual data. I 
would just like to get some macro kind of data on various 
things so we could, as you say, tailor some of our programs to 
that.
    But we are engaging the healthcare companies in what kind 
of programs do they use for wellness. What is successful with 
wellness in the providers in the private sector and even here? 
We are trying to find that information.
    And if we could get that information then we could, even if 
we are not totally successful on the first part, we can--they 
are funding stuff that is successful and they are funding 
things that are going to reduce healthcare costs with wellness.
    So if we could sort of find out what some of that is, then 
we might be able to have some--we could tailor some of our 
things that way. That is one of the things we are doing. And I 
am sort of hoping that we will--I think we are going to have 
some success on that.
    Mr. Ryan. Great.
    Mr. Kiko. I just think that having this discussion at the 
committee, subcommittee, might give a little telegraph that we 
are interested in these kind of things. And so we will see. It 
is not like they are being difficult. I just think they are 
being----
    Mr. Ryan. Well, anything we can do to help kind of cut 
through and expedite this.
    Mr. Kiko. Right. And we can engage you with that.
    Mr. Ryan. Okay. Great.
    Some of what the private sector companies do--and you hear 
about all of them, a lot of the tech companies, but Scotts 
Miracle-Gro and Target, like, they have these very, very 
cutting-edge wellness programs. And some of what they do is 
they literally have a rebate at the end of the year, that they 
pay back if you are working out 3 days a week or whatever the 
case may be. Every program is a little bit different.
    But have we explored anything along those lines of maybe 
opportunities for us to help staff who are getting healthy who 
will bend the cost curve for us, to reward that effort a little 
bit?
    Mr. Kiko. I haven't looked into it, but I am going to look 
into it. We have had some internal discussions about that. 
There may be some impediments with using funds to do that. So 
you might have to work around that.
    But we could at least get some information together on some 
of these things to make the case, because just on the wellness, 
the wellness thing has moved from wellness to well-being. You 
know what I mean? It started out with just cost-cutting 
measures so you could reduce benefits.
    But what has sort of happened in the industry is that they 
are really looking at the well-being of the employee, even in 
their personal life, everywhere. Because if everything is sort 
of decent all the way across, they are going to be a better 
worker and they are going to be more productive and all those 
other kind of things.
    So the discussions that I have had with the Wellness 
Office, I think it is now called the Well-Being Office, but I 
think that we are trying to look at those kind of things, too, 
so people up here can have a better experience. You just don't 
focus on what is going on here. Does that make sense?
    Mr. Ryan. Totally, yes. That is great.
    Paul, do you guys have anything going on within the 
Sergeant at Arms office or----
    Mr. Irving. Yes. As a matter of fact, last month I sent a 
notice out to all my employees reminding them of their value to 
the office and how they many times forget to take time for 
themselves and have directed them to the Wellness Center and to 
all the resources that are available to them.
    And we had a Capitol Police board meeting, as a matter of 
fact, last month and also brought this up. The Chief was 
sending a message out to his troops, and he was going to get 
back to the police board and report in on the status of his 
efforts in this endeavor, because we all know that, as you 
indicated, Mr. Chairman, the benefits, you just can't put a 
price onto well-being. So thank you for your support on that.
    Mr. Ryan. You get real unhealthy real quick around here, 
not that any of us would know about that.
    Ms. Johnson, do you have anything going on?
    Ms. Johnson. Well, as you know, we started off this year, 
we kicked off with hearing from you. And you met, we had a 
Clerk-wide meeting, and you talked to us about mindfulness and 
the importance of meditation and even if you take 10, 15 
minutes out of your day to just do breathing exercises.
    And I have followed up on that. We have certain units who 
are on a daily basis spending 20 minutes a day. They have 
downloaded a tape from the Well-Being Center, and sitting in a 
room and listening to just some meditation exercises. Again, 
only 20 minutes a day, and they find that already it is making 
a difference.
    Mr. Ryan. That is great. I am assuming it is not C-SPAN 
downloaded for them. That will get your blood pressure up, not 
down, right?
    Ms. Herrera Beutler, do you have any?
    Ms. Herrera Beutler. I had a couple questions.
    I apologize. I didn't see this in here, Mr. Kiko, in your 
testimony, and I am sure it wouldn't be in there, but give me 
the number again of employees in your care.
    Mr. Kiko. Seven hundred, approximately.
    Ms. Herrera Beutler. And within that, I saw in your 
testimony a number of initiatives. You know, it seems like 
customer service focused is kind of where you are taking folks, 
and a lot of different initiatives within that.
    How many different--so offices, I think is how it was put 
out in your testimony, office of--so we are talking about where 
to send people, a one-stop shop for Members.
    Mr. Kiko. What we are trying to do is we are trying to 
send----
    Ms. Herrera Beutler. Everybody, like, they will get the 
same information regardless of who they are calling, and there 
is kind of like a----
    Mr. Kiko. The Customer Experience Center is a new office 
that was set up to basically operate as sort of a one-stop 
shop. And we have hired, each office now has a customer 
advocate that they talk to. They circulate around to the 
different offices.
    Because one of the things I noticed when I came, and this 
was something that we looked at, is CAO provided 131 different 
services. Well, if you are in an office and you are trying to 
figure out what service, who do you call? So we consolidated, 
tried to consolidate that into 31 and now we have this Customer 
Experience Center.
    Ms. Herrera Beutler. Okay, that was my next question, was 
so you would say 31 different offices within that, or services?
    Mr. Kiko. It is not 31 offices. We just tried to funnel 
everything into--it is not offices, but services. We tried to 
simplify it. Sometimes it has to be simplified. That was our 
first start.
    The next step is to try to--if you call a number, you will 
get somebody on the phone and they will automatically connect 
you on the line to the service that you want.
    Ms. Herrera Beutler. That you are seeking. Okay, great.
    Mr. Kiko. Right. You won't have to talk to somebody and 
then they send it over and sometimes it works and sometimes it 
doesn't. That is what I am trying to do.
    Ms. Herrera Beutler. I appreciate your comments about with 
regard to budget, trying to bring some solutions to the table 
that will save money.
    And I assume in your request--you cited the example about 
you can save $2 million. I assume you have other solutions like 
that that are in the portfolio that were part of your request.
    Mr. Kiko. Yes. Depending upon what our budget number is, we 
will make things work. We might have to push some things off 
and I may have to look at some things that aren't being 
utilized that much. Maybe we need not to do them, because they 
are taking up too much money or something. Those are the things 
that we will have to do.
    Ms. Herrera Beutler. I think a 24 percent increase, you 
hear certain things. We spoke about mandatory adjustments in 
salary, like no choice, like we, when Congress in its 
brilliance did, and now you are trying to figure out how to 
fulfill that obligation. Those things we have to take care of.
    I was just curious about other cost-saving measures that 
you are like, hey, we could do this and that would save 2 
million bucks, which is what I just heard you say.
    Mr. Kiko. Well, I mean, we didn't--we went through a 
savings exercise in the last year. We wrung some efficiencies 
out and we are going to wring some more out.
    The request that I submitted, and as I was telling you in 
the office last week, the request is what everybody thought we 
needed in the CAO, the chiefs, the ones that run these 
organizations.
    And I just made a decision that I was going to submit their 
request to the committee, you know what I mean, and that was 
going to be my budget, rather than trying to cut it back 
myself. And then we would engage in the discussion with the 
Members as to what they think the priorities are.
    So, I mean, but we can always--we will always meet--
whatever those priorities are, we will meet them. But the one 
thing I don't want to get behind on is--and we sort of put off 
some things on these technology upgrades that we need for the 
Finance Office and we need for some of these IT. They support 
people getting paid. They support the processing of the 
vouchers. They support all those things. Some of it now that we 
are in the cloud, it is better for cybersecurity. You know what 
I mean?
    And we can, a lot of these things, we can do--and the big 
providers can help us with--it makes it easier for 
cybersecurity, because they are already upgrading everything. 
They won't have to do as many. If it is on premise, it is 
harder. But that is sort of what I decided to do.
    But I think if you are really going to focus on--what I am 
really going to do if I have to, I am going to focus on what do 
we need. I don't want to fall behind on these technology 
upgrades.
    Ms. Herrera Beutler. Absolutely.
    Mr. Kiko. If you fall behind, then it is twice as much to 
come back.
    Ms. Herrera Beutler. So just in making sure I understand 
then, so the budget that you submitted was from kind of your 
chiefs, what they penciled that they would like to have in this 
next go-around.
    Mr. Kiko. Right.
    Ms. Herrera Beutler. So we are going to need to know what 
is--however that happens.
    Mr. Kiko. We will have to have a discussion as to what we 
really need and what we can put off.
    Ms. Herrera Beutler. And that is not necessarily reflected 
in the budget request?
    Mr. Kiko. What is that?
    Ms. Herrera Beutler. And that is not necessarily reflected 
in the budget request?
    Mr. Kiko. No. I mean, I think that there are some areas 
that are new. How much you want to spend on modernization. I 
have a $10 million plug number in for modernization, you know 
what I mean, and I have some other dollars in there for some 
things that people thought they might want to do, you know what 
I mean? I have had discussions with other committees on maybe 
some bulk purchasing ideas and stuff that would save money 
overall in the leg branch budget, but not necessarily----
    Ms. Herrera Beutler. In your budget, yeah.
    Mr. Kiko. So there are ways to do that. I am trying to 
figure out ways to take some of the burden off the Member 
offices, the MRAs and stuff like that.
    Ms. Herrera Beutler. Although we did just plus up the MRA. 
Not that I want to waste money. I like the bulk purchasing 
thing. There are things we should be doing to be efficient and 
effective, because it is not our money, essentially.
    Mr. Kiko. I agree.
    Ms. Herrera Beutler. And I am interested to hear what the 
Modernization Committee members speak to us about. You know, 
both of--knowing Derek Kilmer and knowing Tom Graves, they are 
very serious Members. They are not going to be coming to us 
with Unicorn Pegasus wish list. That is quoting my daughter. 
Everything is about Unicorn Pegasus right now.
    Mr. Ryan. The fact that I knew what you were talking about 
is unbelievable.
    Ms. Herrera Beutler. Right. But they are not going to do 
that. I know those Members are serious Members. And what they 
have been looking through, there are a number of things in 
there that are designed to make us more accountable, more 
effective, more efficient as an institution, recognizing we are 
all here doing the same thing. We are all here just trying to 
serve the American people.
    Mr. Kiko. Well, one of the things they had mentioned, and 
we were looking at this at the same time, is the Congressional 
Management System that each office uses to deal with 
constituents. I think it is a little clunky. And there is a 
recommendation that it be upgraded----
    Ms. Herrera Beutler. The email system?
    Mr. Kiko. What is that?
    Ms. Herrera Beutler. The email system?
    Mr. Kiko. No, not the email system. Well, the----
    Ms. Herrera Beutler. When they want to do a meeting and 
they put it into the----
    Mr. Kiko. They put it into the system or you are 
communicating back with constituents, you are doing casework. 
There is a lot of----
    Ms. Herrera Beutler. You mean like IQ?
    Mr. Kiko. Yes, that is one of the contracts.
    Ms. Herrera Beutler. Or Fire----
    Mr. Kiko. Fireside.
    Ms. Herrera Beutler. Fireside, yes.
    Mr. Kiko. It is just that--that is a recommendation, is to 
improve that. So I think that that is something that maybe 
should be looked at, because that was a recommendation. And it 
may or may not amount to a lot of money, but it may----
    Mr. Ryan. That was. That is in there.
    Mr. Kiko. I think it is in there.
    Right?
    Yes. Constituent engagement is what it is----
    Mr. Ryan. Okay.
    Ms. Herrera Beutler. We are all about constituent 
engagement.
    Mr. Kiko. Yes.
    Mr. Ryan. That is what we do, the lifeblood.
    Ms. Herrera Beutler. That is what we do.
    Thank you for that.
    One final. I think this would have been--it might have been 
Clerk. I wrote it down. This is a bit of an aside, but I 
assume--I think this might be under your request with regard to 
asset management.
    Obviously, we have struggled to maintain accurate 
inventories, partially because--and I observed this myself when 
you just walk down, like, the middle of a hallway and there is 
just stuff out there. And somebody has written a note on it: 
Please don't take this, this is Chairman Tim Ryan's favorite 
chair. But lo and behold, that chair may not be there the next 
time he comes.
    Mr. Ryan. How did you know that?
    Ms. Herrera Beutler. I had nothing to do with that.
    However, I have watched things like the ``Antiques 
Roadshow'' and seen a congressional desk on there. Granted, 
this was an old one. I don't know who sniped that. But it just 
got me thinking about the seriousness of that. It feels very 
loose in how we do it.
    And then you were talking about bringing someone on board 
versus having people who move furniture, versus having them be 
a contractor, just in terms of the modernization there may save 
money and it doesn't seem----
    Mr. Kiko. We have been taking a very hard look at asset 
management. We have been making a lot of changes. I know there 
are a lot of offices that get sometimes very frustrated at the 
self-inventory and things are missing.
    So what we have done is we are going to be moving on to a 
risk management kind of situation, what is in a Member's office 
that is the most risk, whether it is data, whether it is on a 
phone. What do you really need to track and what you don't need 
to track.
    Usually, though, we know where a lot of furniture is and we 
keep track of it fairly well. And a lot of times during a 
transition it takes time to catch up with things, too, you know 
what I mean, because offices are moving and there are Members 
that haven't run for reelection, so we have to figure that out.
    On asset management, we are making a lot of changes and we 
are focusing on stuff that is high-risk, like, shouldn't you 
keep track of your computer, you know what I mean? But we have 
systems now in some of the stuff where as soon as it comes into 
the House we can basically wand it. That is not what the real 
term is, but we can track everything----
    Ms. Herrera Beutler. Bar code.
    Mr. Kiko. Yeah, electronically.
    But I will look at that a little bit more.
    Ms. Herrera Beutler. Thank you.
    I yield back.
    Mr. Ryan. Well, thank you. You all are phenomenal. And, 
please, when you go back to the offices thank your teams and 
staffs. We know it is a tough business these days, but just 
sitting here over the last couple hours listening to all of 
you, we are in really good hands. We are very thankful.
    We are going to continue to support you. I have been trying 
to get out and about and see all of the people who work for 
you. And it has just been an amazing process for me, too, to 
see who is stitching the chair together and who is fixing the 
desks and the tables and who is moving it and who is cleaning 
the office and all of this.
    There is a huge operation here that makes our government 
work, and you all are leading that effort. So we are very 
thankful.
    You know, I have told you each at least a few times it is 
going to be a tough year. I mean, I think it is terrible. Ms. 
Herrera Beutler, you missed my opening statement, which was 
riveting, and I can give it to you later.
    Ms. Herrera Beutler. I will read it.
    Mr. Ryan. It was enacted in fiscal year 2011, between 2011 
and 2020 there was only a $100 million increase for leg branch, 
which is all of the challenges and all of the things that we 
have to deal with are not being addressed. And we are going to 
work really hard to get you as much as we can, but just know 
that it is tough and we will sit down with you to figure out 
what the priorities are as well.
    So thank you. Appreciate it. God bless.
    This hearing is adjourned.

                                          Wednesday, March 4, 2020.

                              MEMBERS' DAY

                       Chairman Opening Statement

    Mr. Ryan. We are going call the hearing to order.
    It is always an important day for us here, Congressman 
Graves, as you know, from being the chair of this committee. 
This subcommittee is the landlord of Congress. It is necessary 
for us to hear from our tenants about shortfalls in services 
that they see and hear their suggestions about how the 
institution could be more effective in serving our 
constituents. I anticipate that we will hear lots of 
meritorious ideas today.
    I will just issue what is becoming my standard warning. The 
domestic budget caps are almost flat this year, and any room 
has already been eaten up by the veterans' advance funding. We 
will certainly do what we can, but it is going to be a tough 
year.
    I am pleased to recognize two fellow appropriators as our 
first witnesses for Member Day, Derek Kilmer and Tom Graves. 
They have been putting their heart and soul into the work of 
the Select Committee on the Modernization of Congress. 
Gentlemen, we will be pleased to hear your oral remarks and we 
will put your full statements into the record.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                                WITNESS

HON. DEREK KILMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Kilmer. Thank you, Chairman Ryan and Members of the 
committee. Thank you for hosting this Member Day hearing. 
Ensuring that the House is equipped to uphold its Article I 
responsibilities is important and challenging, and I thank you 
for your leadership.
    I am here today to talk about the work of the Select 
Committee on the Modernization of Congress, which I chair 
alongside Vice Chair Tom Graves. We work as partners, as do our 
committee members, and I have been incredibly impressed and 
encouraged by the collaboration on the Select Committee. We are 
proving that it is possible for Members from both sides of the 
aisle to sit down together and engage in tough conversations, 
listen and learn from one another, and ultimately find some 
bipartisan solutions to the challenges that we face.
    The Select Committee's guiding principle is to make 
Congress work better for the American people. That is a simple 
but profound goal, and it guides all of our work. It helps us 
identify institutional problems and develop helpful solutions. 
So far, the Select Committee has unanimously passed 45 
recommendations to improve the way that Congress works.
    We do not have legislative authority but are introducing 
our recommendations as legislation to ensure they actually get 
implemented down the road. H. Res. 756, which contains our 
first two sets of recommendations, was introduced in December 
and we are expecting floor action on it soon.
    Today, Vice Chair Graves and I want to highlight some of 
the Select Committee's recommendations that we think the Leg 
Branch Subcommittee should fund. Investing in these 
recommendations would improve the efficiency and effectiveness 
of the legislative branch so that we can better serve the 
American people.
    Select Committee Members believe that Congress is stronger 
when Members find ways to work together to solve problems, and 
civility is key to making Congress a more productive 
institution. In order to encourage more bipartisan work at the 
committee level, the Select Committee requests an allotment of 
appropriated funds to committees for the sole purpose of 
establishing bipartisan briefings, trainings, and retreats. 
This would promote productive engagement across the aisle and 
encourage better policymaking.
    The Select Committee has and will continue to look at 
congressional staff recruitment, retention, and diversity 
issues. Staff are the backbone of this institution, and 
Congress needs to do more to attract and hold on to the best 
and brightest. Increased funding for intern pay, including 
interns working in district offices, would help open the doors 
for those who can't afford to work for free, while bolstering a 
pipeline of future potential staff. Increased funding for staff 
development and training programs would help prepare and 
broaden the skill sets of staff who are often expected to do 
multiple jobs or cover multiple policy issues.
    The Select Committee also encourages the subcommittee to 
support the Chief Administrative Officer in establishing a much 
needed centralized human resources office. And we encourage the 
subcommittee to check in regularly with the Office of Diversity 
and Inclusion to see what support they need to be successful.
    This year, we celebrate the 30th anniversary of the signing 
of the Americans With Disabilities Act. While much progress has 
been made, there is still a lot of work to do to ensure 
Americans with disabilities do not face discrimination. The 
Select Committee recommends investing in consistent audio and 
video recording of House hearings, as well as funding to impart 
ADA-compliant practices in all committees and floor 
proceedings.
    The Select Committee has also sought ways to improve 
efficiency through technology. We recommend updating House 
procedures to allow Members to electronically add or remove 
their names from bills and encourage the subcommittee to fund 
costs associated with modernizing these procedures. We also 
encourage the subcommittee to support the Committee on House 
Administration and the Franking Commission as they update and 
develop social media guidelines for Members.
    Making Congress work better for the American people is a 
worthwhile investment. The Select Committee sees value in 
modernizing this institution so that we are not relying on 
outdated processes and technologies to address 21st century 
problems. But modernizing doesn't always mean spending. The 
Select Committee has also recommended streamlining purchases 
across the House and Senate and encouraging House-wide bulk 
purchasing of goods and services to cut back on waste and 
inefficiency.
    On behalf of the Select Committee on Modernization, I 
appreciate your consideration of these requests, and I am happy 
to provide additional information to support your work.
    So thank you for the opportunity to speak before the 
subcommittee.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Mr. Graves.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                                 WITNESS

 HON. TOM GRAVES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
     Mr. Graves. Thank you, Mr. Chairman, and delighted to join 
you and the committee. And this is a great committee that you 
chair.
     Mr. Ryan. Good to have you back.
     Mr. Graves. It is good to be back. A very important 
committee, and we appreciate the partnership that we have with 
this committee to make Congress work and be more effective and 
efficient on behalf of the American people.
     I want to thank Chairman Kilmer for his good work that he 
has done to make this truly a bipartisan team. I think probably 
30 percent of our committee is in this room right now, because 
Mr. Davis came in just a moment ago. We have an amazing, 
amazing committee.
     But the chairman highlighted the way that we have worked 
together to get the job done, and I want to commend him for 
leading us in an environment that has been really bipartisan 
and created a lot of collaboration. It is through his 
commitment to success and thinking outside of the box that we 
have been able to break the mold and get things done.
     When the Select Committee was first started, we chose to 
work together, he and I and all the committee members, to 
combine our resources basically as one team, instead of 
separating the staff and office by party lines. Thanks to the 
chairman, this unique opportunity has created a tremendous bond 
of trust and collaboration unlike anything I have seen in my 
tenure here in Congress.
     As he shared with you, our committee has passed 45 unique 
recommendations, and we know we still have a lot of work yet to 
do. But every recommendation we make aims to strengthen the 
capacity of the House so that we can better serve all Americans 
and our constituents. Our goal has been very simple. We set it 
out from early on in a little retreat that we had, and that was 
to make Congress work better for the American people.
     I would like to build on the recommendations the chairman 
shared with you and the committee here and would encourage your 
subcommittee to invest in the following things. This would be 
sort of our ask, I suppose, for the committee here.
     Our first round of recommendations last year focused on 
boosting transparency and accountability in the House. We 
recommended creating a centralized electronic hub that would 
list all Federal agency and program reauthorization dates by 
committee. As we have four appropriators sitting at this table, 
I think we all understand how important that is.
     We also recommended creating a centralized hub of 
committee votes so that the American people could easily see 
how their Members whom they have elected are voting in 
committee. We urge the subcommittee to invest in the creation 
of these hubs so that the American people can have a one-click 
access to our work here in Congress. These systems would allow 
information sharing to be so much easier and faster.
     It is also important that we finalize funding for a new 
system that allows the public to easily track how amendments 
change bills and how bills ultimately change current law. It is 
a very difficult process right now, but coming from general 
assemblies, I think we all know there are better ways in which 
we can evaluate how changes in policy or proposals ultimately 
change law. This would help both Members and the American 
people better understand these changes and what is being made 
to existing law, and will allow basically for more efficient 
policymaking and debate.
     Finally, we urge supporting one standard digital format to 
be used throughout the entire legislative process. The House 
currently uses four different software formats for drafting 
legislation, which is really inefficient and very costly. Using 
one standardized format throughout the process would make it a 
very more efficient and open system for everyone.
     Now, while exploring ways to improve transparency and 
access, we heard from many of our colleagues and staff about 
the need for better processes and training here in the House of 
Representatives. One of the things that we have championed is 
continued learning and professional development for Members of 
Congress. Every day that we are here, we should be asking the 
question and learning about ideas and issues that matter most 
to our constituents, but we also should be best prepared and 
best trained to manage our offices and better represent our 
districts and better communicate. So we are urging the 
committee to consider funding a Member training and leadership 
development course.
     Continued learning is an important piece of our jobs here 
in Congress. It is also important that Members receive 
cybersecurity training as well. Congressional staff receive 
annual cybersecurity training. It is mandatory. We think it is 
important also that Members are kept up to date and aware of 
the latest cyber threats and practices.
     We have also recommended giving new Members the option to 
hire and pay one staffer during the transition process of being 
a Member-elect to being a sworn-in Member. So we urge the 
subcommittee to consider providing funds for these transitional 
staff or transitional aides, which would bring the House in 
line with current Senate practice and also encourage staff 
retention.
     As we continue to work throughout the remainder of this 
year, no idea is too big, no idea is too small, and we 
encourage you as a committee and other Members to share their 
ideas with reform with us, and I think together that we are 
giving the House a better roadmap for a brighter future in the 
days ahead.
     So thank you, Mr. Chairman, for having us today.
     [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

     Mr. Ryan. Mr. Newhouse, do you have any comments, 
questions?
     Mr. Newhouse. Thank you, Mr. Chairman.
     I serve on the Select Committee with these two fine 
gentlemen, and so I don't really have any questions. I just 
want to underscore, I think what both of them mentioned was 
truly the bipartisan nature of the committee, and I think it 
was very productive because of that, and a lot of that credit 
goes to both of these two men. And Mr. Kilmer leading the 
committee with Mr. Graves provided us a great example of how 
this place can work.
     So I just wanted to underscore that. And any success that 
we have as a committee should be given a lot of credit to these 
people for making it happen in the way that they have conducted 
the meetings. So I don't really have any questions, but as a 
member of this committee, pledge my full support to all of the 
reform ideas that the committee comes up with.
     Mr. Ryan. This is really great. I mean, I think from the 
very beginning when you-all started talking about this, it 
seemed like a phenomenal idea and really an opportunity just to 
start getting us all talking with each other. So I think it is 
very, very valuable.
     I love the idea of Member leadership training. You know, 
we think we don't need it but, you know, we do. And the idea of 
taking care of staffers and everything else. We had Phil Kiko 
in here yesterday. We had the Clerk in here yesterday. And I 
think there is a lot of interest in trying to figure out how to 
do this, get the cost estimates for all this, and then we will 
prioritize. Like you said, there is a lot of things that don't 
necessarily need a whole lot of money.
     And, I think Phil is very interested in trying to make 
this work. In his request, he asked for enough money, for $10 
million to help--I don't think he is going to get $10 million 
but he didn't really even know what he needed, but he is teed 
up and ready to try to help.
     You know, just so you guys know and I think, you know, you 
will know this, Congressman, is that at the enacted level for 
House accounts in the leg branch in 2011 was $1.3 billion.
     Mr. Ryan. And in 2020, it was $1.4 billion. So it was only 
a hundred million dollar increase in all of that time. And so 
this subcommittee, for a variety of reasons, has not seen the 
kind of increase that we would need really to handle some of 
the bigger stuff when you are talking about staffing and all 
that.
     And then we are also trying to explore, and maybe as you 
guys move forward, how much of this stuff that we do in our MRA 
can we move to the House Administration, can further centralize 
that and maybe free up some MRA dollars for us to do other 
things.
     With the Member training, would that be out of our MRA? 
Did you guys think that through of how we would pay for that?
     Mr. Kilmer. I think our thinking was that it would be a 
central feature. When I served in the State legislature and 
became a committee chair, National Conference of State 
Legislatures gave you a ``how to be a good committee chair'' 
type of thing. Those sorts of resources aren't really available 
in this environment, and they probably should be.
    You know, helping new Members understand in real time the 
appropriations process. I think we have seen in recent weeks, 
folks find this somewhat opaque, right? So being sure there is 
ongoing training for people to both be better managers of their 
own offices and to better navigate this process I think makes 
sense as a central feature.
     Mr. Ryan. Anything else you guys want to comment on that 
you may have forgotten?
     Mr. Kilmer. We will send you a letter with a lot more 
detail. We just kind of wanted to hit the high points.
     Mr. Ryan. Well, we are glad. Thank you. Appreciate it. We 
will continue to try to amplify it, too, and let other Members 
know what is happening.
     All right. Thanks, guys.
     Mr. Kilmer. Thank you.
     Mr. Ryan. We are probably going to have to recess. So 
let's go vote, and then we will come back.
     The committee is in recess.
     [Recess.]
     Mr. Ryan. Calling the committee back to order.
     We have the pleasure of having testimony from the 
distinguished gentleman from Illinois and a very good friend of 
ours, Mr. Davis.
     Mr. Davis.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                                 WITNESS

 HON. RODNEY DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
     Mr. Davis. Thank you very much, Chairman Ryan, Ranking 
Member.
     Chairman Ryan, Ranking Member Herrera Beutler, thank you 
for giving me the opportunity to testify before you today.
     There are many efforts underway, as you heard from the 
last witnesses, Chairman Kilmer and Vice Chair Graves. There 
are many efforts to modernize Congress. The work that both of 
those gentlemen are doing in the Modernization Committee has 
very much mainstreamed some of these conversations.
     Just yesterday at the Rules Committee, Chairman McGovern 
and Ranking Member Cole held a hearing to examine ways to 
strengthen the legislative branch. I have also directed my team 
on the House Administration Committee to make it a top priority 
to examine the things within our jurisdiction that can improve 
the way the House functions.
     For over a quarter of a century in a worthy effort to save 
taxpayer money and retain a small but effective government, the 
House has severely limited our own capacity, handicapping our 
ability to effectively govern and be a coequal branch of 
government.
     In my over 20 years either working first as a staffer or 
being a Member of Congress, congressional reform has become one 
of my greatest priorities in both my roles as the ranking 
member on the Committee on House Administration and as a member 
of the bipartisan Select Committee on the Modernization of 
Congress.
     Today more than ever, Members feel the repercussions of a 
growing lack of resources in all aspects of our job, from not 
being able to hire and retain the few talented staff we are 
allowed to keep, to not being able to adopt modern technologies 
to best serve our constituents, and to not being able to 
conduct effective oversight of the expansive executive branch.
     When you review our budgets over the last decade, the 
numbers illustrate the uphill battle we are fighting in order 
to keep our constitutional authorities. Out of the entire 
Federal discretionary budget that Congress oversees and 
authorizes, less than 0.4 percent of it supports the 
legislative branch. In fiscal years 2010 to 2020, Member 
Representational Allowances have been cut by $45 million, and 
overall committee funding has been cut by over $62.9 million.
     Yet during the same 10 years, we have approved the 
following budget increases: 113 percent, a $10.7 million 
increase, to the Sergeant at Arms; a 62.6 percent increase, a 
$279 million increase, for the Library of Congress; a 21.7 
percent, $9.78 million increase, for the Congressional Budget 
Office; and a 17.4 percent, a $22.8 million increase, for the 
CAO. And the list goes on.
     That is not to take away from our support agencies whose 
work is vital to supporting Congress, but we have a 
responsibility to ensure that we are getting a return on those 
investments that help address these institutional capacity 
challenges.
     As the ranking member, I want to work with the 
subcommittee to move the ball forward on many of the 50 
bipartisan recommendations that have passed the Modernization 
Committee and have been referred to us. I want to quickly 
highlight a few of them.
     First, we have to focus on staff. We know how mission 
critical our staff are to the institution's health. To retain 
competent and efficient staff, we must provide modern benefits 
that are family friendly, including a one-stop shop human 
resource office. Such an entity could help our institution 
adopt even more staff-centric policies, such as moving to 
bimonthly pay, raising office staff capacity to create more 
professional development opportunities, and create more of a 
worklife balance.
     And it is an honor for me to sit in front of two former 
staffers, like myself, who understand what that means to be a 
staffer and how important those roles are.
     Second, we need to update Congress' technology. Since 
sequestration, we have appropriated an increase of over 35 
percent to the Chief Administrative Office to modernize many 
aspects of House technology. While we have witnessed 
improvements, our offices are still struggling to keep up with 
the same innovative technology that is being used in the 
private sector across the globe.
     We should open the door to more outside vendors, allow 
Members to beta test new technology, and modernize how Congress 
serves its customers from the inside out. Instead of 
reinventing the wheel, we can innovate simply by buying what is 
already in the marketplace and giving Members the resources to 
invest in new technology.
     Thank you again, Chairman Ryan, Ranking Member Herrera 
Beutler, and your leg branch approps teams for your continued 
support of the Committee on House Administration and the Select 
Committee on the Modernization of Congress and our legislative 
branch as a whole. I look forward to working with each of you.
     [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

     Mr. Ryan. Thank you, Congressman.
     Representative Herrera Beutler, do you have any questions 
or comments?
     Ms. Herrera Beutler. I appreciate--I definitely appreciate 
your--I completely believe the reason you are doing this is to 
make this a more functional, effective, efficient institution, 
not just for the staff here, because we have all been staff, 
but for the people we serve at home. Like, that is the mission, 
that is the purpose, and I really appreciate the amount of time 
and thought you have put into combing through, and your staff, 
some of the more antiquated ways we do things and trying to 
figure out how we can better serve folks with their 
institution. So thank you.
     Mr. Davis. Thank you. Thank you, Chairman.
     Mr. Ryan. I agree. And I think you hit on--how long have 
you been here now? How long have you been in Congress?
     Mr. Davis. I am in my eighth year, fourth term.
     Mr. Ryan. So, those of us who have been here a little bit, 
we have watched the slippage of and the disinvestment in the 
legislative branch. And whether you are talking about, de-
linking pay between us and the judges, executive branch people 
getting paid more, congressionally directed spending of how we, 
have just given away the store. And part of it is not having, 
competing for staff, increasing quality of life, childcare, all 
the things we try to deal with on your committee and our 
committee.
     So I am really grateful that you guys have laid this out. 
And I think you were here earlier when I was talking to the 
chair and the vice chair. You mentioned it in the different 
statistic, but the same thing. In 2011, $1.3 billion for House 
accounts in the leg branch; 10 years later, 9 years later, 
enacted in 2020, $1.4 billion.
     A hundred million dollars. And, you look at the staff that 
we had when we got here, and our district staff, and, I mean, 
it is like there are more veterans who need help with their 
casework. There are more seniors as the society gets older, 
more issues around immigration. And they come to us and look 
for us for help, and, I am sure you are understaffed.
     Mr. Davis. I was a former district staffer, dealing face 
to face with many of those constituent requests. Absolutely.
     Mr. Ryan. Yeah. So, anyway, appreciate you. Thank you for 
doing this.
     Mr. Davis. Thank you.
     Mr. Ryan. And what we want to do is, work with Phil Kiko, 
the Clerk, everybody who would be affected by some of these, 
prioritize them, figure out how much each of them costs. You 
know, we are talking about the stenography and the close 
captioned, tremendous costs that we didn't know. We weren't 
sure how much, and the Clerk came in yesterday and I can't 
remember the exact number but it was significant, if we want to 
move to committees and subcommittees.
     So, anyway, prioritize, figure out how much it costs, and 
then figure out what we can do without money. And as I said, 
Mr. Kiko is teed up and ready to help any way he can. So, 
anyway, I appreciate all the time you guys have put into this.
     Mr. Davis. Oh, thank you.
     Mr. Ryan. Communicate to the rest of the committee how 
thankful we are.
     Mr. Davis. Thank you. We will. And I look forward to 
working with you, both of you, and your committee as we move 
those projects forward.
     Mr. Ryan. All right.
     We want to welcome Brian Fitzpatrick, Republican from 
Pennsylvania, and Jared Golden, a Democrat from Maine, who are 
talking to us today about Member pay. So you have the floor.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                                 WITNESS

 HON. BRIAN FITZPATRICK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
     Mr. Fitzpatrick. Thank you, Mr. Chairman and Ranking 
Member Herrera Beutler.
     A lot of people are coming here asking you for money. We 
are asking you not to spend money on something.
    Representative Golden and I took this up the end of last 
year. We believe it is of the utmost importance that the 
committee include language in the fiscal year 2021 
appropriations bill to block any consideration of a COLA 
adjustment, a cost of living adjustment, for Members of 
Congress.
     Last year, after a government shutdown that impacted all 
of our districts across the country, there were motions being 
made to add a cost of living adjustment and a pay raise. 
Myself, Representative Golden, and many others fought to make 
sure that nothing like that would happen. We all know we have a 
lot of problems in this country, border security, broken 
immigration system, healthcare costs that are rising, and 
Americans living paycheck to paycheck. And we think it is 
important when we have this significant credibility gap in our 
country between the American public and the institution of 
Congress that we, if for no other reason, send a message that 
we don't think it is appropriate that any pay raises occur 
during this tumultuous time.
     So with that, I will yield back to my colleague, 
Representative Golden.
     [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                      Wednesday, March 4, 2020.

                                 WITNESS

 HON. JARED GOLDEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MAINE
     Mr. Golden. I want to echo my colleague, Mr. Fitzpatrick, 
in thanking you both, Chairman Ryan and Ranking Member Herrera 
Beutler, for having us today to talk about this issue.
     Middle-of-the-road income for a household in my district 
is $48,000 a household. It is about a third of what a Member of 
Congress makes, and the people I represent wouldn't keep their 
jobs, let alone vote, to give themselves a raise, nor would 
they be considered for one, unless they got their job done. You 
know, my friend, Brian, here talked about some of the issues 
that occurred last year with the shutdown. I actually also 
sponsored a bill, working with Congressman Crenshaw, saying 
that we shouldn't be taking pay while veteran employees are, 
you know, put out on leave or being forced to come into work 
without pay. I think it is symbolic leadership of the utmost 
importance to the American people.
     I heard many times from my constituents that they are 
skeptical of Washington and suspicious of what they perceive to 
be its potential corrupting power. They believe many Members of 
Congress care more about their own pay than the pay of their 
own constituents. I had a constituent not too long ago in 
Piscataquis County, Maine, tell me that she thought I was doing 
a good job, she and her husband, but she wasn't sure she really 
wanted me to go back to Washington because she was concerned 
the place would corrupt me. I promised her right then and there 
that is not what this is about for me and that is not what is 
going to happen. Why? Because I know that representing my 
community in Congress is about public service, not about how 
big the paycheck is.
     Until Congress can demonstrate to the American people that 
it can work in a bipartisan way to solve real problems, I 
believe that including this language in the approps bill to 
block a proposed pay raise for Members of Congress is just the 
right thing to do. We have had three Members of Congress come 
before us talking about ways to improve the efficiency of the 
legislative branch.
     Mr. Chairman, I thought you made a great point about how 
our staff can do so much good work, help veterans and seniors 
with constituent service. You know, we need to be competitive 
on the legislative front in fighting for those good policies to 
fix those problems. So I would say if you are going to talk 
about increasing pay anywhere in the legislative side of 
things, let's go with the staff first.
     This is all for me based on a really simple lesson I 
learned in the Marines. When we were out at mealtime in an 
infantry unit, whether it was training or overseas, if a hot 
meal got brought out to the field, they always lined up by 
rank. Lowest ranking person would go first, highest ranking 
person would go last. If there wasn't enough chow to go around, 
the leaders didn't eat. It is a simple way that I think about 
the job here in Washington and why I am opposed to having any 
kind of discussion about pay raises for Members of Congress, no 
matter how well-intentioned.
     Until we put our constituents first, and if we are going 
to talk about legislative branch increases, let's think about 
the staff and the good quality people that we need so we can 
better serve our constituents.
     Mr. Ryan. I appreciate your comments.
     I appreciate you coming, and let's stay in touch. All 
right. Thank you. Appreciate it.

                                          Wednesday, March 4, 2020.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              --
--------


                       Chairman Opening Statement

     Mr. Ryan. We are pleased to welcome 10 members of the 
public who have come to share with us their suggestions on how 
to fund the legislative branch agencies within our bill and how 
to improve the operations of Congress. Their testimony will 
touch on a wide range of issues.
     Each witness has clearly devoted much time and analysis to 
their recommendations. We are impressed that we had to turn 
away more than half of the people who requested to testify. 
Maybe our subcommittee is not such a little deal after all.
     I will call each witness individually to the witness 
table. After your remarks, members may or may not pose 
questions to you. We will have a timer on the table. An orange 
light warns you when you are getting close to your 5-minute 
limit, but don't worry, I won't gavel you down in the middle of 
a sentence, but I may ask you to conclude at that point to be 
fair to the other witnesses who are waiting to speak.
     I will be here throughout the hearing. Other subcommittee 
Members may appear at various points if they can leave their 
other appropriations hearing. We have a ton of hearings going 
on today.
     But we are going to begin with Ms. Audrey Henson of the 
College to Congress organization.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                    CONTINUING TO DIVERSIFY CONGRESS

                                 WITNESS

 AUDREY HENSON, CHIEF EXECUTIVE OFFICER, COLLEGE TO CONGRESS
     Ms. Henson. Well, thank you for having me.
     Chairman Ryan, members of the staff, and the interns who 
helped prepare this, thank you so much for the opportunity to 
present our budget request for fiscal year 2021. I also wanted 
to give a special thank you to the subcommittee for their 
continued support of the bipartisan improvements that have been 
made to make Congress more efficient and effective.
     You just heard from your colleagues who serve on the 
Select Committee for Modernization, where our organization has 
not only submitted recommendations that have been accepted, we 
also funded their fall intern who helped make that possible. 
The Select Committee of Modernization is a current example of 
bipartisan productivity at its finest, and we are very proud to 
be championed by one of their members, Rep. William Timmons. 
Appropriations Chairwoman Nita Lowey and subcommittee members 
Katherine Clark and Dan Newhouse are also champions of ours.
     I am before you today to advocate for how we can continue 
to diversify Congress and make sure that their constituents are 
represented by the best and brightest in Washington, because 
the outcome of our work isn't just theoretical, it is 
impactful, and it is working.
     As you know from walking the halls of Congress, the staff 
doesn't always reflect the diversity of the constituent base 
Members are representing. In an effort to correct this, I 
founded College to Congress, a nonprofit on a mission to make 
Congress more inclusive and effective by recruiting, training, 
supporting, and placing low-income students from all across the 
Nation into internships here with their representatives in 
Washington.
    In the last 4 years, we have worked alongside 76 
Representatives and Senators to create pathways for students 
from disadvantaged, rural, and low-income backgrounds.
    My views on these issues are formed by my own experiences 
but amplified through the thousands of students we have engaged 
with across the country. Like 6.8 million students in college 
today, I was a Pell Grant recipient. I grew up in a mobile home 
in a small Texas town, and I had to take out student loans to 
afford my unpaid internship in Congress. I was also fortunate 
enough to then become an entry-level staffer here in the House.
    When I was an intern, though, I didn't meet a lot of people 
with socioeconomic backgrounds like mine. This meant, and 
unfortunately still means today, that Congress is lacking the 
perspectives, experiences, and ideas from the working classes 
of our Nation when they are legislating. I hope you hear their 
stories through my voice today. Their stories are the reason I 
founded College to Congress.
    All students who want to serve our Nation should have both 
the access and the opportunity to do so, and Members like you 
who work so tirelessly for your community should have access to 
these highly talented and passionate young people.
    I have come before you today to ask for the following three 
measures. As mentioned in our written testimony, we are 
requesting a new office dedicated to the training and 
professional development for standardized and formal onboarding 
of all incoming congressional interns and staff. Just as you 
went through new Member training where expectations, 
procedures, and best practices were shared, this opportunity 
does not yet exist for incoming interns and staff who are 
sometimes as young as 18.
    Secondly, we are requesting to expand the impact of the 
House Office of Diversity and Inclusion to help recruit, retain 
existing diverse staff by providing them an annual $250,000 to 
execute a community engagement strategy with external colleges, 
community colleges, and universities.
    Lastly, as I mentioned, we serve Pell Grant students, and 
they would benefit greatly from an expanded student loan 
repayment program. According to the National Postsecondary 
Student Aid Study, 90 percent of those who defaulted on their 
2016 student loans were Pell Grant recipients. We submitted 
proposed solutions in our written testimony to address this, 
and we look forward to working with you to determine the best 
course of action.
    Thank you again for this opportunity to testify. We hope 
you will consider College to Congress as both a partner and a 
resource in our shared goals of improving our democracy, 
modernizing Congress, and empowering the next generation of 
public servants. I look forward to any questions you have.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Thank you so much. Terrific job, and this is 
obviously very important, what you are doing. We have tried on 
this committee over the last couple of years to finally pay 
interns. I was an intern here, a long time ago.
    But it is an amazing experience, and so let's stay in 
touch. And I will just say this since everybody is here. In 
2011--I have said this seven times already today--but the House 
accounts budget was $1.3 billion and, enacted in 2020, it was 
$1.4 billion. So it was only a hundred million dollar increase 
over that entire time, and so that affects staff. And so we are 
just slowly trying to rebuild it and put some money in, as I 
said, for paid internships, which is already proving fruitful. 
A thousand or 2,000 bucks go a long way for somebody to help 
defer costs of living here in the summer. So you know all that.
    But, anyway, thank you so much for your leadership. I 
really appreciate it.
    Ms. Henson. And thank you for all the steps you have 
already taken to help these students.
    Mr. Ryan. All right. Next, from the American Association of 
Law Libraries, Michelle Cosby.
                              ----------                              

                                          Wednesday, March 4, 2020.

  FUNDING FOR THE GOVERNMENT PUBLISHING OFFICE AND LIBRARY OF CONGRESS


                                WITNESS

MICHELLE COSBY, PRESIDENT, AMERICAN ASSOCIATION OF LAW LIBRARIES
    Ms. Cosby. Chairman Ryan and members of the subcommittee, 
thank you for holding a public witness hearing on the 
Legislative Branch Appropriations for Fiscal Year 2021. I 
appreciate you giving me the opportunity to testify before you 
today. My testimony will focus on the need for adequate funding 
for the Government Publishing Office, GPO, and the Library of 
Congress.
    The American Association of Law Libraries, AALL, is the 
only national association with nearly 4,000 members dedicated 
to the legal information profession and its professionals. AALL 
was founded in 1906 on the premise that lawyers, judges, 
students, and the public need timely access to relevant legal 
information to make sound legal arguments and wise legal 
decisions.
    First, I would like to address the funding for GPO. GPO 
plays a critical role in disseminating, preserving, and 
providing public access to official, authentic Federal 
Government information in tangible and electric forms. More 
than 1,100 libraries participate in the FDLP, including 51 in 
Ohio and 19 in Washington. My own institution, the Temple 
University Beasley School of Law Library, just celebrated its 
40th year as a selective depository in 2019.
    AALL urges the subcommittee to provide full funding for 
GPO's fiscal year 2021 request. AALL has a particular interest 
in the $32 million request for the Public Information Programs 
account which will support the cost of providing Federal 
Government publications to the FDLP. This account also funds 
cataloging and indexing activities, digitization, and the 
expansion of partnerships with FDLP libraries across the 
country.
    AALL appreciates the subcommittee's prior investment in 
GPO's govinfo website, and we urge continued support for the 
development of additional content and new features to meet the 
needs of key stakeholders.
    Now, I would like to address the funding for the Library of 
Congress. The Library of Congress holds a vast collection of 
books, legal materials, recordings, and other unique resources. 
Housed within the Library of Congress, the Law Library of 
Congress offers access to an unparalleled collection of 
domestic, foreign, and international legal material, which I 
got a tour of yesterday.
    Thanks to the recent support of the subcommittee, the Law 
Library has been able to digitize a growing collection of 
public domain legal information, including the U.S. Serial Set 
and Spanish laws and statutes from the 15th through 19th 
centuries.
    AALL supports the $23 million request for the Law Library. 
This request includes the necessary funding for replacement of 
the Quad B, the third of four compact shelving units in the 
Library's James Madison Memorial Building subbasement that 
houses these materials. Replacement of these expired units will 
provide a safer workplace and ensure more timely access to the 
Law Library's collection.
    AALL also urges funding for the ongoing development of 
congress.gov, the official website for the Federal legislative 
information, an essential tool for all legal research.
    In conclusion, I would like to thank you for this 
opportunity to testify before the subcommittee for the fiscal 
year 2021's request of GPO and the Library of Congress. AALL 
urges you to approve full funding for these legislative branch 
agencies.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Thank you so much.
    One of the reasons we do these public hearings is we have 
hearings, meetings with the Library of Congress, with GPO, with 
the Clerk, but it is very important for us to hear how other 
people are interfacing with them. So we appreciate you coming 
in and sharing your story.
    Ms. Cosby. Thank you.
    Mr. Ryan. All right. Thank you so much.
    Next, independent consultant testifying on the DACA issues, 
Angel Silva, here with Representative Congressman Pete Aguilar, 
a member of the Appropriations Committee.
    So you are in good hands.
    Mr. Silva. Thank you.
    Mr. Ryan. Are you from his district?
    Mr. Silva. I am from California.
    Mr. Ryan. From California. Great. Well, welcome. Anxious to 
hear. This has been a very big issue. Obviously, the 
Congressman has been one of the big advocates, but we have been 
trying to deal on our side through the legislative branch with 
taking steps to help accommodate. So we appreciate you being 
here.
    Mr. Silva. I appreciate you having me here today.
                              ----------                              

                                          Wednesday, March 4, 2020.

          DACA (DEFERRED ACTION FOR CHILDHOOD ARRIVALS) ISSUES


                                WITNESS

ANGEL SILVA, INDEPENDENT CONSULTANT AND DACA RECIPIENT
    Mr. Silva. Chairman and members of the subcommittee, thank 
you for having me here today.
    I am grateful to be here to speak about my experience as a 
DACAmented, unafraid professional, and how section 704 under 
title VII, division A of the Consolidated Appropriations Act of 
2016 has for several years prohibited the legislative branch 
from compensating DACA recipients like myself as staffers in 
Congress. I found out about this policy while attempting to 
work on the Hill, and my experience is not unique.
    I started out my political engagement through my time in 
community college at Glendale College, where I was part of the 
California Dream Network, a group of immigrants and activists 
pushing for community-focused policies in California and 
nationwide. It was through the Network that I saw firsthand how 
legislative bodies, how the California State Assembly, and the 
halls of Congress could change people's lives.
    One major legislative victory, financial aid for qualifying 
nonresident students through the California Dream Act, made it 
possible for me to transfer to Cal State University Northridge, 
and graduate with a degree in journalism and political science.
    I remember the failure of the House to take on 
comprehensive immigration reform in 2013 as a key moment that 
pushed me to engage with the world beyond activism and enter 
civic service to Congress. It was through CSUN that I took on 
my first internship in D.C. in 2015, thanks to DACA. I remember 
seeing one of my good friends, who was also a DACA recipient, 
enter Capitol Hill through the Congressional Hispanic Caucus 
Institute internship program. Her success further crystalized 
this notion that even if we didn't come from privilege and our 
existence in this country was uncertain, our future wasn't, and 
that we could achieve what we set our minds to.
    She motivated me to follow in her footsteps, and in spring 
2017, I started the CHCI internship program myself as an intern 
in Representative Linda Sanchez' office. Through that office, I 
had the experience that I had been seeking since first becoming 
an activist, working with people who had the power to codify 
meaningful change nationwide. And actually, I wanted to extend 
that beyond my time as an intern and was thrilled to hear of 
the Senate Diversity Initiative from a CHCI alum. I reached out 
to explore my options on the Hill.
    I still remember meeting with Lorenzo Olvera, the director 
of the Initiative. I spoke about my activist background, about 
how I wanted to continue advocating for our communities beyond 
the activist circles. We also spoke about my status, since I 
wanted it to be transparent and I didn't think it would be an 
issue.
    I still remember the conversation that we had later on that 
day. I remember seeing a call come in later on that evening and 
feeling the full weight of my status and its limitations when I 
found out about section 704 and how it explicitly bars people 
like me from engaging in the most fundamental methods of public 
service. I didn't know how to react. How would you react if 
what you had been building up to for years was suddenly 
unreachable?
    I continued to explore the possibility of working on the 
Hill with Mr. Olvera, reaching out after hearing of 
Representative Pete Aguilar's efforts to remove this barrier. 
Then the news hit that the President had made the extremely 
damaging decision to rescind DACA, a choice whose fallout is 
still being settled in the courts today. Disillusioned, I let 
Mr. Olvera and his staff know that I was removing myself from 
consideration for future opportunities on the House or in the 
Senate. I focused my efforts instead on opening doors for our 
community to learn from Congress, working at CHCI, to open the 
door for others, just as the organization did for me.
    That was about 3 years ago. Since then, I have grown a 
great deal and learned a lot about the world in environments 
that weren't the Hill. I have had the opportunity to work 
within government, an impossible dream for undocumented folks 
like myself, in the Baltimore City Mayor's Office of Immigrant 
Affairs. I have had the opportunity to join an amazing group of 
individuals through the DREAM LEAD Institute, a project from 
the Hispanic Heritage Institute and Trinity University, that 
brought me and other 29 amazing immigrant advocates together.
    They all inspire me in one way or another, from the fellows 
pushing meaningful change in places like Texas and Kansas, to 
those making meaningful policy happen in New York, and 
supporting education in Rhode Island and Washington State. They 
all inspire me to do more, despite the barriers placed in front 
of us.
    As for the friend I mentioned earlier in my story, she 
continued interning for her Member of Congress in his district 
office in California after her internship through CHCI ended, 
this time without pay. When the office asked her to apply for a 
position in this district office, she asked if it was even 
possible, and they came across the same provision that I came 
across. She avoided applying entirely, and now works on social 
responsibility initiatives and advocacy with global clients at 
one of the most diverse firms in the United States.
    At the end of the day, these archaic rules restrict the 
potential of both Congress and of the upward mobility of our 
communities. The House of Representatives and the Senate both 
lose out on the incredible driven talent every time a DACA 
recipient finds their career path blocked in the House or in 
the Senate. The American people lose out on having staffers 
that understand the nuances of the lived experiences, which is 
crucial to creating and implementing effective policy.
    I hope that my journey and that of my friends helps shed 
light to what is lost when our dreams, like us, are deferred.
    I want to thank the subcommittee for your time, and I am 
more than happy to answer any questions you may have.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Angel, thank you. Thank you for coming. And there 
are a lot of us here that feel exactly the same way you do, and 
you have articulated why it is important for us to take this 
on.
    And here is the No. 1 champion in Congress for this issue, 
Congressman Aguilar. So we appreciate you being here. And, 
Congressman, take as much time as you want.
    Mr. Aguilar. Thank you, Mr. Chairman.
    I will keep this brief. I know you have got quite a docket 
of folks, but I did want to thank Angel for coming out. I 
wanted to thank Angel for his testimony, and I think it is 
important. I think the last paragraph that he mentioned that 
his situation isn't unique. The fact that he is here in front 
of you and that he is willing to do this speaks volumes, but 
for him and his friend and for dozens and hundreds of young 
people who have had this barrier, where you and I had 
opportunities to come to D.C., you on the Hill, me another 
place in town, we had opportunities, and that path would have 
been to be a full-time staff assistant or whatever that entry-
level position is for each office.
    And the fact that these young people have internships, they 
put in the time, they know a little bit about this place, they 
want to learn more, they want to be public servants, and they 
are prevented.
    So I wanted to thank you, Mr. Chairman, and the committee 
and this subcommittee for allowing our amendment last time. I 
know your advocacy in the four corners meetings. And when you 
meet with your Senate colleagues about these issues, you have 
been an advocate, and I greatly appreciate that.
    The entire Appropriations subcommittee, this was an 
amendment that Angel knows and that our guests know passed with 
bipartisan support. This is something that a lot of us agree 
on, and so we need to keep pushing. Just because the courts are 
working on DACA doesn't mean we shouldn't work on this issue, 
and so I appreciate Angel's testimony. I appreciate your 
advocacy and friendship on these issues and so many others.
    Mr. Ryan. You got it. Thank you.
    Angel, thank you. I don't know if you know this about the 
Congressman or not, but he is one of the stars of the 
Congressional Baseball Team.
    Mr. Silva. I think I have seen you play before.
    Mr. Aguilar. You don't get extra points for saying that. He 
is going to take care of you either way. Just don't ask him who 
is going to play shortstop.
    Mr. Ryan. Right. That is right. We have got a big 
competition.
    Mr. Ryan. All right. Very good. Well, thank you. Appreciate 
it.
    Thanks, Pete. All right.
    Mr. Taylor Swift, who is going to be testifying on behalf 
of Amelia Strauss from Demand Progress.
                              ----------                              

                                          Wednesday, March 4, 2020.

                      UNITED STATES CAPITOL POLICE


                                WITNESS

TAYLOR SWIFT, TESTIFYING ON BEHALF OF AMELIA STRAUSS, DEMAND PROGRESS
    Mr. Swift. Thank you.
    Chairman Ryan, staff of the subcommittee, thank you for the 
opportunity to be here today to testify. My name is Taylor 
Swift. I am a policy analyst for Demand Progress. We are a 
nonprofit advocacy organization, primarily focusing on 
strengthening Congress' ability to legislate and conduct 
oversight. I am here in place of my colleague, Amelia Strauss, 
who unfortunately could not be in attendance.
    We greatly appreciate the subcommittee's ongoing work to 
improve Congress, and we very much appreciate the significant 
reforms that you included in last year's appropriations bill, 
as well as in years prior. My testimony today concerns an 
important and sometimes overlooked agency within the 
legislative branch, the United States Capitol Police.
    Two weeks ago, the subcommittee heard testimony from 
Capitol Police. In fiscal year 2020, Congress appropriated 
Capitol Police $464.3 million, roughly 10 percent of the 
legislative branch discretionary funds. This year, Capitol 
Police has requested a budget of $516.7 million, which 
represents a significant 11.2 percent increase over the fiscal 
year 2020 enacted levels.
    It is critical to highlight that the percentage of the 
legislative branch discretionary funds appropriated to Capitol 
Police has grown substantially over the last 25 years. 
Adjusting for inflation, the legislative branch has increased 
its budget by roughly 27 percent over the last quarter century, 
from 3.98 billion to 5.05 billion. In that same timeframe, the 
Capitol Police budget has grown by 288 percent, from 119.5 
million to 464.3 million.
    It is important that the Capitol Police has adequate 
funding to carry out its critical mission of protecting 
Congress, including its lawmakers, employees, and visitors so 
that constitutionally mandated business can be carried out in a 
safe and open environment.
    With the police force the size of the Atlanta Police 
Department and the funds similar to the Austin Police 
Department, it is critical to better understand how the United 
States Capitol Police is deploying and using their resources.
    Responding to encouragement from Congress, the United 
States Capitol Police began posting weekly arrest summaries in 
December of 2018. Our organization has spent the last year 
examining and analyzing this arrest information, which is only 
published in a weekly PDF format. Our research based on the 
limited information that is available has led to some 
interesting findings. Almost half of the incidents reported 
occurred outside of the normal 9 to 6 business hours, and fewer 
than 20 percent of incidents occurred on the Capitol campus 
grounds.
    With these facts in mind, we are asking the Capitol Police 
to publish its arrest information online as a digital 
spreadsheet in a structured data format that allows you to 
track arrest records by date and time, arrest location, charges 
issued, the number of individuals arrested, case file numbers, 
and more. Publishing this data in a usable digital format is a 
standard practice within the legislative branch, and I urge 
this subcommittee to encourage the Capitol Police to adopt the 
same practice.
    I am happy to answer any questions, and thank you so much 
for your time.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Well, we appreciate you coming in and appreciate 
your advocacy here. It is important that we all keep an eye on 
what is happening here on Capitol Hill. So I thank you, Taylor, 
for coming in, and good luck to you.
    Mr. Swift. Thank you.
    Mr. Ryan. Our next witness is from the Director of 
Congressional Modernization, the Beeck Center for Social Impact 
and Innovation, Georgetown University, Lorelei Kelly.
    Thank you so much for being here. I look forward to your 
testimony. Thank you.
                              ----------                              

                                          Wednesday, March 4, 2020.

           SELECT COMMITTEE ON THE MODERNIZATION OF CONGRESS


                                WITNESS

LORELEI KELLY, DIRECTOR OF CONGRESSIONAL MODERNIZATION, BEECK CENTER 
    FOR SOCIAL IMPACT AND INNOVATION, GEORGETOWN UNIVERSITY
    Ms. Kelly. Chairman Ryan, thank you for the opportunity to 
testify today. My name is Lorelei Kelly, and I work on 
congressional modernization at the Beeck Center for Social 
Impact and Innovation at Georgetown. Our mission is to find and 
scale methods for positive social change. To that end, I am 
excited to share information about how the Select Committee on 
the Modernization of Congress is creating opportunities for 
civic innovation and building resilience in American democracy.
    This hearing has great timing. Just yesterday, we convened 
our first workshop on modernizing Congress, and it was standing 
room only. The Select Committee is vital for many reasons. Not 
only is it productive with 45 recommendations and a bill, it is 
a model of collegiality and informed deliberation, thanks to 
Chair Kilmer and Vice Chair Graves.
    The committee symbolizes what I like to think of as an 
Article I renaissance, a pivotal moment in our democracy where 
our Nation discovers and improves on the methods we use to 
govern ourselves. To be sure, building a more resilient system 
will require that we explore new ways for Congress to be 
informed, responsive, and effective in service to the American 
people.
    I have been working in a congressional capacity for 20 
years, 10 here on the Hill and 10 as an academic. I have never 
seen such focus, momentum, and concern for this institution as 
I do today. Not only are we hearing a great deal about Article 
I and the importance of Congress in the news, but behind the 
scenes, the gears are sparking.
    Members are innovating methods for including more 
constituent voice in the deliberative process. Piloting these 
methods is one way to build the shared responsibilities that 
make a democracy resilient. These Member-initiated connections 
not only yield a richer knowledge base for policy, they also 
reinvest trust and legitimacy in Congress itself.
    Indeed, civics is making a comeback. Who has not yet 
listened to the soundtrack of Hamilton the Musical? But here is 
the thing: Americans have spent over $640 million on Hamilton 
the Musical since it opened. That is $30 million more than this 
year's MRA, the Members' Representational Allowance. It is 
nearly five times the amount we spend on the operations of 
House committees, and it is 2-1/2 times more than what we are 
going to spend on the critical systems maintenance of this 
Chamber.
    Americans obviously love to sing the praises of democracy. 
Now we must explain to them why some of that love should be 
directed here to their most democratic institution. Working on 
the back end of a system is often invisible and goes 
unrecognized, but it is vital. Despite being understaffed, the 
technologists in Congress have overperformed. For example, 
Congress is now machine readable. Digital capacity has improved 
its work flow, and an unprecedented trove of data is now 
available to the public.
    Indeed, the legislative branch contains the memory of our 
democracy. Yet when it comes to modern technology and capacity, 
most of the attention has gone to the executive. For example, 
when the OPEN Data Act became law last year, it created 
requirements for the agencies to up their game on data, tech, 
and citizen engagement. Congress must be on par with the rest 
of our Federal Government. A resilient system has no single 
point of failure. Congress must be competitive, and this will 
require sustained investment.
    Innovation and constituent engagement is yielding results. 
Faculty at public universities, including the Ohio State 
University, have been encouraged by the Modernization Committee 
and have created representative and authenticated methods for 
constituents to connect to their Members. These methods intend 
to lower the costs and improve communication, and they help 
lawmakers find the signal in the noise. They offer an 
alternative to the inaccurate and weaponized information so 
prevalent on social media platforms.
    And here on the Hill, the Natural Resources Committee just 
last week rolled out an environmental justice bill created on a 
collaborative editing platform, and it was mostly written by 
the pollution-impacted communities across the USA.
    So we know that Congress is not geographically contained 
here on Capitol Hill. It exists in 900 district offices. Nearly 
half the staff of the House are outside of D.C.
    And this brings me to my final point, which is the need to 
view both Congress' civic data and its technical architecture 
as critical infrastructure that deserves special protection. We 
must create a secure communication system. The executive branch 
agencies have one. It is called FirstNet. Where is the FirstNet 
for Congress? What will we do if movement is prohibited, when 
Members are disbursed across the USA? The coronavirus tells us 
why we must act urgently on this matter. We cannot call 
ourselves a resilient democracy until Members can carry out 
their duties from afar.
    I will submit these comments for the record with more 
details, and I look forward to following up and assisting you 
with promoting the Article I renaissance that we are in right 
now.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Article I renaissance. I wrote it down. You may 
see it again.
    I appreciate your work. Thank you so much.
    Next, Policy and Government Affairs Associate for the 
National Taxpayers Union, Andrew Lautz. You have the floor.
                              ----------                              

                                          Wednesday, March 4, 2020.

                      CONGRESSIONAL BUDGET OFFICE


                                WITNESS

ANDREW LAUTZ, POLICY AND GOVERNMENT AFFAIRS ASSOCIATE, NATIONAL 
    TAXPAYERS UNION
    Mr. Lautz. Thank you.
    Chairman Ryan, staff of the subcommittee, thank you for the 
opportunity to submit testimony regarding the Fiscal Year 2021 
House Legislative Branch Appropriations bill.
    On behalf of National Taxpayers Union, the Nation's oldest 
taxpayer advocacy organization, we are urging the subcommittee 
to require a report from the Congressional Budget Office on the 
costs, benefits, and feasibility of allowing lawmakers to 
request and receive formal CBO cost estimates prior to 
legislative markups.
    CBO produces hundreds of formal cost estimates for proposed 
legislation every year, but almost 90 percent of these 
estimates are produced after a bill has been reported out of 
committee and to the full House or Senate. While CBO receives 
thousands of requests for informal reviews each year and will 
provide informal cost estimates for some bills prior to 
committee markup, it is clear that the vast majority of 
legislation marked up by congressional committees come with no 
formal cost estimate.
    For a group like NTU, this is troubling. NTU has had a 
major impact on tax, spending and regulatory policies for 
decades, and like the committees of Congress, we rely in part 
on CBO cost estimates to make the case for or against 
legislation with our grassroots network. Providing lawmakers 
with access to official public cost estimates prior to 
legislative markups would allow committee members, NTU, and 
other stakeholders to address the spending, revenue, and 
deficit impacts of legislation before bills are considered by 
the full Chambers.
    Fortunately, there is bipartisan interest in asking CBO to 
produce more formal cost estimates. In 2017, amidst the debate 
over House Republican replacements for the Affordable Care Act, 
Congressman Ro Khanna introduced legislation that would have 
required CBO to produce cost estimates before any ACA-related 
legislation was considered by the House Committees on Ways and 
Means, Energy and Commerce, or Rules. The legislation garnered 
13 Democratic co-sponsors representing 10 States.
    Many Republicans are also interested in this policy. The 
Republican Study Committee, which includes 147 House 
Republicans, introduced the following proposal in their fiscal 
year 2020 budget, and I quote: Allow the chairman of the 
committee or the chair of the Committee on the Budget to 
request CBO prepare a preliminary report, including estimated 
budgetary authority on legislation to be considered in 
committee.
    In 2018, then-House Budget Committee Chairman Steve Womack 
of Arkansas asked CBO how feasible it would be for CBO to 
provide cost estimates prior to markups. CBO answered in short, 
and I quote: About 65 analysts are devoted to producing cost 
estimates after full committee markup, but producing estimates 
on the routine basis before markup would eliminate some of the 
work that now occurs afterward. Nevertheless, the additional 
resources that would be required would probably be substantial.
    CBO added that it would be happy to prepare a detailed 
estimate, if helpful.
    Despite the potential need for additional resources at CBO, 
making cost estimates available prior to markups would allow 
lawmakers to more fully analyze and consider the budgetary 
impact of bills at an early stage in the legislative process. 
We believe that CBO should conduct a detailed study of this 
proposal, and to that end, we are requesting the following 
language be included in the fiscal year 2021 appropriations 
bill:
    Within 180 days of enactment, the Congressional Budget 
Office shall provide to appropriators and make publicly 
available a report on the costs and benefits of allowing 
certain lawmakers to request and receive formal cost estimates 
of legislation prior to committee markups. CBO should examine 
the feasibility, cost benefits, and drawbacks of allowing 
either the chair of the committee, the chair and ranking member 
of the committee, or the chairs and ranking members of the 
committees on the budget to request formal cost estimates and 
provide guidance on the amount of time and resources such 
requests would demand from CBO. It should also assess whether 
and how many additional personnel might be required to 
accomplish this task.
    As previously mentioned, NTU strongly supports allowing 
lawmakers to request formal cost estimates from CBO prior to 
legislative markups. However, we seek a clear picture of the 
additional burden such proposal will put on CBO and we request 
their input on the matter. We believe that a report from CBO is 
the best way to receive this input.
    Thank you for your time and consideration, and I am happy 
to answer any questions you have.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. I am glad you said that at the end because we, 
you know, obviously, you know, back in 2011, the budget for 
House accounts was $1.3 billion. Have you heard that before?
    Mr. Lautz. I have, believe it or not.
    Mr. Ryan. Okay. And so, you know, this is the whole 
conversation around the modernization is, how much does each 
component cost and how do we begin to make those arguments. But 
trust me, as a chairman and an appropriator, we would love to 
have the information at our fingertips sooner rather than 
later. So we appreciate you being here, and keep up the good 
work.
    Mr. Lautz. For sure. Thank you, Chairman.
    Mr. Ryan. All right. Thank you.
    All right. Next is the Director of Cyber and National 
Security from the Lincoln Network, Daniel Lips.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                    GOVERNMENT ACCOUNTABILITY OFFICE


                                WITNESS

DANIEL LIPS, DIRECTOR OF CYBER AND NATIONAL SECURITY, LINCOLN NETWORK
    Mr. Lips. Chairman Ryan, members of the subcommittee staff, 
thank you for the opportunity to testify. My name is Dan Lips. 
I am the Director of Cyber and National Security, with the 
Lincoln Network, a nonprofit organization that serves as a 
bridge between Silicon Valley, other technology hubs, and 
national policymakers.
    I am here to testify in support of the comptroller 
general's budget request and to urge Congress to provide 
necessary resources and hiring authorities to allow GAO to 
expand its Science, Technology Assessment, and Analytics team.
    Today, I will cover three topics: Putting GAO's budget 
request into historical context, GAO's return on investment 
over the past 20 years, and specifically the value that the 
STAA team offers Congress moving forward.
    First, GAO's budget proposal in historical context. A 12 
percent proposed increase may seem like a lot, given current 
budget constraints, and I recognize that Congress and the 
subcommittee have limited flexibility, but a review of 
historical data shows that this increase would only continue to 
rebuild GAO's reduced capacity from previous staffing levels. 
GAO's request includes funding for 3,250 FTEs, an increase of 
50 positions. But 30 years ago, GAO had more than 5,000 
employees, and despite operating with 1,800 fewer employees, 
GAO has delivered considerable value to Congress, as you know.
    A review of 20 years of GAO's self-reported taxpayer 
savings estimates shows that GAO's work has yielded more than 
$1.1 trillion in taxpayer savings and 25,000 in other 
government improvements. My written testimony includes a table 
showing a year-by-year breakdown of annual savings, benefits, 
and return on investments since 1999.
    And one key trend is that GAO's ROI has been increasing 
over the past decade. Since 2012, GAO's return on investment 
has been more than a hundred dollars in savings for every 
dollar Congress spends on GAO each year. And one reason for 
this increase return on investment is GAO's annual duplication 
report.
    In 2010, Congress mandated that GAO annually report on 
duplication across government programs thanks to an amendment 
by my former boss, Senator Tom Coburn. As of last year, GAO's 
work on duplication has yielded $262 billion in savings since 
2011. This shows that Congress can leverage its investment by 
focusing GAO's work in strategic ways, which brings me to the 
Science, Technology Assessment, and Analytics, or STAA team, 
and why Congress should focus new investments within GAO on 
this strategic priority.
    The comptroller general testified last week that the 
additional requested funding will be used in part to grow the 
STAA team, to provide scientific and technical assistance to 
Congress, to improve oversight of major acquisitions, 
technology, and science programs, and to advance GAO's use of 
data science and analytics in its auditing work. Each of these 
priorities will yield significant value to Congress.
    First, improving Congress' S&T capacity is a recognized 
bipartisan priority, as you well know, and we thank you for 
your leadership on that. Strengthening the STAA team will help 
Congress understand, analyze, and forecast major issues 
involving science and technology, as well as develop 
legislation and conduct oversight with greater independence.
    Second, improving oversight of Federal technology, 
acquisitions, and science programs will help Congress address 
some of the biggest challenges facing the Nation. From 
cybersecurity threats to critical infrastructures to risks 
related to potential pandemics, growing GAO's capacity to 
oversea tech, acquisitions, and science programs will help 
Congress fulfill its Article I responsibilities and strengthen 
national security and public safety.
    Third, using data science and advanced analytics to 
strengthen GAO's auditing has the potential to modernize and 
perhaps revolutionize Federal oversight and drive major 
savings.
    This week, GAO reported that Federal agencies made $175 
billion in improper payments in 2019. Imagine if the Federal 
Government could use data analytics to conduct continuous 
oversight in the same way that banks use data analytics to 
monitor credit card transactions. We could save tens of 
billions of dollars each year.
    In conclusion, I thank you again for the opportunity to 
testify. I urge the subcommittee to recognize the long-term 
value of increasing GAO's budget and particularly the STAA 
team. History shows that taxpayer dollars spent on GAO are 
among the best investments that Congress makes.
    Thank you.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan. Thank you.
    We love the GAO. Phenomenal operation.
    So you said $175 billion a year in overpayments?
    Mr. Lips. This is improper payments, the report they put 
out on Monday.
    Mr. Ryan. Okay. Where was that? Medicare? Medicaid?
    Mr. Lips. A lot of those programs but also others. And one 
of the findings in the report was that they can't even tell, 
because the agencies themselves don't know. But if they are 
able to use these data analytic tools to try and help agencies 
focus on that, we think there would be a lot of savings.
    Mr. Ryan. I appreciate you coming. I mean, especially on my 
side, we defend a lot of the government programs because we 
agree with their values and we agree with what the goals are, 
and we don't always do a great job of making sure that the 
government is running efficiently. And I think that is 
something, again, talking about bipartisanship and finding an 
issue or two that we can rally around, that should be one of 
them, I would think, to give the taxpayer the maximum bang for 
their buck. And $175 billion in payments that shouldn't be 
going out, that is a lot of money, even here in town.
    Mr. Lips. Absolutely.
    Mr. Ryan. Thank you.
    Mr. Lips. Thank you, sir.
    Mr. Ryan. Appreciate it.
    Next up, Laura Manley, Director of Technology and Public 
Purpose Project, from the Harvard Kennedy School.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

            IMPROVING SCIENCE AND TECH CAPACITY IN CONGRESS


                                WITNESS

LAURA MANLEY, DIRECTOR OF THE TECHNOLOGY AND PUBLIC PURPOSE PROJECT, 
    HARVARD KENNEDY SCHOOL
    Ms. Manley. All right. Thank you.
    Mr. Ryan. That sounds like a really cool job.
    Ms. Manley. It is cool.
    Mr. Ryan. Technology and Public Purpose.
    Mr. Ryan. All right. Tell us abut it.
    Ms. Manley. Right. Chairman Ryan and staff members of the 
committee, thank you for the opportunity to testify.
    My name is Laura Manley, and I am the Director of the 
Technology and Public Purpose Project at the Harvard Kennedy 
School's Belfer Center. We conduct research on how to integrate 
societal considerations like safety, privacy, security, and 
inclusion at each step of a new technology's development and 
management.
    I am here to tell you why it is critical to the safety and 
prosperity of this country to allocate resources towards 
improving science and tech capacity in Congress. In the past 
decade, social media, smartphones, cloud computing, genetic 
editing, and other technologies have changed how humans live, 
work, eat, and interact with one another. These technologies 
hold tremendous promise but also come with risks.
    Because of the United States' position as a global 
innovation leader, with 8 of the 10 largest tech companies in 
the world based here, the U.S. Congress more than any other 
institution in the world has the power to craft breakthrough 
legislation to help shape how our global society is impacted by 
emerging tech.
    Without the access to and understanding of leading science 
and tech expertise, Congress cannot be effective at leveraging 
new technologies for American innovation and prosperity. 
Furthermore, it cannot effectively protect its citizens from 
the unintended and sometimes insidious uses of these 
technological advances.
    Over the past 2 years, we have interviewed over 140 
stakeholders to understand how to increase the science and tech 
capacity for congressional personal offices and committees. 
Today, I want to highlight three recommendations based on our 
research.
    First, refund the Office of Technology Assessment to create 
objective institutional capacity on S&T issues. Congress should 
have a dedicated support agency with explicit expertise on 
science and tech issues with four main characteristics.
    One, it should be bicameral and a bipartisan body that is 
responsive to the needs of all Members, rather than senior 
leaders alone. Two, it should evaluate and thoroughly consider 
all options and ideas from a broad spectrum of diverse 
stakeholders. Three, be comprised of independent experts and, 
four, offer policy options, not solutions.
    In 2019, the subcommittee drafted an appropriations bill 
that allocated $6 million to the OTA. Separately, a bipartisan, 
bicameral group of Members introduced the Office of Technology 
Assessment Improvement and Enhancement Act, which seeks to 
refund and revitalize the OTA for the 21st century. Our 
research has led me to conclude that a newly reconstituted OTA 
offers the best opportunity to provide Members with objective, 
responsive science and tech expertise.
    While the GAO's STAA group has the potential to fill some 
of the S&T gaps, we heard reservations from several 
stakeholders consistently about its potential efficacy.
    Our second recommendation is to create a dedicated fund for 
STEM staffing. One of the most common ways for STEM talent to 
support Congress is through fellowships from organizations like 
AAAS and TechCongress, who place technical talent in personal 
offices and committees. Executive branch detailees also offer 
Congress technical expertise and additional STEM capacity.
    However, there is more demand for STEM talent in 
congressional offices and committees than external funders can 
support. For example, in the last fellowship cycle, there was 
congressional demand for over a hundred AAAS fellows but only 
enough to fund 33. Furthermore, these fellowships typically are 
time-limited placements which reduces institutional memory and 
makes it difficult to retain expertise over the long run.
    This subcommittee should create a dedicated fund that 
supports offices and committees in recruiting and retaining 
STEM talent. A new fund would stimulate demand for science and 
tech expertise within Congress and would serve as a signal to 
STEM talent that it is welcome and valued in the policy 
advising process. With a modest investment, this subcommittee 
can play an outsized role in encouraging personal offices and 
committees to hire STEM talent.
    In the first year, we recommend the fund be seeded with $1 
million to support salaries. In future years, this vehicle 
could be expanded and used to support STEM recruitment and 
training efforts.
    And, lastly, address workforce salary concerns to attract 
and retain STEM talent. The legislative branch is underfunded, 
compromising just .7 percent of the nondefense discretionary 
spending. The fiscal year 2020 Members' Representational 
Allowance is 15 percent lower than a decade ago, adjusted for 
inflation, even as the average numbers of constituents served 
by Members continues to increase. As a result, Representatives 
are tasked with doing more with less, whether by hiring fewer 
staff or paying existing staff less.
    According to the Brookings Institution, between 1979 and 
2015, staffing on committees and support agencies has been cut 
by 40 percent each. Overworked and underpaid staff don't have 
the time to develop expertise on the S&T issues they are 
responsible for covering. Congress should increase committee 
budgets, allowing them to hire additional staff members and pay 
more competitive salary, which will help them retain the staff 
they already have.
    Specific to the House, Congress should raise Members' 
personal office budgets, remove the cap on office personnel, 
and increase staff pay ceilings.
    Chairman Ryan, you are already an internal champion of 
increasing congressional capacity, as are many members who 
serve on this subcommittee. You now have an opportunity to lay 
the foundation necessary to increase Congress' science and tech 
expertise for the years ahead. To build support for these 
necessary changes, I recommend that you establish a fund that 
is bipartisan and bicameral with a working group to investigate 
these issues and propose actionable changes that Congress can 
make to increase its internal capacity. Additionally, I 
recommend that you hold hearings over the course of 2020 to 
bring attention to how the underfunding of Congress makes it 
more difficult to effectively carry out its constitutional 
duties.
    Thank you very much again for the opportunity to testify.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Thank you. We appreciate what you are saying. I 
mean, there is obviously a need here for more expertise as 
things get more complicated.
    Ms. Manley. Right.
    Mr. Ryan. And that is what you are advocating for. We 
should continue the conversation. I think these ideas around 
STEM staffing and trying to better connect the talent to 
Congress, I think, is a noble goal, one that we share. So let's 
stay in touch. I really appreciate you coming.
    Ms. Manley. I appreciate it.
    Mr. Ryan. Thank you so much.
    Next is the Executive Director of Issue One, Meredith 
McGehee.
    Ms. McGehee. Good afternoon.
    Mr. Ryan. Good afternoon. The floor is yours.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

                   CAPACITY OF THE LEGISLATIVE BRANCH


                                WITNESS

MEREDITH McGEHEE, EXECUTIVE DIRECTOR, ISSUE ONE
    Ms. McGehee. Thank you, Chairman Ryan, and thank you, 
staff, for all your hard work.
    I am coming here today as Executive Director of Issue One, 
a leading cross-partisan organization that works with 
Republicans, Democrats, and Independents on trying to fix the 
broken political system.
    Mr. Ryan. We are going to give you 45 minutes.
    Ms. McGehee. Exactly. And I want to be very clear. You 
know, it is not that we do that because, we think there is an 
inherent kind of end in bipartisanship; it is just how you get 
stuff done.
    And the reason that I wanted to come in person, actually, 
is I have spent more than three decades here on the Hill as a 
public interest advocate and lobbyist, and I have worked on a 
range of issues, as you can well imagine, from the role of 
money in politics to ethics. I testified before several task 
forces on congressional ethics, and just really almost anything 
to do with how Washington works, lobbying, accountability.
    And I love the work and I love the opportunity to do this. 
But what I have seen over those three decades is a hollowing 
out of the staff that is weakening Congress. We have heard from 
Lorelei about the Article I renaissance. The Select Committee, 
we have been working very closely with Mr. Kilmer and Mr. 
Graves to try and figure out how to really make some good 
recommendations.
    But I wanted to come in person to you today because I think 
most Members know what is going on here in terms of your pure 
capacity, Congress' capacity to fight back against kind of a 
runaway system in which the executive branch has just--really 
is able to run circles around what happens in Congress. But 
there is another aspect to this kind of system as well, and 
that is, without staff retention and without really being able 
to having experienced staff, it also allows K Street and the 
other special interests to run circles around staff here as 
well.
    You can imagine, as I have been doing this for many years, 
I go in now, and most the staff I meet with are not only young 
enough to be my kids, but maybe my grandkids in some cases, and 
they are almost to a person very well-motivated, smart, really 
want to be here. They have chosen to come here, even though the 
salary--starting salary on the Hill is like $32,000. If they 
went out as a college graduate, it would be about $50,000. But 
they come here because they want to be here.
    The bad news is, is that I know that sometimes where you 
put a comma in the piece of legislative drafting changes the 
meaning, and all the good intentions in the world don't really 
outweigh the experience that many of the other folks on the 
outside bring to bear here.
    I have seen many times where, staff is told by their boss, 
go draft this bill. So they go out and say, well, what am I 
supposed to do? So what do they do? They call up the interests 
often that are going to be affected by it. If it is something 
dealing with democracy fund, if I am lucky, they call me. But, 
you know, what happens in this is that when you are young and 
inexperienced, you don't know where the bodies are buried, and 
so staff retention is a key element of this.
    So in the written testimony, we have outlined a number of 
these issues about Congress' capacity. Most Members I know--and 
I talk to Members almost every day--are aware of the dynamic 
here.
    So I want to focus in on two particular things that I think 
would make a big difference. Not only is pay an issue, you have 
got to pay people to be able to get them to stay. I see 
repeatedly people come. They stay here a few years. They get 
married. They have their first kid. Then they have to send 
their kid either to daycare or to school, and they can't afford 
to be here anymore. We are losing people from this place right 
at the time where we need them.
    The other part I want to highlight here, though, is that 
about half the people I have lobbied in my life who leave the 
Hill, which is almost everybody, I feel like, is really the 
problem of management. You know, the chiefs of staff and the 
legislative directors, committee folks, often have been--have 
moved up through the system because of their policy expertise, 
not because they know how to manage people.
    And so this ability for Congress to spend some time when 
you get to a point in your career where you are actually 
managing people, that you have to get management training. 
There are too many screamers. There are too many other 
situations here where the management is a large part of why 
people leave.
    So I just wanted to come up in person--as I say, you can 
see this, there are some really good recommendations out of the 
Select Committee--but to make a plea on behalf of the American 
people. They are not well served when special interests who can 
afford to sometimes triple salaries of staff and come and work 
on that behalf of the private interests. It is the American 
people that suffer.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. Amen.
    Ms. McGehee. So thank you.
    Mr. Ryan. Amen, amen, amen. Thank you so much for your 
work. And it is really important to have people like you say 
that, as opposed to people like us because, of course, it 
sounds like we just want to pay our staffs more.
    Ms. McGehee. Right.
    Mr. Ryan. And it looks self-serving. The reality of it is, 
having been a staffer and have worked here and watched the 
disinvestment, it is critical.
    Ms. McGehee. Right. And it is the thing that best serves 
your constituents. You know, I think it is not about feathering 
your own nest, right?
    Mr. Ryan. Yeah.
    Ms. McGehee. It is ensuring that your constituents are best 
served, and we are trying to get that message out in many ways.
    Mr. Ryan. We appreciate it. And into the management 
training as well. You weren't here when they were pitching the 
recommendations, but they mentioned the training for Members 
and leadership training for Members of which, of course, 
managing people would be part of that.
    Ms. McGehee. And then, you know, on the Hill, the actual 
management of people often falls, not to the Member, but to the 
chief of staff or to the LDs, and same on committees.
    Mr. Ryan. Push it off on them. Absolutely.
    Ms. McGehee. Well, you guys are busy doing other things.
    Mr. Ryan. Well, we appreciate you. Thank you so much for 
coming.
    Ms. McGehee. Thank you. Thank you for holding the hearing.
    Mr. Ryan. Our final witness is the Deputy Director of 
Internet Architecture Project, Center for Democracy and 
Technology, Maurice Turner.
    The floor is yours.
                              ----------                              --
--------

                                          Wednesday, March 4, 2020.

INCREASING TECHNICAL LITERACY AND CAPACITY WITHIN CONGRESSIONAL MEMBER, 
                     COMMITTEE, AND SUPPORT OFFICES


                                WITNESS

MAURICE TURNER, DEPUTY DIRECTOR, INTERNET ARCHITECTURE PROJECT, CENTER 
    FOR DEMOCRACY AND TECHNOLOGY
    Mr. Turner. Good afternoon, Chair Ryan, members of the 
subcommittee, staff, everyone listening. My name is Maurice 
Turner, Deputy Director, Center for Democracy and Technology. 
My testimony focuses on the practical implications of 
increasing technical literacy and capacity within congressional 
member, committee, and support offices. There is a dire need 
for Congress to have access to unbiased, timely, technical 
understanding across a number of technology-related issues 
facing America today.
    Technology innovation has been the foundation of American 
prosperity for generations. A significant structural challenge 
that Congress faces today is its inability to keep pace with 
the technological innovations. Companies at the forefront of 
those innovations are, in fact, incentivized by profit-seeking 
motives to maintain a knowledge gap between themselves and 
their congressional regulators. Researchers and advocacy 
groups, like CDT, play an important role in filling some of 
this knowledge gap, with the understanding that they have 
limits to their ability to access technical information, employ 
technical experts, and fund sustained efforts across multiple 
domains of expertise.
    Congress needs the support of a dedicated, independent 
technology research and assessment office, one that can answer 
key questions around technology's impact on the people in the 
U.S., and also do so at the pace of technology rather than at 
the pace of political change. In short, it needs to create 
career paths on the Hill for nonlawyers, for the kind of people 
who are comfortable wearing a suit, as well having stickers on 
their laptops.
    Former House staffer Travis Moore recognized this gap, and 
he did something about it. He created a program called 
TechCongress to bring those kinds of folks to congressional 
offices as fellows. That is how I got my mid-career break into 
tech policy. I have spent my entire professional life weaving 
through different levels of government and across multiple 
sectors with the goal of leveraging technology to bring 
improved access and the efficiency to government services. So 
much of my career has been spent trailblazing a path, because 
so few opportunities exist for someone with interests in both 
policy and technology.
    Other fellows have come through the TechCongress program 
from tech companies like Microsoft, Google, and IBM, from other 
advocacy groups, and even from branches of our very own 
military. They have been placed in influential committee and 
leadership offices in the House and Senate because their 
skills, experiences, and insights are valuable and directly 
support the work of other staffers. Career pathways like this 
should be expanded and codified to build a congressional 
pipeline of technical expertise.
    The Federal Government is facing a once-in-a-lifetime 
fiscal challenge that are projected to cost trillions of 
dollars in areas like healthcare and infrastructure. Some of 
that will be paid for with the efficiencies gained by 
developing and leveraging new technologies. By investing in the 
policy process itself, Congress can be better equipped to 
monitor, react, and respond to modern issues in time for 
American values to be incorporated, rather than ceding that 
global leadership role to other powers like the European Union 
or China.
    I thank you for the opportunity to express my support for 
the committee's commitment to sustained and increasing funding 
of efforts to attract individuals and cultivate career 
opportunities that increase the technical literacy and capacity 
within congressional member, committee, and support offices.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Ryan. I think there is definitely a general theme here, 
not with everything, but upgrade, technology, more of a focus, 
more of an investment. So, again, $2.5 billion increase this 
year for all nondefense discretionary divided by 11 
subcommittees. So we are going to do the best we can.
    Mr. Taylor. Keep fighting for that share.
    Mr. Ryan. Well, we sure will. Don't worry about that. But 
we appreciate you coming in and sharing your story.
    Mr. Taylor. All right. Thank you.
    Mr. Ryan. Thank you.
    And I would thank all the public witnesses. Thank you so 
much.
    This committee is adjourned.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     

                              [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
